<html>
<title> - DHS PLANNING AND RESPONSE: PRELIMINARY LESSONS FROM DEEPWATER HORIZON</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
 DHS PLANNING AND RESPONSE: PRELIMINARY LESSONS FROM DEEPWATER HORIZON

=======================================================================

                                HEARING

                               before the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 22, 2010

                               __________

                           Serial No. 111-80

                               __________

       Printed for the use of the Committee on Homeland Security

                                     

[GRAPHIC] [TIFF OMITTED] TONGRESS.#13


                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
66-030                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6205120d22011711160a070e124c010d0f4c">[email&#160;protected]</a>  

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Loretta Sanchez, California          Peter T. King, New York
Jane Harman, California              Lamar Smith, Texas
Peter A. DeFazio, Oregon             Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
    Columbia                         Michael T. McCaul, Texas
Zoe Lofgren, California              Charles W. Dent, Pennsylvania
Sheila Jackson Lee, Texas            Gus M. Bilirakis, Florida
Henry Cuellar, Texas                 Paul C. Broun, Georgia
Christopher P. Carney, Pennsylvania  Candice S. Miller, Michigan
Yvette D. Clarke, New York           Pete Olson, Texas
Laura Richardson, California         Anh ``Joseph'' Cao, Louisiana
Ann Kirkpatrick, Arizona             Steve Austria, Ohio
Bill Pascrell, Jr., New Jersey       Tom Graves, Georgia
Emanuel Cleaver, Missouri
Al Green, Texas
James A. Himes, Connecticut
Mary Jo Kilroy, Ohio
Dina Titus, Nevada
William L. Owens, New York
Vacancy
Vacancy
                    I. Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security..............................................     1
The Honorable Anh ``Joseph'' Cao, a Representative in Congress 
  From the State of Louisiana:
  Oral Statement.................................................     2
  Prepared Statement.............................................     4
The Honorable Laura Richardson, a Representative in Congress From 
  the State of California:
  Prepared Statement.............................................     5

                               WITNESSES
                                Panel I

Mr. Kevin Costner, Ocean Therapy Solutions:
  Oral Statement.................................................     6
  Prepared Statement.............................................     9
Mr. Craig Paul Taffaro, Jr., St. Bernard Parish, Louisiana:
  Oral Statement.................................................    11
  Prepared Statement.............................................    14

                                Panel II

Mr. Richard M. Chavez, Acting Director, Operations Coordination 
  and Planning, Department of Homeland Security:
  Oral Statement.................................................    44
  Prepared Statement.............................................    46
Rear Admiral Peter Neffenger, Deputy National Incident Commander, 
  Deepwater Horizon Oil Spill Response:
  Oral Statement.................................................    47
  Prepared Statement.............................................    49
Mr. Richard L. Skinner, Inspector General, Department of Homeland 
  Security:
  Oral Statement.................................................    55
  Prepared Statement.............................................    57
Mr. William O. Jenkins, Jr., Director, Homeland Security and 
  Justice Issues, Government Accountability Office:
  Oral Statement.................................................    60
  Prepared Statement.............................................    61

                                Appendix

Questions From Chairman Bennie G. Thompson of Mississippi for 
  Richard M. Chavez..............................................    81
Questions From Chairman Bennie G. Thompson of Mississippi for 
  Peter Neffenger................................................    86
Questions From Honorable Gus M. Bilirakis of Florida for Peter 
  Neffenger......................................................    87


 DHS PLANNING AND RESPONSE: PRELIMINARY LESSONS FROM DEEPWATER HORIZON

                              ----------                              


                     Wednesday, September 22, 2010

                     U.S. House of Representatives,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:04 a.m., in Room 
311, Cannon House Office Building, Hon. Bennie G. Thompson 
[Chairman of the committee] presiding.
    Present: Representatives Thompson, Sanchez, Norton, Jackson 
Lee, Cuellar, Clarke, Richardson, Pascrell, Cleaver, Green, 
Lungren, Rogers, McCaul, Bilirakis, and Cao.
    Chairman Thompson. The committee will come to order.
    The committee is meeting today to receive testimony on 
DHS's planning and response and preliminary lessons from 
Deepwater Horizon. I want to thank the witnesses for agreeing 
to testify at today's hearing.
    This hearing is not the first examination of the oil spill 
this committee has undertaken. On June 21, the committee 
traveled to the Gulf Coast to see the effects of the oil spill. 
On July 12, the Subcommittee on Management, Investigations, and 
Oversight conducted a field hearing in New Orleans to examine 
the response command structure and to take testimony about the 
lines of communication between State, local, and Federal 
authorities. So after we have taken those close-up shots of 
this disaster, it is now time to act on the big picture.
    Today, we are here to examine lessons from the Deepwater 
Horizon oil spill. Let me be clear. This hearing is not to 
examine the Coast Guard's readiness. By all accounts, the Coast 
Guard has performed admirably in responding to the largest oil 
spill in history. The Coast Guard was the first on the scene, 
conducting search and rescue following the April 12 explosion 
on the Deepwater Horizon oil rig. After the success of the 
final well kill procedures on September 19, the Coast Guard is 
likely to remain in the area, overseeing reclamation efforts 
for a very long time to come.
    But as we turn the page on this episode, I want to make 
sure that we do not close the chapter in this book. Instead, we 
must take the opportunity to examine the Department's role in 
incident management and the part it plays in coordinating other 
Federal agencies in any response scenario.
    Since 2003, the Department has become the Federal agency 
the public turns to for leadership when a disaster occurs. Yet, 
the Department's involvement and leadership in developing and 
implementing disaster response plans remains unclear. The 
Deepwater Horizon oil spill is an example of an instance in 
which the Department was expected to provide leadership in 
response to recovery activities. Yet, as we now know, the 
Department did not have a role in reviewing or assessing the 
plans for the response and recovery of this type of disaster. 
The agency that regulated the industry reviewed the response 
plan.
    In the course of preparing for this hearing, we have 
discovered other instances in which the Department will likely 
be expected to play a role in response but has been given no 
role in planning. For instance, the Nuclear Regulatory 
Commission requires each nuclear power plant to develop and 
periodically test a detailed emergency response plan. While it 
appears that FEMA plays some role in reviewing certain aspects 
of those plans, it is not clear whether FEMA can or should work 
with the NRC, the private-sector owners, or local authorities 
in fine-tuning those emergency response plans.
    In another instance, under the Clean Air Act, the 
Environmental Protection Agency has oversight of risk 
management planning at facilities that handle hazardous 
substances. The owners and operators of those facilities 
prepare risk management plans. Those plans are submitted to 
EPA.
    The first lesson from the oil spill is that the agency that 
regulates should not review the disaster response plan, as it 
seems that the law could be interpreted to ensure that the 
Department of Homeland Security is involved in those reviews.
    Under Homeland Security Presidential Directive, HSPD-8, the 
Secretary of Homeland Security is a principal Federal official 
for coordinating the implementation of all-hazard preparedness 
in the United States. FEMA, reporting to the Secretary, has 
responsibility for emergency planning. Yet, in February, the 
Department of Homeland Security's Inspector General released a 
report which found that DHS had not completed a full set of 
plans for any single disaster scenario.
    The Department has said that the failure to create those 
plans is a result of a shortage of Federal planners. The 
Department has also indicated that it does not have authority 
to oversee Federal agency operation plans or require any agency 
to coordinate its plans with DHS or other agencies.
    So we are here today to examine a very simple proposition: 
If you fail to plan, do you plan to fail? I hope that we can 
all agree that failure is not an option.
    Again, I want to thank the witnesses for appearing today 
and look forward to their testimony. I now recognize the acting 
Ranking Member of the full committee, the gentleman from 
Louisiana, Mr. Cao, for an opening statement.
    Mr. Cao. Thank you very much, Mr. Chairman. I would like to 
thank you for this hearing and for your continued attention to 
this spill that has impacted our district and the districts of 
many numbers of Members of this committee.
    Unfortunately, due to a scheduling conflict, Ranking Member 
King is not able to be here today. So, on his behalf, I would 
like to welcome the witnesses and to thank them for taking the 
time to be here today.
    I also owe gratitude to Ranking Member King and the 
Republican staff for this opportunity and for their help in 
preparing today.
    I look forward to working with my committee colleagues on 
conducting a thorough analysis of the response such that we are 
able to walk away with an honest assessment of any missteps as 
well as a set of best practices that we can use in the future. 
With thousands of active and inactive wells and critical 
infrastructure in the Gulf, it is inevitable that we will find 
ourselves needing to respond to another disaster, security 
crisis, or, even worse, a terror attack. How we respond and 
mitigate will determine whether any new incident has the 
detrimental impact of the Deepwater Horizon. My plan is to make 
sure that none does.
    The Joint Command did work with BP to align a combination 
of containment vessels, booming, and controlled burns to 
mitigate the oil flow while overseeing a permanent solution. 
The command, under Admiral Allen's watch, did see the well 
successfully capped and the oil flow stopped.
    We seem to be poised for a smooth transition into the 
recovery phase of the Deepwater Horizon disaster. However, 
there are questions about the chain of command and creating a 
clear mission for the Department in light of the legal burden 
on the responsible party, BP. There are questions about 
transparency and access to the spill site. Additionally, this 
spill highlighted an on-going need to focus on the Gulf Coast's 
vulnerable energy infrastructure and what it means in terms of 
homeland security issues.
    It is also my understanding that around 1,700 Active duty 
and Reserve personnel are still deployed to the Gulf region. I 
have heard concerns that the Coast Guard's redeployment of 
assets to the Gulf may be leaving other parts of the country 
potentially vulnerable. I am curious as to how the search 
operations are funded, where the Coast Guard personnel came 
from, and how the Coast Guard is back-filling to ensure 
missions are not suffering as a result of these deployments.
    To improve a variety of elements related to the oil spill, 
Republican Members of the committee have introduced legislation 
which addresses many of the administration's shortcomings. For 
example, I have recently introduced H.R. 5684, the Maritime 
Infrastructure Security and Counterterrorism Act, which was 
referred to this committee and would require the Secretary to 
commission an independent review of the risk of a terrorist 
attack on offshore energy infrastructure in the Gulf of Mexico. 
It is my hope that this committee follow up on this hearing by 
acting on legislation referred to it that addresses the 
homeland security elements of this disaster.
    I look forward to hearing from our witnesses especially 
regarding any lessons learned by the Department that can be 
applied in future disaster planning and recovery operations and 
whether the organizational framework and authorities for 
responding to disasters is sufficient going forward. I also 
look forward to hearing from our local witnesses, Mr. Craig 
Taffaro, and others. He, like me, has been on the front lines 
of this disaster from Day 1 and has a lot to say about how the 
administration and the Department handled things.
    Again, Mr. Chairman, I want to thank you personally for 
this hearing, and I yield back.
    [The statement of Hon. Cao follows:]

           Prepared Statement of Honorable Anh ``Joseph'' Cao

    I would like to thank Chairman Thompson for this hearing and the 
continued attention to the spill that has impacted our districts and 
the districts of a number of Members of this committee. Unfortunately, 
due to a scheduling conflict Ranking Member King is not able to be here 
today. So on his behalf I would like to welcome the witnesses and thank 
them for taking the time to be here today. I also owe gratitude to 
Ranking Member King and the Republican staff for this opportunity and 
their help preparing today.
    I look forward to working with my committee colleagues on 
conducting a thorough analysis of the response such that we are able to 
walk away with an honest assessment of any missteps as well as a set of 
best practices that we can use in the future.
    With thousands of active and inactive wells and critical 
infrastructure in the Gulf, it is inevitable that we will find 
ourselves needed to respond to another disaster, security crisis, or 
even worse a terror attack. How we respond and mitigate will determine 
whether any new incident has the detrimental impact of the Deepwater 
Horizon explosion. My plan is to make sure that none does.

                                RESPONSE

    The Joint Command did work with BP to align a combination of 
containment vessels, booming, and controlled burns to mitigate the oil 
flow while overseeing a permanent solution.
    The command, under Admiral Allen's watch, did see the well 
successfully capped and the oil flow stopped.
    We seem to be poised for a smooth transition into the recovery 
phase of the Deepwater Horizon disaster.
    There are questions about chain of command and creating a clear 
mission for the Department in light of the legal burden on the 
responsible party, BP.
    There are questions about transparency and access to the spill 
site.
    Additionally, this spill highlighted an on-going need to focus on 
the Gulf Coast's vulnerable energy infrastructure and what it means in 
terms of homeland security.

                               YOUR BILL

    To improve a variety of elements related to the oil spill, 
Republican Members of the committee have introduced legislation which 
addresses many of the administration's shortcomings.
    For example, I recently introduced H.R. 5684, the Maritime 
Infrastructure Security and Counterterrorism Act, which was referred to 
this committee and would require the Secretary to commission an 
independent review of the risk of a terrorist attack on offshore energy 
infrastructure in the Gulf of Mexico. It is my hope that this committee 
follow up on this hearing by acting on legislation referred to it that 
addresses the Homeland Security elements of this disaster.
    I look forward to hearing from our witnesses, especially regarding 
any lessons learned by the Department that can be applied in future 
disaster planning and recovery operations and whether the 
organizational framework and authorities for responding to disasters is 
sufficient going forward.
    I also look forward to hearing from our local witness, Mr. Craig 
Taffaro, President of Saint Bernard Parish. He, like me, has been on 
the front lines of this disaster from Day 1 and has a lot to say about 
how the administration and Department handle things.

    Chairman Thompson. Other Members of the committee are 
reminded that, under committee rules, opening statements may be 
submitted for the record.
    [The statement of Hon. Richardson follows:]

            Prepared Statement of Honorable Laura Richardson
                           September 22, 2010

    Mr. Chairman, thank you for convening this hearing today focusing 
on the Department of Homeland Security's role in planning the disaster 
response related to the Deepwater Horizon Oil Spill, which the 
Secretary of the Department of Homeland Security (DHS) deemed a Spill 
of National Significance. I extend a special welcome to the witnesses.
    On April 20, 2010, an explosion and fire occurred on the Deepwater 
Horizon oil rig, located approximately 72 miles southeast of Venice, 
Louisiana in the Gulf of Mexico. Several days after the explosion, the 
well was reported to be leaking oil at an estimated 60,000 barrels per 
day. The leak continued for nearly 2 months until June 15, 2010, when 
the leak was successfully capped and oil stopped leaking from the well.
    However, even after the oil was originally capped, the ultimate 
effects that the oil spill had on the Gulf Coast were staggering. In 
Louisiana and Mississippi alone, the oil spill affected nearly 700 
miles of the total tidal shoreline. It also closed approximately 83,927 
square miles of Federal waters, severely damaged the Gulf's delicate 
ecosystem, and ruined hundreds, if not thousands, of businesses along 
the coast.
    In total, 4.9 million barrels of crude, or 206 million gallons 
leaked from the Deepwater Horizon well, nearly half the amount of crude 
oil imported by the United States daily. At current market prices 
($81.17 per barrel on September 10, 2010), the value of the crude oil 
spilled into the Gulf of Mexico exceeds $397 million. The direct and 
indirect economic damage and social costs of the Deepwater Horizon Gulf 
oil spill are unprecedented and will be felt for years.
    As Chair of the Homeland Security Subcommittee on Emergency 
Communications, Preparedness, and Response, I visited the Gulf twice, 
on June 21 and then again from July 11-13, to observe first-hand the 
impact of the worst oil spill in our Nation's history on the local 
economy, environment, and quality of life of the people of the Gulf 
region. Based on my observations and on numerous discussions with 
Federal officials and local officials and stakeholders, it was and is 
apparent that new remedial legislation is needed to address the complex 
problems that have arisen as a result of this tragic incident.
    Upon my return from the Gulf, I reported my observations and 
recommendations to the House in a Special Order on July 21, 2010 and 
subsequently documented them in my report to the administration, the 
House leadership, and Chairman Thompson. I ask unanimous consent that 
the attached copy of my report be included in the record of this 
hearing.*
---------------------------------------------------------------------------
    * The document has been retained in committee files.
---------------------------------------------------------------------------
    As the representative of California's 37th district, I also 
represent THUMS islands, which contain a number of offshore drilling 
platforms located less than a mile offshore from the district's coast. 
Although these drilling platforms are different in nature from the 
Deepwater Horizon, there is always the potential risk of an oil spill. 
Considering its proximity to the shores of Long Beach, any major oil 
spillage could severely impact the region's beaches, ports, and 
livelihoods of hundreds of thousands of persons living or working in 
the adjacent communities.
    Thus, it is incredibly important for us to evaluate the response to 
the Deepwater Horizon Oil Spill in order to make sure the Department of 
Homeland Security is fully prepared and equipped to respond to any 
future incidents swiftly, effectively, and in manner that minimizes 
damage and danger to persons, property, and the environment. That is 
the purpose of today's hearing.
    I will soon introduce two bills: H.R. ------, the Oil Spill 
Prevention and Return to Yesterday Act of 2010 (``OSPREY Act''), and 
H.R. ------, the Securing Health for Ocean Resources and Environment 
Act of 2010 the (``SHORE Act''), the latter the House companion to S. 
3597 introduced in the Senate by Senator Rockefeller of West Virginia.
    H.R. ------, the Oil Spill Prevention and Return to Yesterday Act 
of 2010 (``OSPREY Act'') has three key features. First, it requires 
that any applicant or a permit to drill for oil and gas on the outer 
Continental Shelf must submit and have approved by the Secretary of 
Interior an oil spill response and restoration plan.
    Second, the response plan required to be submitted and approved 
must provide for effective and prompt response to and clean-up of any 
discharge of oil occurring in the course of operations under the 
authorization, including a detailed description of the containment boom 
and other equipment that is required to implement the rapid response 
plan, how it will be made available, and where it will be stored.
    Third, the environmental restoration plan required to be submitted 
must provide for restoration of the environment following such a 
discharge to the condition that existed before the discharge.
    The other legislative proposal I intend to introduce, H.R. ------, 
the Securing Health for Ocean Resources and Environment Act of 2010 the 
(``SHORE Act'') will enhance at the Federal and local level 
governmental communication, preparedness, and response to oil spills. 
Specifically, the SHORE Act will:
    1. Improve NOAA's spill response, containment, and prevention 
        capacity;
    2. Better define coordination between Federal and State response 
        activities;
    3. Better define coordination between NOAA, the Coast Guard, and 
        the Department of Interior;
    4. Clarify existing authority for NOAA to receive funds from the 
        Oil Spill Liability Trust Fund (OSLTF) for its mandates under 
        the Oil Pollution Act (OPA);
    5. Double the amount the Coast Guard may receive from the OSLTF 
        each year, with a percentage dedicated toward oil spill 
        research and development;
    6. Invest in a damage assessment and restoration revolving fund;
    7. Mandate improvements in the frequency and quality of Coast Guard 
        safety inspections and certification requirements;
    8. Require prompt posting by Coast Guard Unified Command of oil 
        spill Incident Action Plans on a publicly accessible website;
    9. Provide new authority to promote prompt decision making with 
        regard to fisheries re-openings and closures in a coastal oil 
        spill response;
    10. Strengthen coastal State oil spill planning and response; and
    11. Direct NOAA to develop a long-term monitoring and research 
        program for the Gulf of Mexico.
    I believe these bills will help remedy some of the emergency 
planning and response problems that were revealed by the Deepwater 
Horizon disaster.
    Thank you again Chairman Thompson for convening this hearing. I 
very much look forward to hearing from our distinguished panel of 
witnesses.
    Thank you. I yield back my time.

    Chairman Thompson. I now welcome our first panel of 
witnesses.
    Our first witness is Mr. Kevin Costner. Since 1993, Mr. 
Costner is both an actor and an entrepreneur in oil spill 
cleanup and oil water separator technologies. In the last 15 
years, he has founded Costner Industries, cofounded Ocean 
Therapy Solutions, and has committed over $20 million towards 
research and development in oil spill cleanup and recovery.
    Welcome.
    Our second witness is Mr. Craig Taffaro, Jr. Mr. Taffaro is 
the President of St. Bernard Parish in Louisiana and has been 
since 2008. Before that, he served for 8 years as District D 
parish councilman.
    Without objection, the witnesses' full statements will be 
inserted into the record. I now recognize Mr. Costner to 
summarize his statement in as reasonable an amount of time as 
possible.
    Mr. Costner.

      STATEMENT OF KEVIN COSTNER, OCEAN THERAPY SOLUTIONS

    Mr. Costner. So I guess you have seen my movies.
    Chairman Thompson. Well, the good and the bad.
    Mr. Costner. I guess that list can be pretty long on both 
sides, probably.
    Mr. Chairman, Members of the committee, thank you for this 
opportunity to appear before you today to discuss the lessons 
learned from the BP Deepwater Horizon oil spill.
    Unfortunately, it continues to remain a critical issue for 
our country and, in fact, the world. But it also poses two 
giant questions: No. 1, do we have the capacity today to 
protect our environment from oil spills, large or small; and, 
if we do, then why didn't we perform better? No. 2, if we 
don't, then how quickly can we put in place a credible plan for 
spills that we know are going to continue now and into the 
future, man-made or otherwise? I say ``otherwise'' because I 
know this body has no greater task than to anticipate the 
nature of all attacks that can take American lives and disrupt 
our economic way of life.
    Americans and the world need to demand that the oil 
industry put this on-going problem front and center; to demand 
that the same energy and the same financial resources that send 
this industry around the world in pursuit of oil be brought to 
bear to address the safety of America; that the same appetite 
that drives them to drill in conditions and depths that boggle 
the mind, where no cost seems too great, we need to demand that 
the same will, that that same mindset be brought to the defense 
of an ecosytem that cannot speak for itself.
    Americans demand that this nightmare that continues to 
chase us into the 21st Century be solved with real solutions, 
solutions that don't depend on dispersants, burning, and public 
relations. What we don't need is a cosmetic show of force or a 
500-page report that is obsolete.
    This plan was strategically and economically formed to take 
advantage of existing vessels that are currently working in the 
Gulf. The plan we propose begins on page 4 of the booklet in 
front of you. It consists of three tiers: A first response, 
followed by an overwhelming response, and backed up by a 
shallow water last line of defense. It consists of 190 vessels; 
and it incorporates state-of-the-art booming, skimming, 
separation, and storage capacity.
    The plan is simple, and it is easy to understand. It is 
backed up by logistics, science, and engineering. It is an 
aggressive strategy built around rapid deployment, overwhelming 
response, and a mechanical recovery of oil from water.
    As we examine the plan going forward, you will see a 
graphic on page 6 of these 33 deepwater rigs that were being 
drilled at the time of the Macondo accident. These rigs are 
serviced by 40 deepwater platform vessels that operate through 
the Gulf on a 24-hour basis. Our plan takes advantage of these 
existing assets and will retrofit them with state-of-the-art 
oil spill recovery technology, giving them a dual purpose, 
should they be called upon.
    They have a storage capacity of approximately 12,000 
barrels. In the event of an accident of the magnitude of the 
Deepwater Horizon, we would be able to deploy six of these 
vessels to the accident within 2 to 3 hours.
    Page 7 shows the overwhelming response that would follow, 
with 30 offshore supply vessels making their way back to the 
shore to predetermined coastal response facilities where they 
will be loaded with dedicated oil recovery equipment that has 
been pre-fitted for the vessels. They will have a storage 
capacity of 6,000 barrels and can be deployed within 48 hours. 
At the same time, 10 deepwater barges with an average capacity 
of over 100,000 barrels will be moving simultaneously and on 
site within 96 hours.
    If this was the Deepwater Horizon and we elected to throw 
this fleet of 80 ships at it--our own kitchen sink, if you 
will--we would have the storage and processing capacity of over 
1.5 million barrels.
    It is also important to understand that our plan does not 
consider the Deepwater Horizon as a worst-case scenario. Given 
the dangerous world that we live in, we have anticipated a 
situation where five Deepwater Horizons could simultaneously 
occur. On page 8, you will see that we would handle this 
situation, should it develop, by deploying and dividing our 70 
offshore vessels and 10 deepwater barges to the multiple spill 
sites. The storage and processing capacity would be over 
300,000 barrels for each site.
    Our last line of defense, on page 9, is made up of 100 
shallow water skimming vessels and 10 shallow water barges. 
They have been designed to work in water as shallow as 2 feet 
and travel up to 20 knots, with the ability to work in seas of 
up to 6 feet. They range in size from 35 feet to 56 and are 
designed specifically to be transported by trucks anywhere 
along the Gulf. The significance of this last line of defense 
is not only in its mobility but in its psychological impact, as 
Americans can finally begin to put away their rubber boots.
    On page 10 you can see how Americans and the rest of the 
world have come to picture the Gulf. But when you turn the page 
and you begin to see a truer picture, these three graphics 
begin to paint the reality of what really exists. Over 5,000 
platforms, 27,000 wells, and, below it all, sitting on the 
ocean floor, out of sight, is an infrastructure--a network, if 
you will--of pipelines that stretch over 31,000 miles, taking 
gas and oil to our mainland.
    This is what our end of the Gulf looks like to our 
neighbors. But what do we see when we reverse the picture? When 
we when look off the Coast of Mexico, Venezuela, and Brazil, it 
begs the question: How good is their spill response plan? Do 
they even have one? Is it possible that we think the Gulf is so 
big, so vast, that what happens somewhere else doesn't matter, 
that it is not our problem?
    I don't believe for a second that this committee feels that 
way. But if there is someone out there that does, then I would 
ask them to look at Cuba and this committee to look at page 12. 
For, as beautiful as Cuba is, it still only sits 90 miles off 
the coast of Florida. Seven deepwater wells have been slated 
for exploration in 2011 and 2012.
    If you turn to page 13, you will see an even more startling 
graphic, a grid of the 59 available leases being offered by 
Cuba. Twenty-nine out of the 59 have already been leased off 
Cuba's northwest shore. What will their response be if 
something goes wrong? Is it too big a leap to think that we 
could have oil on the level of a Deepwater Horizon moving 
uncontrollably towards Florida and up our eastern seaboard? How 
could anyone think when we are looking at the Gulf that our 
plan is too ambitious, that we don't need that much capability, 
storage, or capacity? I could make the case that our plan is 
just the opposite, that it is too light.
    Our choices are clear. We can choose to enlist a fleet of 
6,000 vessels that are hampered by their lack of training and 
preparedness, or we can create a dedicated fleet of 190 state-
of-the-art vessels. We can choose to let oil come to the 
surface and mechanically recover it as a saleable asset, or we 
can burn it. We can choose to separate oil from water at high 
speeds with outputs that exceed the EPA standards and improve 
the efficiency of every boat on the water, or we can use 
dispersants and sink it to the bottom. We can choose to recover 
oil, or we can choose to cover it up.
    The opportunity for us today is to move forward. We have a 
choice in all things. But what we cannot accept is a return to 
the status quo. America deserves a no-nonsense approach to 
spills that are certain to happen now and into the future. We 
believe this plan strikes the heart of the problem. It is 
efficient, it is streamlined, and it is robust. It is easy to 
understand and implement. It simply requires a commitment to 
being prepared. It stands as a turn-key operation that can be 
implemented today. The American people and the Gulf deserve 
nothing less.
    Thank you.
    [The statement of Mr. Costner follows:]

                  Prepared Statement of Kevin Costner
                           September 22, 2010

    Mr. Chairman, Members of the committee, thank you for the 
opportunity to appear before you today to discuss lessons learned from 
the BP Deepwater Horizon oil spill. Unfortunately it continues to 
remain a critical issue for our country and in fact the world. But it 
also poses two giant questions.
    One--do we have the capacity today to protect our environment from 
oil spills large and small? And if we do, then why didn't we perform 
better?
    And two--if we don't, then how quickly can we put into place a 
credible plan for spills that we know are going to continue now and 
into the future, man-made or otherwise. I say otherwise because I know 
this body has no greater task than to anticipate the nature of all 
attacks that could take American lives and disrupt our economic way of 
life.
    Americans and the world need to demand that the oil industry put 
this on-going problem front and center. To demand that the same energy 
and the same financial resources that send this industry around the 
world in the pursuit of oil be brought to bare, to address the safety 
of America. That the same appetite that drives them to drill in 
conditions in depths that boggle the mind, where no cost is too great. 
We need to demand that that same will, that same mindset, be brought to 
the defense of an ecosystem that cannot speak for itself. Americans 
demand that this nightmare that continues to chase us into the 21st 
Century be solved with real solutions. Solutions that don't depend on 
dispersants, burning, and public relations. What we don't need is a 
cosmetic show of force or a 500-page report that's obsolete.
    This plan was strategically and economically formed to take 
advantage of existing vessels that are currently working in the Gulf. 
The plan we propose begins on page 4 of the booklet in front of you.* 
It consists of three tiers, a first response, followed by an 
overwhelming response and backed up by a shallow water last line of 
defense. It consists of 190 vessels. And it incorporates state-of-the-
art booming, skimming, separation, and storage capacity.
---------------------------------------------------------------------------
    * Document was retained in committee files.
---------------------------------------------------------------------------
    The plan is simple and easy to understand. It is backed up by 
logistics, science, and engineering. It is an aggressive strategy built 
around rapid deployment . . . overwhelming response . . . and the 
mechanical recovery of oil from water.
    As we examine the plan going forward, you will see a graphic on 
page 6 . . . these 33 deepwater rigs that were being drilled at the 
time of the Macondo accident. These rigs are serviced by 40 Deep Water 
Platform Vessels that operate throughout the Gulf on a 24-hour basis. 
Our plan takes advantage of these existing assets and will retrofit 
them with state-of-the-art oil spill recovery technology, giving them a 
dual purpose, should they be called upon. They have the storage 
capacity of approximately 12,000 barrels. In the event of an accident 
of the magnitude of the Deepwater Horizon, we would be able to deploy 6 
of these vessels to the accident within 2 to 3 hours.
    Page 7 shows the overwhelming response that would follow with 30 
Offshore Supply Vessels making their way back to shore to predetermined 
Coastal Response Facilities where they will loaded with dedicated oil 
recovery equipment that has been prefitted for the vessels. They will 
have a storage capacity of 6,000 barrels and can be deployed within 48 
hours. At the same time 10 Deep Water Barges with an average capacity 
of over 100,000 barrels will be moving simultaneously and on-site 
within 96 hours. If this was the Deepwater Horizon and we elected to 
throw this fleet of 80 ships at it. Our own kitchen sink if you will, 
we would have the storage and processing capacity of over 1.5 million 
barrels.
    It is also important to understand that our plan does not consider 
the Deepwater Horizon a worst-case scenario. Given the dangerous world 
that we live in, we have anticipated a situation where 5 Deep Water 
Horizons could occur simultaneously.
    On page 8 you can see that we would handle this situation, should 
it develop, by deploying and dividing our 70 Offshore Supply Vessels 
and 10 Deep Water Barges to the multiple spill sites. The storage and 
processing capacity would be over 300,000 barrels for each spill site.
    Our last line of defense on page 9 is made up of 100 Shallow Water 
Skimming Vessels and 10 Shallow Water Barges. They have been designed 
to work in water as shallow as 2 feet and travel up to 20 knots with 
the ability to work in seas up to 6 feet. They range in size from 35 
feet to 56 feet and are designed specifically to be transported by 
trucks anywhere along the Gulf. The significance of this last line of 
defense is not only in it's mobility but in it's psychological impact, 
as Americans can finally begin to put away their rubber boots.
    On page 10, you can see how Americans and the rest of the world 
have come to picture the Gulf. But when you turn the page you begin to 
see a truer picture. These 3 graphics begin to paint the reality of 
what really exists . . . Over 5,000 platforms, over 27,000 wells.
    And below it all, sitting on the ocean floor, out of site, is an 
infrastructure, a network if you will, of pipelines that stretch over 
31,000 miles connecting oil and gas to the mainland.
    This is what our end of the Gulf looks like to our neighbors. But 
what do we see when we reverse the picture? When we look off the coasts 
of Mexico . . . Venezuela . . . Brazil.
    It begs the question--How good is their spill response plan? Do 
they even have one?
    Is it possible that we think the Gulf is so big, so vast that what 
happens somewhere else doesn't matter? That it is not our problem? I 
don't believe for a second that this committee feels that way. But if 
there is someone out there that does, then I would ask them to look at 
Cuba, and this committee to look at page 12.
    For as beautiful as it is, Cuba still only sits 90 miles of the 
coast of Florida. Seven deep water wells have been slated for 
exploration in 2011 and 2012. If you turn to page 13, you will see an 
even more startling graphic. A grid of the 59 available leases being 
offered by Cuba.
    Twenty-nine out of the 59 have already been leased, off of Cuba's 
northwest shore. What will be their response if something goes wrong? 
Is it too big a leap to think that we could have oil on the level of a 
Deepwater Horizon moving uncontrollably toward Florida and up our 
eastern seaboard?
    How could anyone think when looking at the Gulf that our plan now 
is too ambitious, that we don't need that much capability, storage, or 
capacity? I could make the case that our plan is just the opposite. 
That it is too light.
    Our choices are clear. We can choose to enlist a fleet of 6,000 
vessels that are hampered by their lack of training and preparedness or 
we can create a dedicated fleet of 190 state-of-the-art vessels.
    We can choose to let oil come to the surface and mechanically 
recover it as a saleable asset, or we can burn it.
    We can choose to separate oil from water at high speeds with 
outputs that exceed current EPA standards and improve the efficiency of 
every boat on the water, or we can use dispersants and sink it to the 
bottom.
    We can choose to recover oil or we can choose to cover it up.
    The opportunity for us today is to move forward. We have a choice 
in all things, but what we cannot accept is a return to the status quo.
    America deserves a no-nonsense approach to spills that are certain 
to happen now and into the future. We believe this plan strikes to the 
heart of the problem. It is efficient, streamlined, and robust. It is 
easy to understand and implement, it simply requires a commitment to 
being prepared.
    It stands as a turn key operation that can be implemented today.
    The American people and the Gulf deserve nothing less.

    Chairman Thompson. Thank you for your testimony.
    I now recognize Mr. Taffaro to summarize his statement.

   STATEMENT OF CRAIG PAUL TAFFARO, JR., ST. BERNARD PARISH, 
                           LOUISIANA

    Mr. Taffaro. Thank you, Chairman Thompson and Acting 
Ranking Member Cao, for having me. I appreciate you allowing 
Mr. Costner to go first. I didn't want to overshadow him in the 
hearings today.
    Chairman Thompson. Noted.
    Mr. Taffaro. Thank you.
    Of significant importance, I believe, was the clear 
indication that the response to the Deepwater Horizon oil spill 
crisis started from a position of catch-up. What may be unknown 
is that St. Bernard Parish and the New Orleans metropolitan 
area are rather robust in preparing for and being ready for 
disasters. In the last 5 years, we have experienced five Type 1 
disasters in our parish alone. Many communities across the 
country never experience a Type 1 disaster, and we have had 
five.
    In retrospect, the information flow relative to the 
Deepwater oil spill crisis had similar markings as several of 
the other disasters experienced in the St. Bernard community: 
Namely, poor factual information about the event; a downplaying 
of available resources and the mechanism to obtain such; and a 
lack of local engagement to the response coordination.
    Complicating this event was the differing authorizing 
legislation for Louisiana versus other coastal States. 
Louisiana law specifically states and grants emergency powers 
to the local authorities, primarily parish presidents and 
mayors, during times of declared disasters. This construct 
seemed to create a bureaucratic obstacle that has plagued the 
coordination throughout. Instead of embracing the local 
authorities' involvement in resource capacity, local 
authorities were met with resistance, exclusion, and power 
struggles.
    The immediate perception and experience of the local 
parishes was the very agency, representing in the United States 
Coast Guard, that was to have ultimate authority, according to 
OPA and the Clean Water Act, had partnered itself in a position 
of protection rather than enforcement. BP, as the responsible 
party, enjoyed that protection. While the description that the 
oil spill was analogous to fighting a war, the soldiers in the 
field and on the battleground were met with consistent 
resistance of resource supply, restricted procurement 
processes, and the lack of follow-through. While operational 
discussions and decisions were being made in Houma, some 90 
minutes away and beyond from most of the impacted areas, 
inputting coordination from the local communities was ignored 
in many cases and patronizingly accepted in others.
    A buildup of OSRO [Oil Spill Removal Organization] 
resources and assets was clearly under way. The request to use 
local commercial fishing fleet involvement was fought; and 
these commercial fishermen, who were at the heart of the 
impacted area, had to fight their way into the response. The 
local vessels were eventually placed into a rotation and side 
by side with the OSRO vessels, were utilized in the response 
effort and given daily assignments in boom deployment, oil 
detection, and recovery support activity, rapid assessment, and 
other activities. The local fleet provided a critical asset in 
the mission response, sharing valuable information of tidal 
activity, strength of currents, and marsh detection and impact.
    Very early on in the response, St. Bernard Parish requested 
BP to allow for and support the establishment of a local 
environmental planning and assessment team. This was disallowed 
by BP, only to be told some 3\1/2\ months later by a visiting 
Coast Guard authority that St. Bernard should have been 
involved in environmental assessment from the start. This lack 
of continuity was addressed by the local community by 
establishing a deputy or lead in all ICS [Incident Command 
System] sections. These sections were sought to be replaced and 
undermined throughout the process.
    Simply balancing the rather contentious dynamics that have 
existed in many local branches became a major endeavor, as 
relationships that were established and boundaries understood 
were changed with the starting of each new rotation. The 
issuing of Executive Orders, which created power struggles over 
resources, hurricane planning, and local authority, tainted the 
trust level in the joint command structure and often left the 
local parish on the outside of a BP-USCG partnership.
    During these operational disputes, the U.S. Coast Guard 
chose to sit on the fence, claiming that business, contractual 
arrangements, and engaging in directives on such topics were 
outside their legal purview and authority. The dynamic only 
strengthened the uncontested authority of BP as the perpetrator 
of the disaster and the responsible party which was able to 
usurp the 51 percent authority of the Coast Guard. If BP 
disagreed with the decision, they simply chose not to pay, in 
essence daring the Coast Guard to use its ability to reach into 
the Oil Spill Fund.
    Because most of these decisions were reflective of a 
disconnect between the multiple layers of the operational ICS 
structure, enough doubt was cast or enough time had passed that 
an argument be made that BP had the right to use their 
discretion in paying for services, personnel, or equipment 
which had already been engaged and used. If the immediate 
operational need had ceased by the time the dispute was brought 
to awareness, the Coast Guard simply bowed out of the dispute, 
attributing it to a business or contractual issue.
    In the immediate past, there was a constant discussion over 
the appropriate level of demobilization and the pace of such as 
it related to an agreed-to and established transition plan. 
Every oil spill has a response phase and a recovery phase. 
Although these vary from incident to incident, the basic 
framework exists.
    Within the communication of the well being capped, it was 
clearly the start of a different focus by BP and the United 
States Coast Guard, at least providing complicit support if not 
active leadership in this shift. Requests immediately became 
rejected or denied at a higher pace. Payments to vendors became 
slow. Sightings of oil became more and more unrecoverable. The 
constant debate over the need for continued operations 
commenced.
    While the discussion relative to these topics is 
appropriate throughout the response, arbitrary decisions to 
demobilize or attempt to demobilize basic features of the 
response began in earnest. In the midst of the activation 
investigation of the transition plan, it was an apparent 
expectation that each branch would lean forward in the 
transition, despite certain triggers not to do so being 
reached. This push was indicative of a common belief that the 
incident was all but over and the focus on long-term recovery 
was the order of the day.
    The beliefs of such seemed to undermine the enthusiastic 
support to find and treat oil-impacted areas. Sightings were 
now limited on the water surface, but signs of the water 
bottom's being impacted and the marsh literally washing away 
were largely ignored and referred to the NRDA [Natural Resource 
Damage Assessment] process.
    The gap between response and NRDA has proven to be a 
difficult crevasse to cross. The United States Coast Guard does 
not recognize their role in the NRDA process and has a 
difficult time asserting itself and its authority to go beyond 
the established shoreline treatment recommendations. This gap 
in responsible party identification has resulted in acres of 
lost marshland that is so critical to the coastal protection of 
St. Bernard Parish and the surrounding areas, including the 
city of New Orleans. Further intervention is necessary, in 
addition to the identification of the critically damaged sites, 
but funding to accomplish this task has been rejected.
    It is noted that the interaction between the St. Bernard 
Parish branch and the Department of Homeland Security was 
nonexistent. Parish leadership did have the opportunity to 
communicate with an assigned parish president liaison officer 
from the Coast Guard, who did participate in the daily 
conference call with the Secretary's staff. The Department of 
the Interior [DOI] was referenced throughout the response, 
primarily in conjunction with the focus on the barrier islands 
of the coast of Louisiana. Interestingly enough, these are the 
same islands that have been neglected for some 25 years and 
receive now intense protection in the objection to build berms 
to assist in capturing oil.
    The Department representative communicated directly with BP 
representatives regularly, but as parish president I did not 
have one single conversation with any DOI representative.
    The exterior input to the branch action plan was responded 
to without question and created confusion in who actually was 
coordinating the response. This type of disjointed influence 
was not limited to DOI but it also included other agencies 
which often operated without coordination or notification to 
the branch, including NOAA [National Oceanic and Atmospheric 
Administration], FDA [Food and Drug Administration], and, many 
times, EPA [Environmental Protection Agency]. What worked for 
one community may not have worked for others.
    I am wrapping up, Mr. Chairman. I was taking the lead from 
Mr. Costner.
    The challenge to share information operationally, 
logistically, or resource assignment was never conquered. 
Having the ability to use best practices seemed to be lost, as 
the resources reviewing information from branch to branch often 
did not return calls for clarification or direction.
    It is most important to recognize that the Federal 
legislation as interpreted and applied leaves the very 
community and citizenry impacted by such an event to be 
continually victimized throughout the response by allowing the 
responsible party to be the gatekeeper of funds for a response 
effort. Despite a 51 percent role, the Coast Guard continually 
referenced legal limitations that forced their command to stop 
short of implementing operational decisions that would have 
been beneficial or could not identify clear authority to do so.
    At some point, the responsible party has to be redefined to 
mean financially responsible and be prohibited from having 
operational veto authority in the response effort. This change 
in application of the existing legislation would allow the U.S. 
Coast Guard to partner with the local community and our State 
in which an incident occurs, instead of partnering as an 
operational partner with the responsible party.
    Thank you for allowing me to speak, Mr. Chairman.
    [The statement of Mr. Taffaro follows:]

             Prepared Statement of Craig Paul Taffaro, Jr.

    The following testimony is offered at Day 152 following the 
Deepwater Horizon Oil Spill crisis. The testimony offered herewith is 
done so from a perspective of the local community of St. Bernard 
Parish, Louisiana as both an individual parish which experienced 
significant impact from the BP Oil Spill as well as a member of the 
Louisiana coastal parishes working as a coastal group. The statements 
and comments contained herein are limited to the scope of information 
that was requested relative to perceived areas which are in need of 
improvement and/or further procedural or operational adjustment. While 
the request to identify this information guided this submission, it 
should be noted that in many aspects of branch functioning, the St. 
Bernard Branch was noted as implementing response ``best practices'' 
and upon evaluation of the branch operations, it was revealed that 
several functions were actually setting region standards.

                      PRELIMINARY LESSONS LEARNED

    Of significant importance was the clear indication that the 
response to the Deepwater Horizon Oil Spill crisis started from a 
position of playing catch-up. From the breaking notice that an 
explosion had occurred to even today, the information flow to the local 
branch has been wrought with inconsistency, fragmented messaging, and 
stove-piped communication patterns. Both the United States Coast Guard 
and BP were at a distinct disadvantage in the Gulf Coast Region of 
Louisiana as the Louisiana Governor's Office of Homeland Security and 
Emergency Preparedness together with the individual parishes have been 
operating at a higher state of readiness than most other local 
municipalities throughout the United States. This increased level of 
readiness to respond comes with being engaged on a daily basis in the 
long-term recovery process and annual preparation activities following 
the overwhelming experiences of Hurricanes Katrina, Rita, Gustav, and 
Ike. Additionally, the region has experienced the largest domestic land 
oil spill in United States history with the Murphy Oil, USA spill in 
conjunction with Hurricane Katrina and an additional Mississippi River 
Oil Spill in 2009 which impacted the St. Bernard community as well. 
When totaled, St. Bernard Parish has been directly engaged in five Type 
1 disasters in the last 5 years, a statistic that has produced a rather 
robust appetite for response management.
    In retrospect, the information flow relative to the Deepwater 
Horizon Oil Spill crisis had similar markings as several of the other 
disasters experienced in the St. Bernard community, namely poor factual 
information about the event, a downplaying of available resources and 
the mechanism to obtain such, and a lack of local engagement to the 
response coordination. Complicating this event was the differing 
authorizing legislation for Louisiana verses the other coastal States 
involved. Louisiana law specifically states and grants emergency powers 
to the local authorities (primarily the parish president/mayor) during 
times of declared disasters. This construct seemed to create a 
bureaucratic obstacle that has plagued the coordination of the response 
effort throughout. Instead of embracing the local authorities' 
involvement and resource capacity, local authority was met with 
resistance, exclusion, and power struggles. This decision, whether 
contemplated or not, resulted in adversarial relationships between the 
local agencies, the State and Governor's office, and BP and the United 
States Coast Guard. The immediate perception and experience of the 
local parishes was that the very agency, the United States Coast Guard, 
that was to have ultimate authority according to OPA 90 and the Clean 
Water Act legislation had partnered with the responsible party, BP, in 
a protective role rather than an enforcement role to oversee that every 
resource and activity needed was brought to bear. While the description 
that the Oil Spill was analogous to fighting a war was pronounced, the 
soldiers in the field and on the battle grounds were met with 
consistent resistance of resource supply, restrictive procurement 
processes, and a lack of follow-through. While operational discussions 
and decisions were being made in Houma, LA, some 90 minutes or more 
from most of the impacted areas, input, and coordination from the local 
communities was ignored in many cases and patronizingly accepted in 
others. The responsible party operations lead either interpreted 
directives or was instructed to actually hide information from the 
local incident command personnel by covering up maps, information, and 
assignments when local personnel entered the separate command post 
established by BP. For the first 6 weeks of the response, despite an 
approved joint command and incident command team being built, a 
separate and uncoordinated effort was the norm. A build up of OSRO (Oil 
Spill Response Organizations) assets was clearly underway and the 
request to use the local commercial fishing fleet, the very industry 
that was under siege in this ``war'' had to fight their way into the 
response. BP created a Vessel of Opportunity program which was 
mismanaged in fulfilling the goal of putting local vessels in local 
waters to assist in the local response efforts. St. Bernard Parish 
established a modified version of the Vessels of Opportunity program, 
that to BP's credit was funded. The local vessels were eventually 
placed into a rotation and, side-by-side with the OSRO vessels, were 
utilized in the response effort and given daily assignments in boom 
deployment, oil detection and recovery, support activity, rapid 
assessment, etc. The local fleet proved to be a critical asset in the 
mission response sharing invaluable information of tidal activity, 
strength of currents, and marsh detection and impact.
    Very early on in the response, St. Bernard Parish requested BP to 
allow for and support the establishment of a local environmental 
planning and assessment team. This was disallowed by BP only to be told 
some 3\1/2\ months later by a visiting Coast Guard authority that St. 
Bernard should have been involved in environmental assessment from the 
start.
    This lack of continuity was addressed by the local community by 
establishing a deputy or lead in all ICS sections, which was also 
attempted to be undone at various times throughout the rotation of BP 
and USCG personnel. As branch directors, deputies, PPLOs, and other 
subject matter experts from the USCG and/or BP contractors rotated into 
the St. Bernard Parish Branch a constant learning curve was experienced 
and a re-tooling of operational, logistical, planning, and resourcing 
activities became the norm. While individuals who were deployed to St. 
Bernard varied in his/her level of oil spill expertise, the 
discontinuity between those leaving and those arriving continues, even 
today, to be an issue.
    Simply balancing the rather contentious dynamics that have existed 
in many local branches became a major endeavor as relationships that 
were established and boundaries understood were changed with the 
starting of each new relationship. Local frustrations certainly added 
to the contentious atmosphere between local leadership and the USCG and 
BP. The issuing of Executive Orders, which created power struggles over 
resources, hurricane planning, and local authority tainted the trust 
level in the joint command structure and often left the local parish on 
the outside of the BP/USCG dyad.
    This contention often was the result of an Incident Command in 
Houma not recognizing the operational input and planning of the local 
branch in St. Bernard Parish. Despite the use of local experts, BP 
personnel, and deployed USCG personnel, and despite Branch Action Plans 
being submitted and no objection being communicated activities and 
implemented assignments were often criticized and rejected after the 
fact. Most disturbing in this pattern of retroactively rejecting sound 
operational practices was and is BP's financial hostage program. After 
services have been rendered, resources used and expended, equipment 
activated, and often after successful completion of tasks, BP has 
undertaken a program to disallow costs, reject approval of previously 
approved processes, and financially strangle the local small businesses 
which have acted in good faith efforts in the oil spill response, many 
times financing the activity themselves. It is not lost in this 
discourse the fact that local companies and brokers were positioning 
themselves to make a profit within this structure, but agreed upon 
transactions should be supported, not cancelled. Modifications of 
agreements, a review of reasonable costs, and the elimination of 
unneeded resources have been and continue to be supported by the local 
branch. However, leaving unpaid vendors to scramble to stay afloat with 
millions of dollars in unpaid bills because BP has changed their rules 
multiple times over the course of 5 months is unacceptable. 
Underscoring the contentions that existed as BP attempted to paint the 
St. Bernard Branch as a rogue operation and that their personnel needed 
to be protected from intimidation and influence from the local 
leadership, BP personnel who have multi-million dollar signature 
authority in their non-oil spill positions were reduced to having 
absolutely no authority at all. This action significantly stifled the 
ability of the branch to operate efficiently.
    During these operational disputes, the USCG chose to sit on the 
fence, claiming that business contractual arrangements and engaging in 
directives on such topics were outside of their legal purview and 
authority. This dynamic only strengthened the uncontested authority of 
BP as the perpetrator of the disaster and the responsible party which 
was able to usurp the 51% authority of the USCG. If BP disagreed with a 
decision, they simply would choose not to pay, in essence daring the 
USCG to use its ability to reach into the oil spill fund. Because most 
of these decisions were reflective of a disconnect between the multiple 
layers of the operational ICS structure, enough doubt was cast or 
enough time had passed that an argument be made that BP had the right 
to use their discretion in paying for services, personnel, or equipment 
which had already been engaged and used. If the immediate operational 
need had ceased by the time the dispute was brought to awareness, the 
USCG simply bowed out of the dispute, attributing it to a business/
contractual issue.
    In the immediate past, there was a constant discussion over the 
appropriate level of demobilization and the pace of such as it related 
to an agreed to and established Transition Plan. Every oil spill has a 
response phase and a recovery phase. Although these vary from incident 
to incident, the basic framework exists. Within the communication of 
the well being capped, it was clearly the start of a different focus by 
BP with the USCG at least providing complicit support, if not active 
leadership in this shift. Requests immediately became rejected or 
denied at a higher rate, payments to vendors began to slow, sightings 
became more and more unrecoverable, and the constant debate over the 
need for continued operations commenced. While the discussion relative 
to these topics is appropriate throughout the response, arbitrary 
decisions to demobilize or attempt to demobilize basic features of the 
response began in earnest. In the midst of the activation of the 
Transition Plan, it was an apparent expectation that each branch would 
lean forward in the Transition Plan, despite certain triggers to do so 
not being reached.
    This push was indicative of a common belief that the incident was 
all but over and that the focus on long-term recovery was the order of 
the day. The belief of such seemed to undermine the enthusiastic 
support to find and treat oil-impacted areas. Sightings were now 
limited on the water surface, but signs of the water bottoms being 
impacted and the marsh literally washing away were largely ignored and 
referred to the NRDA (Natural Resources Damage Assessment) process. The 
gap between response and NRDA has proven to be a difficult crevasse to 
cross. The USCG does not recognize their role in the NRDA process and 
has a difficult time asserting itself as an authority to go beyond 
established STRs (Shoreline Treatment Recommendations). This gap in 
responsible party identification has resulted in acres of lost marsh 
land that is so critical to the coastal protection of St. Bernard 
Parish and the surrounding areas, including the city of New Orleans. 
Further intervention is necessary in addition to the identification of 
the critically damaged sights, but funding to accomplish this task has 
been rejected.
    It is noted that the interaction between the St. Bernard Branch and 
the Department of Homeland Security was non-existent. Parish leadership 
did have the opportunity to communicate with an assigned PPLO (Parish 
President Liaison Officer) who did participate in a daily conference 
call with the Secretary's staff. The Department of the Interior was 
referenced throughout the response, primarily in conjunction with the 
focus on the barrier islands of the coast of Louisiana. Interestingly 
enough, these are the same islands that had been neglected for some 25 
years and received intense ``protection'' in the objection to build 
berms to assist in capturing oil. The Department representative 
communicated directly with BP representatives regularly but as the 
Parish President, I did not have one conversation with any DOI 
representative. This exterior input to the Branch Action Plan was 
responded to without question and created confusion in who was actually 
coordinating the response. This type of disjointed influence was not 
limited to the DOI but it also included other agencies which often 
operated without coordination or notification to the local Branch. 
NOAA, FDA, EPA, and specialized response teams within the incident 
command would regularly engage in the St. Bernard Area of Operation 
unbeknownst to the local command. This was indicative of the 
disconnected response efforts at all levels. There were literally 
multiple layers of responders who never coordinated with each other, 
nor shared data of their respective activities.
    What worked for one community may or may not have worked in another 
community. The challenge to share information operationally, 
logistically, or resource assignment was never conquered. Having the 
ability to use best practices seemed to be lost as the resources 
reviewing information from branch to branch often did not return calls 
for clarification or direction. Branch to branch discussion was more 
apt to occur and often did, but did not result in the adoption of 
similar interventions, even when sought to do so.

                             COMMUNICATION

    The flow of information was poor. The information presented by BP 
in print and broadcast media often erupted into episodes of frustration 
and disbelief as the disconnect between the reality of a local 
experience and the stated information was clearly displayed. The local 
chastisement of the response seemed to serve as an obstacle to 
adjustment as the focus continued to be on correcting media releases 
rather than hearing and adjusting the problem that may have been 
referenced. It became evident that a negative response in the media 
would be met with a slowed response and additional power struggles.
    The local branch was rarely forwarded information that was 
collected and used in decision making by higher authorities. This 
continued to create a sense of distrust as the experience at the local 
level was often inconsistent with the information released by higher 
authorities. Requests to integrate the various scientific communities 
with local authorities and the local fleet who held significant 
historical knowledge was met with dismissal and a lack of interest. 
This resulted in the scientific community losing critical credibility 
within the local populations that needed to buy in for the overall 
success of this response. NOAA couched their information so as not to 
contraindicate the decision to follow the methods and approach of 
dispersant but frequently offered limited valid scientific specifics to 
this spill and its related activities. Instead of revealing that there 
would be significant amounts of follow-up testing that would be 
required to document the effects of the approach used, the information 
was released in manners to suggest conclusions that could not be 
supported. Predicting conclusions of future and untested protocols only 
exacerbated the lack of trust between the scientific community and the 
commercial fishing industry.
    Understanding that BP has a business need to promote a positive 
image of the company and the shareholders of the company do enter into 
the equation of the response, marketing efforts to manage expectations 
must be a focus of the communication strategy. Again, pushing out 
images that are inconsistent with the actual experience of the local 
community only serves to widen the disconnect between the responsible 
party and those affected by the incident.
    Overall, there were significant positives interspersed within the 
response. As mentioned, the use of the local commercial fishing fleet 
was a major positive impact for the St. Bernard Parish community.
    While now outside the direct control of BP, the claims process has 
created unnecessary anxiety and distress within the community that was 
most directly impacted by the spill itself. The members of the 
commercial fishing fleet find themselves being matriculated out of the 
response activities with no market to fish their respective products 
and little assurances that their future is any more promising than 
their last 5 months. While there is no argument that there is some 
product to be harvested, the on-going need for longer-term and more 
comprehensive testing to promote the industry continues to be unmet. 
Furthermore, incentive programs and shared liability programs for the 
product that is caught have not gotten any traction. Questions of BP 
using earned money by the fishing community to reduce damages continues 
to be a point of contention, leaving the local community with the 
belief that they were duped into working for the enemy and cleaned up 
the mess for free.
    It is most important to recognize that the Federal legislation as 
interpreted and applied leaves the very community and citizenry 
impacted by such an event to be continuously victimized throughout the 
response by allowing the ``responsible party'' the gatekeeper of funds 
for the response effort. Despite a 51% role, the USCG continuously 
referenced legal limitations that forced their command to stop short of 
implementing operational decisions that would have been beneficial but 
could not identify a clear authority to do so.
    At some point, responsible party has to be redefined to mean 
financially responsible and be prohibited from having operational input 
to the response effort. This change in application of the existing 
legislation would allow the USCG to partner with the local community 
and/or State in which an incident occurs instead of partnering as an 
operational partner with the responsible partner. The current situation 
is likened to putting a rape victim in counseling with her perpetrator.
    It must be recognized that any incident will create competing 
interests by the parties involved in the response. The responsible 
party will obviously have a much different commitment than the 
objective enforcer of the spill response. Additionally, in this 
situation, the USCG in its role as the Federal On-Scene Coordinator 
must have the latitude to act and enforce without financial 
repercussions. Current legislation allows for reimbursement by the USCG 
and local municipalities for their expenses in the response. When the 
responsible party is at the decision-making table with financial veto 
authority it sets up a significant potential for a conflict of 
interest. This is further underscored in our current situation both on 
the National level with recent cuts to the USCG and at a time when 
local revenues are struggling to keep pace with service needs and 
operational expenses.

                                SUMMARY

    In delivering a concise review of the response to date to the 
Deepwater Horizon Oil Spill, the following summary points are offered.
  <bullet> Recognize that current legislation generally is crafted 
        based on the most recent experiences. Reactive legislation 
        without expansive application of industry experiences and in-
        depth analysis of real ``worst-case'' scenarios is negligent. 
        Just as we learned in the Hurricane Katrina response, there 
        must be legislation that allows for flexible response decisions 
        in the face of disasters which transcend the boundaries of 
        existing legislation.
  <bullet> Recognize that a basic tenet of disaster response is that 
        disasters are local. To exclude local engagement curtails 
        critical information and hinders the process of an expedited 
        response. While following a National Contingency Plan may set 
        the specific command parameters and structure, if implemented 
        without local buy-in initiates significant but unnecessary 
        power struggles, stifles valuable information exchange, breeds 
        distrust, and ultimately interferes with the effective 
        completion of the mission at hand via distractions which focus 
        on personality and authority dynamics.
  <bullet> Establish a National downstream logistics program which 
        accounts for real-time resource availability and a pre-event 
        awareness of potential shortfalls and pre-planned alternatives 
        to address such shortfalls.
  <bullet> Redefine the role of ``responsible party'' from the manager 
        of the disaster to the required financier of reasonable 
        response efforts. Require the participation of all operating 
        oil and gas companies to contribute to the oil spill fund at a 
        level that allows the ability to cover costs of a response. In 
        times of a specific incident, create a pre-established 
        evaluation team to provide a cost estimate for the response 
        associated with a specific disaster and require those funds to 
        be deposited into escrow to be drawn on for response costs. 
        Oversight of the escrow should be administered by an 
        independent agency that will account for cost reasonableness 
        and response vendor payments.
  <bullet> Eliminate the operational practice that isolates data used 
        for decision making at all levels of the response from the 
        local branches and establish a network of information sharing 
        and concurrence that integrates actual ``on the ground'' 
        experiences with scientific theory and data interpretation.
    In recognition of the magnitude of the Deepwater Horizon Oil Spill 
crisis, the after-action reporting process will be on-going for some 
years to come. Reviewing processes along the way is certainly a 
necessary step in improving efficiency.
    There must be a recognition that the driving force in the current 
structure is funding. From a litigious-minded management approach to a 
legislatively restricted enforcement capability, the common denominator 
in the decision-making model has been who pays for what. As long as 
this dichotomous structure is in place the actual response and focus to 
cleaning any environmental crisis governed by OPA 90 and the Clean 
Water Act will twist upon itself. The establishment of partnerships is 
extremely important, but there must be a clear and decisive 
understanding of who has the ability to turn processes on and who has 
the ability to shut operations down. As long as the checkbook governs 
the decision-makers, there will be a less than optimum response 
achieved.
    Thank you for your attention and interest in this matter. It 
certainly has been an incident that no one has enjoyed. The 
responsibility of all involved is to identify how to improve the system 
in the next disaster.

    Chairman Thompson. Thank you for your testimony.
    I will remind each Member that he or she will have 5 
minutes to question the panel.
    I now recognize myself for questions.
    Mr. Costner, when you originally contacted Federal agencies 
over 15 years ago to promote your oil spill clean-up 
technology, what was the response?
    Mr. Costner. Well, the list of whom I contacted read pretty 
much like a who's who--all the initials, very difficult to keep 
up with. But, really, we are talking about the Coast Guard, MMS 
[Minerals Management Service]. Really, I went to everyone in 
the Government side of things. I equally went to industry, 
volunteered my machines spill after spill, to put them on the 
spills at my own cost. I had my machines tested at the Coast 
Guard facility in New Jersey.
    The EPA we contacted. Really, everybody was contacted, 
multiple times, trying to let them understand that this 
capability existed to create efficiencies where efficiencies 
were not.
    Chairman Thompson. The question is, after 15 years, it took 
an oil spill for somebody to say, well, this guy, Costner, 
might have a good idea. Explain how EPA or whomever----
    Mr. Costner. It came from a local--Billy Nungesser was made 
aware that there might be a machine--a magic machine from an 
actor. When it was presented to Billy, before they could even 
make the explanation, Billy Nungesser said, stop, wait a 
second. Before I was a politician, I was in the oil business, 
and I saw this machine work in Houston at an exposition. It 
does work. Please call him. At that point I was invited down to 
the Gulf and began this long, 4-month journey of having it 
tested by BP out on the water.
    Chairman Thompson. Mr. Taffaro, your testimony in terms of 
the lack of coordination between Federal agencies and local is 
quite troubling. I would say this from a step-by-step 
standpoint. Do you have any knowledge of any training that has 
been provided at the Federal level to State and locals dealing 
with oil spill response?
    Mr. Taffaro. Mr. Chairman, I am not aware of any of that 
type of training being offered. That discussion has begun. I 
can tell you that both the Governor's Office of Homeland 
Security and Emergency Preparedness and the local communities 
that have been impacted are now in discussions in terms of 
preparing for and creating another level of expertise at the 
local level to deal with this type of a crisis. But prior, no, 
that had not been done.
    Chairman Thompson. So the plan that BP had submitted in 
furtherance of getting a permit, you were not privy to seeing 
it.
    Mr. Taffaro. Not at all. Not at all.
    Chairman Thompson. So, as best you can, can you just 
describe for the committee, once the spill occurred, what 
communication was like the first 2, 3 days of the spill with 
you and the Federal agencies?
    Mr. Taffaro. Mr. Chairman, it was actually rather strange 
to have experienced the same situation that we experienced 
during Hurricane Katrina. Having been in office at the time as 
a council member, the coordination and communication was 
virtually nonexistent, which is what created the gap to begin 
with. Because we were prepared to respond to a disaster--any 
disaster--in terms of management capabilities, we began 
standing up a disaster response branch long before anyone 
showed up to say we are here to manage this disaster with you, 
for you, or to get out of the way.
    So, again, there were several days before any coordination 
became even apparent that there would be an incident command 
branch or an outpost or any type of coordination with a higher-
level authority.
    Chairman Thompson. The last question is: We were told 
during our visit that there was one person in charge. That if 
your parish needed an answer, there was one person for you to 
contact to get that answer. Did you find that to be true?
    Mr. Taffaro. I still don't know who that person is today, 
other than Admiral Allen. Now, obviously, the incident 
command--the National incident commander has designated an area 
commander in terms of Admiral Zee, Captain Perry now within the 
structure.
    Chairman Thompson. We were told a number of times that 
there was one person who resolved any issue for local 
government the minute it came in.
    Mr. Taffaro. I never received that memo or introduction to 
that individual.
    Chairman Thompson. Thank you.
    I yield to the gentleman from New Orleans, Mr. Cao.
    Mr. Cao. Thank you very much, Mr. Chairman.
    My first question is to Mr. Costner. First of all, I want 
to say how impressed I am with the plans that you have put 
together. My first question to you here is: According to your 
plan, what kind of contingencies have you put in place, for 
example, to redeploy the vessels as well as to redeploy the 
resources and whether or not the resources are adequate in the 
event of disruption such as hurricanes, storms, or so forth?
    It seems to me that the plan you put forward--tier 1, tier 
2, tier 3 based on the presupposition that it would be a smooth 
transition from different tiers. I am wondering whether or not 
you put into your plan, for example, interruptions by 
hurricanes, by storms, tornados, or what have you.
    Mr. Costner. Well, I think that when you are dealing with 
an act of God, whenever people are fighting for life and limb, 
the ability to exercise some kind of clean-up is going to be 
limited. So our plan, we don't have vessels that can operate in 
hurricane-type weather--or booms. So when that happens we are 
really at the mercy of what is going on.
    In short, when we saw exactly what happened with the 
Deepwater Horizon, we had perfect weather conditions. What this 
plan takes advantage of is we know that at any one point in 
time these 40 vessels that I talked about, they are operating, 
day and night. So what we have elected to do is to outfit them 
so that they can be first responders, so that they can get 
there within 2 to 3 hours. Make no mistake, 34 can also be on 
their way. We can have what we call an overwhelming response. 
But we need the ability to have a first response. So the plan 
was designed to take advantage of vessels that were already out 
there.
    Your question was kind of long, so perhaps there is 
something I have missed.
    Mr. Cao. I was just thinking whether or not this plan put 
into place certain contingencies such as hurricanes and things 
that can disrupt.
    Mr. Costner. No. We don't have. I am sure this plan could 
be improved. I said so as much.
    What I don't think it can be is reduced. I think that it 
probably would make sense to have a boat at the site of a well 
that is being drilled, because we know that is a very delicate 
moment in the life of a well. I think it would be responsible 
to have something sitting out there 24/7 during the life of a 
well being drilled. I think that--that is not in the plan, and 
I think it actually should be.
    This is an initial response. We think that it is very 
significant, and it could be incorporated beginning today. 
There is a time schedule in the booklet in front of you that 
examines how quickly these assets could be brought to bear and 
put into place.
    Mr. Cao. Now are you assuming that these 40 existing 
platform sort of vessels, all Coast Guard vessels, are they 
working in conjunction with Coast Guard and private 
corporations, private entities?
    Mr. Costner. Well, they would be taken over by the Coast 
Guard. Because the minute a spill happens, the Coast Guard 
takes command. But what would happen is, since they have been 
predesignated, it would be a very turn-key operation for the 
Coast Guard to actually understand. The problems that have been 
outlined here is that there seems to be a disconnect in how to 
coordinate what goes on.
    These 190 vessels would be dedicated to this particular 
idea versus 6,000. I mean, if we were to extrapolate that 
particular response--if we had five disasters happen at once, 
if you extrapolated the current plan, there would be over 
30,000 vessels out there trying to collect oil. we know at the 
end of the day that they collected about 3 percent. We know 
they are also limited.
    One of the problems that occurred with 6,000 vessels is 
that there is too many. The sheer volume makes it dangerous. 
They can't operate at night. We also know that oil doesn't stop 
leaking throughout the night. So technology needs to catch up 
with what the problem is going on out there. This program is 
designed to do that, to work 24/7.
    Mr. Cao. Thank you very much.
    Mr. Taffaro, I know that one of the biggest problems that 
we had down in the Gulf Coast was a lack of a clear command-
and-control structure. What was your experience with respect to 
this perception or this problem?
    Mr. Taffaro. Congressman, I guess the largest challenge for 
us in trying to determine the answer to that question was we 
interpreted the law to mean that the Coast Guard, by 
legislative authority, would be running and managing the 
command. But oftentimes in the structure the responsible party 
had equal authority and oftentimes veto authority, whether it 
was directly through objections to operations or through a 
financing leverage where if they chose not to authorize 
payment----
    Mr. Costner's technology was there. We all saw it. We were 
exposed to it and actually requested to be allowed to utilize 
it. If it didn't work, then we would discard it. But because BP 
said no, that is what generally held up the entire process on 
many cases.
    So if the Coast Guard is truly the command in this type of 
an incident, then let the responsible party financially support 
that command, rather than have veto authority in operations.
    Mr. Cao. Thank you, Mr. Chairman. Yield back.
    Chairman Thompson. Thank you very much.
    The gentleman from Texas, Mr. Cuellar, for 5 minutes.
    Mr. Cuellar. Thank you, Mr. Chairman. I want to thank both 
of the witnesses for being here.
    Mr. Taffaro, let me ask you a question. I am looking at 
your testimony, and in particular I am looking at pages 6 and 
7, where you go in very specific suggestions as to where there 
was a problem working with the Federal Government. The main 
thing is, without local buy-in initiatives, it is kind of hard 
to get some of these issues addressed.
    I have looked at the testimony that Mr. Chavez and Rear 
Admiral Neffenger--and it is day and night, what they are going 
to present; and I hope you stay here to listen to their 
testimony. But it is totally day and night.
    I want to know, just follow up with what the Chairman 
talked about. Why is there such a disconnect? What are we 
missing here? Because I am one of those. Without the local buy-
in, I don't care if you have the best plan out there, why do 
you think--I mean, there is a disconnect here, totally.
    Mr. Taffaro. I believe we can't ignore the massive nature 
of this incident, obviously, and the multiple layers of 
command. Oftentimes, if there was a command that we were told 
that Admiral Allen--and, in many cases, during a meeting with 
the parish presidents and the Governor--that Admiral Allen or 
his deputy would support, by the time it got to the local level 
it had changed dramatically and significantly. It is indicated 
in our experiences, even as recently as yesterday, we have a 
transition plan that the Coast Guard has signed off on, the 
State signed off on, BP signed off on, but to implement that 
transition plan is different in every single parish that is 
impacted right now. That shouldn't be the case. The transition 
plan was meant to be a standard, but it is implemented 
differently across the board.
    Mr. Cuellar. I hope, Mr. Chairman, the two witnesses will 
stay here and follow up on the specific problems of Mr. 
Taffaro. I don't care if you have the best plan, but if you 
don't get down to the locals, we have got a problem. I hope our 
two witnesses will take a look at that and spend a little bit 
of time with Mr. Taffaro.
    To Mr. Costner, thank you very much. Let me ask you another 
question I have with Homeland Security. I know that Homeland 
usually brings up, well, look, we have just been in existence 8 
years, and we are still working at it. We still are trying to 
work this out. My response is, we won World War II in 4 years. 
So that response doesn't buy me out.
    One of the issues, following up on what the Chairman talked 
about, was this issue about how do you get the ideas from the 
private sector so Government can say, you know, here's a good 
idea. I can understand there are some ideas out there that 
might not be the best, but if you have a good idea like you 
have, and I certainly want to thank you, but let's say the same 
thing in Texas. I know you know some of my friends, Paul 
Sadler, Auggie Corito, and some of those folks from Austin. But 
even in Texas, for example, the former Governor Mark White had 
an idea, and he just couldn't get through the Government.
    Apparently, you have the same situation. You go in, you 
present an idea. What suggestions do you have where Homeland 
can look at an idea and say: Let's move through this idea. At 
the same time, there are some people who come up with some of 
the craziest ideas. But yours was a good idea. How do we get 
Government to get those good ideas from the private sector like 
you had? Because you had a little difficult time in trying to 
get past the bureaucracy.
    Mr. Costner. I still don't know that answer. We have an 
interesting system in America, and thank God we actually have 
it, because it gives us this forum, for as frustrating as it 
may be for everyone, but we are here. In my instance, I am kind 
of a brick-and-mortar person. I wanted to come and offer this 
committee an actual plan.
    So what I have attempted to do as a citizen is to do kind 
of the heavy lifting, put over $20 million into technology. You 
should understand also that this technology came out of the DOE 
[Department of Energy]. So this actually had a potential to be 
a great story in technology that the Government paid for, I 
bought, I extrapolated it into something that could work around 
the world just as well as here on our own Coast.
    So I have attempted do the things. I have called the 
Governors. I have come to Capitol Hill three times to testify, 
to not just bring awareness, because we are all aware of what 
has happened.
    I think what this body is in need of, what the American 
people are in need of, is a plan. That plan, make no mistake, 
didn't need to come from the Government. It should have come 
from industry. Industry should have had a plan in place that 
was not just adequate. Adequate is a word that we use when we 
are a child. We just do the bare minimum. What we needed is a 
plan that is overwhelming. To that extent I have gone out of my 
way to talk to the oil companies and present this plan to them, 
with the idea that this is a plan that they should have in 
place.
    Short of that, I guess we come back to our system of 
Government where we have to mandate, where we have to 
legislate. But, in this case, that doesn't have to happen. I 
think a heavy influence from this particular committee, from 
the Department of the Interior, I think from the Coast Guard, I 
think a heavy influence can be brought to bear on the oil 
companies; and I think they would accept a plan that has this 
type of science, this type of logistics, this kind of response.
    It exists, like I say, today. It is a turn-key operation 
that can be passed over to the Coast Guard and we can begin to 
get rid of some of the frustrations. Because at the point of 
something going wrong there is an overwhelming response to 
something that seems practical, something that seems adult. We 
need an adult response to a problem, and a mature industry like 
the oil industry should have one.
    Mr. Cuellar. Mr. Chairman, thank you.
    By the way, ``For Love of the Game,'' great movie.
    Mr. Costner. Thank you.
    Chairman Thompson. The gentleman from Texas for 5 minutes, 
Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman, and thank the 
witnesses for being here.
    Mr. Costner, thank you for your leadership and your role in 
this response effort. I know you testified before the Science 
and Technology Committee previously, so we had a chance to 
visit at that time. It is really an astounding story that the 
two of you have to tell here today about the Federal 
Government, and sometimes the Federal Government is its own 
worst enemy.
    This technology, Mr. Costner, as you mentioned in your 
report, was developed over 30 years ago by scientists at the 
Idaho National Lab. The patent was applied for in 1990. You 
purchased it in 1993. For 15 years, you tried to get the 
Federal Government to take notice of this technology to prevent 
the very disaster we saw happen in the Deepwater Horizon spill.
    I think the Chairman has already gone through your 
testimony in terms of who you contacted to try to get 
attention. But even after the spill occurred, what is even more 
incredible to me is the lack of interest or lack of response by 
the Federal Government.
    Can you tell me a little bit about the obstacles and the 
challenges you encountered, even after the spill, trying to get 
the attention of the Department of Homeland Security?
    Mr. Costner. Well, not so frustrated. You have to 
understand that I don't know the waters myself, how to navigate 
in Government. I am a citizen. I think most of the people 
behind me--well, maybe not. This is an interesting place to 
work. So I try to educate myself.
    I have never tried to lean on my celebrity to bring 
attention to this. I always thought that the technology would 
speak for itself. But it hasn't.
    Listen, America's story is pretty long in all things, in 
all things that we have accomplished. Maybe we have come to a 
seminal point where we can put our thumb down, we can put our 
fist down and say this is what we need to be about.
    So I feel privileged that I have this audience. I feel like 
this group has the weight, has the interest of the American 
people at heart and could influence the oil industries to take 
this plan.
    As you can see, my emphasis has kind of shifted. I have 
gone from technology that I was willing to offer up--a machine 
that would create efficiencies on the water where no 
efficiencies existed--and we have moved--my experience down in 
the Gulf the last 5 months has led me to bring forth a plan.
    I want to be really clear about this plan. This plan was 
not made by myself. It was made up of locals who have 
experience--considerable experience both nationally and 
internationally. It is made up by men who have made their own 
companies in the oil service business who have really made a 
thoughtful plan that we believe is overwhelming in its ability 
to respond to oil spills, big and small.
    Mr. McCaul. I think it is the role of this committee, Mr. 
Chairman, to get attention to your plan and get the Department 
of Homeland Security to consider this plan--and the Federal 
Government.
    Eventually, BP did end up buying some of your machines, is 
that correct?
    Mr. Costner. That is correct.
    Mr. McCaul. How many?
    Mr. Costner. They bought 32. Twenty-one of them were 
deployed.
    Mr. McCaul. And they worked----
    Mr. Costner. They worked very well. But pointing out to the 
frustration that everyone has experienced, there were times 
when our machine sat out there waiting for oil to be brought to 
them from these 6,000 boats. It never came. There was no 
logistics that could direct these boats to where this oil could 
be offloaded and they could continue to gather more.
    So why my plan is simple is because it needs to be simple. 
We need to have one in place. It needs to be mobile. It needs 
to be very robust. But it needs to be passed off. The only plan 
that can be passed off is one that has been carefully thought 
out, where training has followed suit, and it can pass over to 
the Coast Guard. We need to simplify this, and we can do it.
    Mr. McCaul. One hundred ninety vessels with 190 of these 
machines?
    Mr. Costner. Well, no, there would be multiple machines 
sitting on these boats to process this oil.
    Mr. McCaul. I would be interested to get the cost for that 
plan. I know you don't have that figure.
    Mr. Costner. Well, I have had to do estimates, because I 
think that is important. There is a price tag with everything. 
But I think it is important to know that as we designed this 
plan we didn't just act like we had a blank check and throw it 
at the oil industry. I don't want to be that cavalier. What we 
decided to do was to take existing assets. Of these 190 boats, 
90 of them already exist. What we have proposed is to retrofit 
them. So, in a way, we are not trying to stuff a bitter pill 
down them. We are trying to use existing assets.
    The 100 shallow water boats were something that we don't 
have. We are too accustomed to seeing our own citizens on the 
beach standing heroically with rubber boots and pitchforks and 
hay. These shallow water boats, as I described, can move in a 
very rapid mobile place. They can move from Texas to Florida 
overnight. So, finally, we can have some highly technical 
pieces of equipment working as oil moves its way towards our 
shore, should it get by this plan.
    Mr. McCaul. In the limited time, just one question, Mr. 
Taffaro. You testified that the parish interaction with DHS was 
nonexistent, is that correct?
    Mr. Taffaro. That is correct. The link between myself as 
the parish representative and DHS occurred through the Coast 
Guard's PPLO, the liaison officer supplied by the Coast Guard.
    Mr. McCaul. So you did not have a seat at the unified 
command.
    Mr. Taffaro. We had our branch in St. Bernard. So there was 
no DHS direct interaction.
    What I wanted to add to that if I can, quickly, is that the 
characterization here is that every individual who came to 
assist, whether they were rotating in or rotating out, had a 
clear dedication to the mission, but the system that they 
operated in did not provide the appropriate support to carry 
the message from the highest levels of authority to the ground 
level.
    Mr. McCaul. Just closing, Mr. Chairman. I think you 
testified, Mr. Taffaro, about legislation needed to have more 
flexible response decisions to be made. I think we should take 
a look at that on this committee.
    Thank you for the testimony.
    Mr. Taffaro. Thank you.
    Chairman Thompson. Thank you, and that has been duly noted.
    We were told on our visits just the opposite. Part of what 
we are trying to do with this after-action review is that, if 
we have to legislatively require it, we will do that, because 
we understand that has to be the connection.
    We now recognize the gentlelady from California, Ms. 
Richardson, for 5 minutes.
    Ms. Richardson. Thank you, Mr. Chairman.
    Mr. Taffaro, how long have you been the president or 
involved in government in an elected official position at your 
parish?
    Mr. Taffaro. I served as a council member for 8 years; and 
I have been the parish president since January, 2008.
    Ms. Richardson. Did you participate--back in 2005, there 
was a National level exercise regarding a potential oil spill. 
Did you participate in that in any way or were you aware of it?
    Mr. Taffaro. No, I did not participate.
    Ms. Richardson. You said in your questions and answers in 
response to Mr. Chairman that you did not have a point of 
contact. But yet in your testimony you reflected on the fact 
that you did have a liaison that you were involved with. I 
think, if you notice, several Members are asking the same 
question. Can you be clear on whether in fact there was a 
liaison with the Coast Guard that you were interacting with? 
Because we were specifically told that each parish had a 
liaison. Maybe you didn't feel the liaison did enough, but was 
there a liaison available for you to interact with at your 
parish?
    Mr. Taffaro. Sure. Let me clear that up. The question that 
I answered was whether or not there was a person who had 
ultimate authority within the Coast Guard that I was introduced 
to. No, that was not the case, outside of Admiral Allen.
    The liaison officer program actually started during the 
response in response to that disconnect, as well as the 
function of the liaison officer, and I don't want to be curt 
about this, but part of that came about because of the negative 
media attention that many of the local parish officials were 
bringing to light about the disconnect that was happening.
    Ms. Richardson. Right, but the question is, and I only have 
3 minutes, and I need to ask some questions to Mr. Costner, the 
question is: Did you have a liaison? Yes or no?
    Mr. Taffaro. Yes.
    Ms. Richardson. Okay. So you were introduced to someone. 
Did you participate on any of the calls?
    Mr. Taffaro. I participated with my liaison officer. I was 
not invited to participate on the calls. In fact, I was told 
that the call was for the liaison officer and DHS's offices, 
not for the parish president to sit in on.
    Ms. Richardson. So you have no idea whether the questions 
you asked or the concerns that you had were elevated on the 
call through the liaison officer.
    Mr. Taffaro. I believe that the liaison officers assigned 
to me, I thought, did due diligence in conveying whatever 
concerns that were necessary or conveyed to him.
    Ms. Richardson. By you.
    Mr. Taffaro. Up to DHS.
    Ms. Richardson. Did you receive responses from him based 
upon the things you were asking?
    Mr. Taffaro. Sometimes, not always. Oftentimes, there was a 
single direction of communication.
    Ms. Richardson. Okay.
    Mr. Chairman, one of the things that I have an interest in 
as being Subcommittee Chair of Emergency Communications 
Preparedness and Response is that I think a huge weak link that 
we have is the lack of continuity of Government.
    I would look forward to working with you, especially the 
excellent testimony that we have that you initiated through 
this hearing, because, as I said, and I am going to say it 
publicly again, my 6 years on a city council, 8 months in the 
State legislature and even now, 3 years in Congress, no one has 
ever told me what do I need to do if something happens. That is 
a scary point. If I don't know, and it sounds like, through 
your experience, there wasn't, still, we haven't gotten to that 
point.
    I think continuity of Government, inter agencies are now 
working well together, but connecting the dots, local 
officials, State officials, Federal officials, with those 
agencies to maximize where we need to be is still not there. So 
I appreciate you having this hearing. I appreciate you coming, 
sir, to testify, because I think it further accentuates that 
this is a huge problem that needs to be addressed, and I am 
very appreciative that you brought this forward.
    Mr. Costner, in the remaining time that I have, which is 
about a minute and 4 seconds, when the Deepwater Horizon spill 
occurred, did you ever receive a call from anyone saying, we 
hear you have something----
    Mr. Costner. No, I did not. I was on my way to Canada to 
look at the oil tailing problems that they have up there in 
Canada. I was invited down. So I wasn't immediately called. I 
was invited down by a group of local businessmen to see if this 
machine really could work.
    Ms. Richardson. When it was tested on the water, what 
happened? Did they use it?
    Mr. Costner. Well, when it was first tested I felt that I 
was, I thought perhaps the game was rigged, because I thought I 
was going out to test oil and water, and the sample that was 
brought to me was thicker than peanut butter. I was a little 
frustrated, as you can imagine, because it was designed to 
separate oil and water. But the machine, through some 
engineering, through about 2 to 3 or 4 days, we figured out how 
to do that.
    I was then brought oil that had dispersants in it, and the 
machine was able to separate that. It is interesting to note 
that we were able to come under the EPA standards of an output 
that was below 15 parts per million, and, of course, we are 
obviously able to separate oil and water. In fact, we prefer 
that it come to the top, that it not have dispersants, so that 
we can gather it.
    Ms. Richardson. So was it ever used at any point in the 
process?
    Mr. Costner. Pardon me?
    Ms. Richardson. Was your equipment ever used?
    Mr. Costner. It was. When BP finally put it through the 
entire gauntlet of works, something that I don't think has ever 
been done before on the water, it was successful, and BP, at 
that point, chose to buy 32 of the machines and place them on 
vessels.
    Ms. Richardson. Did you witness some being used?
    Mr. Costner. Pardon me?
    Ms. Richardson. Did you witness some being used?
    Mr. Costner. No, I didn't witness them being used. I had 
all the faith in the world that they would work and the reports 
came back to me. In the white paper, you can see that they did 
work, and BP did understand the value of these particular 
machines.
    Ms. Richardson. How long did it take from the time--and if 
I could just have an additional 30 seconds, Mr. Chairman?
    How long did it take from the testing to the equipment 
actually being purchased and being used?
    Mr. Costner. It took quite a while. We came to the fight 
late, so I don't have that; probably 2\1/2\ months.
    Ms. Richardson. I didn't hear you answer the question of my 
Republican colleague. What----
    Mr. Costner. Yeah, it was pretty long.
    Ms. Richardson. What is the estimated cost of your plan?
    Mr. Costner. The cost. It is interesting to note that the 
plan that is being put forth by industry right now, there is a 
consortium of the oil companies, and a number, a billion 
dollars, is being tossed around. It is a pretty sexy number. I 
think everybody behind me would go, a billion dollars? I mean, 
that gets your attention.
    But it is important to know that that is designed for 
prevention and containment at the well site. What that plan 
does not include--and I think the committee, I hope, takes this 
really to heart--what that plan does not include is surface 
oil, the problem that we are talking about today, the one that 
came on to the beaches of the parishes, the one that comes up. 
It seems like they fail to anticipate that something could go 
wrong, and so their plan is a billion dollars.
    I would estimate our plan is somewhere around $850 million 
to a billion dollars itself, with an on-going cost of about 
$150 million to maintain it.
    Now, those are guesses. But I have outlined before that we 
have tried to use existing assets to not drive that cost. But 
like I said before, I don't think there is any cost that is too 
great that they are willing to pay. I think in the service of 
safety, I think this plan is the right one.
    So the plan that is being offered right now by industry 
does not include surface oil, and that is what this plan is all 
about.
    Ms. Richardson. Thank you, gentlemen, for your testimony.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The Chairman now recognizes the gentleman from Florida, Mr. 
Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it 
very much.
    Thank you for your testimony, gentlemen.
    Mr. Costner, again, thank you for sticking with this. It 
has got to be very frustrating after 15 years.
    I have been concerned, regarding your plan, I have been 
just concerned about the dispersants and their effect on the 
ecosystem.
    Does your plan avoid using dispersants or minimize using 
dispersants?
    Mr. Costner. It doesn't require using dispersants. We want 
the oil to come to the surface.
    I think if dispersants are used, and we don't include that 
in our plan, it should be as a last line. That call should be a 
difficult one to make.
    But if we create a rapid response, an overwhelming 
response, we should be able to recover a majority of that oil. 
That is another reason why we created a last line of defense 
that is sitting on the shore waiting, really effective boats.
    So, yeah, when you disperse, you are not getting rid of the 
toxicity of the oil. The only thing you are doing is breaking 
it up and allowing it to spread into the ecosystem a lot 
quicker. The point of dispersants has always been almost a--No. 
1, it gets it out of mind and out of sight really quickly, so 
there is that aspect.
    But the other reason they talk about dispersants, and the 
reason why I think they have been effective in having them work 
is because the claim is, if we don't disperse, it will travel 
along the surface of the ocean quicker and get to your beaches 
quicker. That scares everyone. So everyone naturally goes, yes, 
well then, disperse.
    But we do not require dispersant. We do not require burning 
because burning does nothing to get rid of the toxicity either. 
It simply creates a more airborne pollution.
    Mr. Bilirakis. Thank you very much.
    Mr. Taffaro, your testimony echoed many of the sentiments, 
particularly in the area as to the information sharing and 
exchange by the Unified Command with local governments. I have 
heard these same sentiments in the State of Florida. Based on 
your experiences, what recommendations would you make to 
enhance communications, resource allocation and overall 
responsiveness in the event another disaster of this magnitude 
occurs?
    Mr. Taffaro. Well, one recommendation that I would put 
forth for consideration is to have a National logistical 
program that identified resources ahead of time and had those 
resources in a logistical downstream chain, instead of having 
to then scurry through in response to an incident to find 
resources and to allocate them accordingly.
    That should be a paramount preparation issue or item for 
any agenda for any operational oil and gas company, as well as 
combining with all of the Federal agencies that have oversight 
to and regulatory authority over those industries.
    Mr. Bilirakis. Thank you.
    As a follow-up, in addition to looking back after disaster 
response to make changes to plans and procedures going forward, 
I believe that it is necessary to use lessons learned as they 
are happening to correct deficiencies in response while it is 
on-going. In your experience, as you raised issues about the 
lack of responsiveness or unavailability of resources with 
Unified Command, were they capable of changing the way they 
operate to address your concerns and to be more responsive?
    Mr. Taffaro. In our experience, they were not. Oftentimes 
we sat across from a Coast Guard command individual who stated 
they would like to go further, but they were legislatively 
restricted. I think one of the issues that we have learned at 
the local level and try to promote that to the National level 
is that, in after-action reports, we oftentimes promote 
legislation based on the most current scenario, and that leaves 
us short for the next disaster that transcends the previous 
one.
    So if we are not proactive in looking at, as Mr. Costner 
said, well, if you had one Deepwater Horizon issue, do we have 
capacity to respond? What if we have five? Can we do that?
    So overplaying--within the legislation, if I can, one of 
the things that, again, we borrowed the lessons learned from 
Katrina is that there has to be, because in my estimation, we, 
as individuals, are hard-pressed to come up with legislation 
that fits every disaster that we may have. But there should be 
a way for legislation to grant authority when we come up 
against a disaster that transcends the current legislation's 
parameters to act reasonably and to act responsibly.
    Mr. Bilirakis. Thank you very much. Appreciate it.
    Thanks for your testimony, gentlemen.
    Chairman Thompson. That really is the reason we are here 
today, to talk about lessons learned from this situation and, 
hopefully, at some point, we will provide the legislation so it 
won't repeat itself.
    We will now--the gentleman from New Jersey, Mr. Pascrell, 
for 5 minutes.
    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. Chairman, this reminds me of many hearings that go on 
in the Congress that deal with many different agencies of the 
Federal Government. The relationship between any particular 
industry and the Federal agency designated for specific 
oversight is really biblical in itself.
    Although the Minerals Management Service, when I hear that 
term, Mr. Costner and Mr. Taffaro, you know, it is like Niagara 
Falls, suddenly I turn, with Lou Costello and Bud Abbott. It's 
a nomenclature, and I don't feel very comfortable when I hear 
it.
    On the other hand, shortcuts imply a conscious effort, if 
not a criminal intent, as far as I am concerned, but you point 
out in your testimony, Mr. Costner, that we are not simply 
talking about what you can't see, don't worry about.
    On page 16, in your testimony, ``What is the Difference 
Between Separating Water and Oil,'' I find very simple and 
right on target. We have been given the all-clear sign. The 
hole has been plugged. We are trying to work backwards now to 
find out and hold people culpable, not only in the private 
sector but in the Federal sector. Firing people is not enough, 
as far as I am concerned.
    So, Mr. Chairman, the 9/11 Commission told us the most 
important failure concerning the 9/11 attacks was one of 
imagination. So this is what your struggle is, let's face it, 
for 15 years; people who have imagination, people who have 
none.
    It seems that some imagination failed us when it came to 
planning for Hurricane Katrina, despite the fact that a large-
scale natural disaster in a coastal city like New Orleans 
should have been entirely predictable.
    Now we have the Deepwater Horizon, a massive oil spill in 
the Gulf. It seems we still fail to have the imagination to 
think that if we are drilling for oil thousands of feet below 
the earth's surface with immense pressure in ever-changing 
conditions, that maybe, just maybe, we might be terribly wrong.
    Mr. Chairman, I find it hard to believe that it requires a 
real active imagination to not consider that a distinct 
possibility. The simple undisputed facts of this entire 
disaster is that there was no real contingency plan. I blame 
the Federal Government. I blame BP, and I blame those private 
folks who dig into the ocean and say, all is clear, because you 
can't see anything on the surface, not from private industry 
nor from the local and State and Federal Governments, which is 
exactly why our response to this disaster was made on the fly 
and took so long to coordinate properly.
    So here we are once again in this committee considering a 
threat after it has occurred. We are good at it. We have 
written the protocol, the model. I hope you are watching. Once 
again, we are stuck being reactionary instead of proactive.
    So, Mr. Costner, let me ask you this question. Do you feel 
as if you have been heard, or do you have to create a spectacle 
just to get attention of decision-makers on the ground? I am 
trying to make it as simple and direct as possible, sir.
    Mr. Costner. I feel I have been heard and now, you know, 
what I am dependent on, as every other citizen is, is the 
collective will of our Government to move.
    My hope would be that industry would take this plan and the 
influence that this committee could be brought to bear and do 
this without being made to do it; that they could see that this 
is a responsible act.
    But I have been heard. Now I am in the hands of people who 
have gone into public service.
    Mr. Pascrell. Thank you.
    Mr. Taffaro, thank you for your candidness.
    Mr. Costner, thank you for your candidness.
    Let me ask you this: Was your office consulted on a regular 
basis on the oil spill response efforts? Yes or no.
    Mr. Taffaro. I am going to answer based on the definition 
of regular.
    Mr. Pascrell. That is not a yes or no.
    Mr. Taffaro. I have to say yes, but defining regular is a 
tough issue.
    Mr. Pascrell. Well, let's go into the answer to your 
question then. Were you humored in the process?
    Mr. Taffaro. Yes. One of the things that we forced into 
operation at the St. Bernard branch was: I wasn't going away, 
despite, at the front end and even all the way 'til last 2 
weeks, not being recognized as a legitimate seat at the table 
of command at the branch.
    Mr. Pascrell. What do you expect from us, Mr. Taffaro? What 
do you want us to do? Tell me what you want me to do.
    Mr. Taffaro. If this committee can address the link between 
the National Incident Command and the National Contingency Plan 
and make sure that those dots are connected, all the way to the 
ground-level forces that are on the front line of any disaster, 
then I think we have accomplished something in the process, 
because there is so much valuable information that comes from 
the people who are dealing on the front lines of a disaster 
that rarely make its way back to the decision-makers at higher 
levels of authority.
    Had we had that flexibility when Mr. Costner showed up in 
New Orleans with his machines, we would have had them on the 
water the very next day. We asked for that. But that was not 
the case.
    Mr. Pascrell. Why?
    Mr. Taffaro. Because the bureaucratic system didn't allow 
for that.
    Mr. Pascrell. What is the heart of the bureaucratic system 
that we are referring to specifically today? Where is the 
heart? Where is the soul? Where is the centerpiece of it?
    Mr. Taffaro. In this incident, the heart and soul is the 
definition of responsible party.
    Mr. Pascrell. Well, who is the most responsible party--
forget about BP for a second--on this side of the table?
    Mr. Taffaro. Current legislation hands that to the United 
States Coast Guard.
    Mr. Pascrell. Mr. Taffaro, let me ask you this, if I may, 
Mr. Chairman, do you primarily receive information from the 
Coast Guard or some other Federal agency?
    Mr. Taffaro. In this incident, the Coast Guard.
    Mr. Pascrell. The Coast Guard.
    One more question? Quick.
    Chairman Thompson. One more question.
    Mr. Pascrell. Thank you, Mr. Chairman. Did you receive any 
information from BP or its contractors?
    Mr. Taffaro. Throughout the course of this incident?
    Mr. Pascrell. Yes.
    Mr. Taffaro. Yes.
    Mr. Pascrell. You did.
    Thank you, Mr. Chairman.
    Chairman Thompson. The Chairman now recognizes the 
gentleman from California, Mr. Lungren, for 5 minutes.
    Mr. Lungren. Thank you very much, Mr. Chairman.
    I would like to direct some questions to Mr. Taffaro. My 
experience for 8 years as Attorney General of California, when 
we had earthquakes, mud slides, floods, fires, riots, was that 
the chain of command was extremely important, and even though 
we don't do things perfectly, and there are always after-action 
reports and so forth, the lines of authority were fairly clear.
    If we have a disaster, man-made or otherwise in a county in 
the State of California the sheriff is the chief law 
enforcement officer. He is the one they all respond to. When we 
have assistance from other outside agencies and departments, 
they go to him. They understand that sort of command structure. 
People swallow their pride and understand that is the command 
structure. The State comes in, and there is an overall decision 
making by the Governor and other State-wide authorities. When 
the Feds come in, they assist with us.
    But we never had a problem, as I can recall, that after the 
fact, we were talking about people not knowing what the lines 
of authority were, or there was an inability to get a response. 
So that is what puzzles me here and particularly when, at least 
out of Katrina, it appeared to me that the jewel of the Federal 
response was the Coast Guard. We didn't hear complaints about 
the Coast Guard in that regard.
    So, Mr. Taffaro, my question to you is, is it, in your 
mind, from your experience, some bureaucratic snafu or 
difficulty in operation in the Coast Guard, or is it this lack 
of legal authority that the Coast Guard had to make decisions?
    Mr. Taffaro. Well, in Louisiana, one of the things that I 
believe created some confusion is Louisiana law is very 
specific in a declared state of emergency.
    Mr. Lungren. Yes.
    Mr. Taffaro. That grants the authority to the local 
authorities at that point.
    The Clean Water Act and OPA 90 clearly does not recognize 
the law of that State that is stated in Louisiana. So, as a 
former Attorney General, you would easily see how that conflict 
begins to arise when a Federal agency does not recognize a 
State legislative authorized authority for a local 
municipality.
    Mr. Lungren. That occasionally occurs, yes. I do recall 
that.
    Mr. Taffaro. But I don't believe that hurdle was something 
that could not be overcome. I believe the challenge came and 
what made it difficult was a lack of recognition on both sides, 
because as the parish president, I dug my heels in when I was 
told, you have no authority in this response. The Coast Guard 
dug their heels in and said, we have all the authority in this 
response. In essence, we undermined the process of efficiency.
    Mr. Lungren. I always found it worked out best in terms of 
concurrent legal jurisdiction or law enforcement jurisdiction, 
when the FBI and Federal authorities recognized that there were 
more boots on the ground with respect to local law enforcement 
and that they generally knew the issue better in terms of 
street crime and so forth because they were working it, and 
even though they had Federal jurisdiction, it was respecting 
and taking into account the information base that they could 
get from local law enforcement. It sounds like that kind of 
analogy didn't work in your instance.
    Mr. Costner, you said in your testimony before the House 
Science and Technology Committee in June that you had come 
across several ``regulatory roadblocks'' including various 
Government regulations. You also mentioned an overall 
``ineptness'' on the part of numerous Government agencies. I am 
not looking to point fingers; I am just trying to find out 
where you found difficulties and where you think--well, let me 
put it this way. Do you think your celebrity came in the way of 
having your solution seriously considered through the process?
    Mr. Costner. No, I think it is business and business as 
usual. People don't want to pay the cost because safety isn't 
sexy.
    Mr. Lungren. Well, let me put it this way. You had a 
particular patent that you had that went through a particular 
process that would be needed in certain circumstances.
    Mr. Costner. That is right.
    Mr. Lungren. Yet it seemed that you had difficulty getting 
that accepted over a 15-year period of time. I am always 
recalling something President Eisenhower said about World War 
II. He said the real hero of World War II was Higgins, who 
built the Higgins boats, which were the landing craft out of 
Louisiana. Yet Higgins was relatively a small operator compared 
to all the big ``military industrial complex,'' and if we had 
waited for them to build those landing crafts, we might not 
have landed on Normandy.
    So it has always brought in my mind, how do we make sure 
that the good people in the Federal Government make sure that 
they recognize, perhaps, ideas coming from unconventional 
sources or not from the big guys, and in this circumstance when 
we are working with our oversight and Homeland Security, one of 
our responsibilities is to see that science and technology 
advances are utilized.
    So I guess, out of your experience, could you give us any 
insight into the roadblocks you saw that you think ought not to 
be there? Or are there constructs we could create to make sure 
that if you can't go through the front door, there is a side 
door or something that would consider the unconventional, if I 
can call you that?
    Mr. Costner. Right. Well, I think right now you have a 
group called the MSRC [Marine Spill Response Corporation] that 
represents the oil industry. It is funded by the oil industry. 
The people who run it came out of the oil industry, and they do 
the bidding of the oil industry. It would be up to them to, you 
would think, to stay on top of the latest technology.
    They were privy to this machine. Like I said, it was tested 
with the Coast Guard in New Jersey. It was demonstrated 
multiple times in my own back yard in Santa Barbara where the 
MSRC was invited to. Right now, that group, if you look past 
the oil companies, the group that was responsible, that we were 
led to believe was responsible for handling this oil spill, was 
the MSRC.
    So I would leave it to you to decide how good a job you 
think they have done or how big the door is open to someone 
like myself, who is offering what we consider the latest, the 
best technology available.
    You know, they had 6,000 boats out there, and we believe 
that only 3 percent of the oil was collected at the end of the 
day. But the eye of the needle that I have to go through, there 
is a Catch-22. I volunteered to go on a variety of spills. 
Well, if it hasn't been tested, it can't go out on the water. 
You know, well, how do you get it tested? How do you get it out 
on the water? It is a very difficult hill to negotiate. I have 
managed to 15 years later, we got out on the water. But you can 
see the journey was very, very tough.
    But we have to make sure that if there is an organization 
in place that was responsible for the spill, how well did they 
do? What did they do? Why do we feel that we didn't really 
respond, that there wasn't a plan at all?
    I mean, there can be a chain of command. I understand what 
this committee's talking about. A chain of command is very 
important. But without an army to direct it, without the brick 
and mortar, and that is what I offer up in the fleet of 190 is 
a brick-and-mortar, a push-button situation where then you can 
figure out the chain of command.
    But somebody has to go do the heavy lifting, the dirty 
work, long before it even reaches the beaches or the parish. 
There is someone that has to be out there. That is what we 
really need is a robust plan, and that is what we do not have.
    Mr. Lungren. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Thompson. Thank you.
    Mr. Costner, one thing I want to try to get a time line. We 
know about the 15 years that you have been working on it. At 
what point was it the Coast Guard that contacted you about your 
equipment, or were you still pursuing the Coast Guard? Or did 
you go to the local----
    Mr. Costner. No, this came through the local businessmen in 
New Orleans.
    Chairman Thompson. So the Feds nor anybody else actually 
gave you the time of day on this issue?
    Mr. Costner. Well, they didn't think to bring it up because 
I think it was, you know, it just has never been on their 
radar. They have never thought it important.
    But I think the industry, you know, never adopted it. The 
interesting thing about the machine is the ability to actually 
reclaim the assets. So it is not just cleaning it up. You would 
think that--I thought gravity would have come to my door. If 
you thought you were going to lose a valuable asset, could you 
not only clean up it, but could you resale it?
    So I really can't explain the journey. I guess, if you are 
not mandated to clean something up, I guess it takes a very 
evolved person who is willing to do it. If you run a public 
company, if you decide that we are going to spend $2 billion of 
our dollars to clean up a mess, I think your stockholders will 
come and say, why did you spend that $2 billion? You say, well, 
we thought it would be a responsible thing to clean up this 
mess. I think those stockholders would say, and this is where 
human nature comes into bear, nobody told you to do that. That 
was my dividend. You just spent $2 billion of my dividend to 
clean up something that no one has made you do.
    So we realize that we actually need a very evolved person 
who is going to work in a public job, just like, and if it was 
a private situation, it would be looking at somebody who would 
look at $2 billion of their profits and say: Do I want to put 
this into protection? It goes against our human nature. We want 
our pile to grow bigger.
    So who speaks for the ecosystem that can't speak for 
itself?
    Chairman Thompson. Thank you.
    The gentlelady from Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    To the witnesses that are here, I want you to know that you 
have come to the right place. The Chairman of this committee 
recognizes, even as we have lived in this skin since 9/11, that 
we were long overdue for having a Department that really has 
the full responsibility for natural and man-made disasters.
    I would not want to put words in your mouth, but what I 
would suggest is that we come to a conclusion in this 
Government that there needs to be one captain of the ship; that 
jurisdiction for issues of which you are facing need to be 
holed up, held up in one place where you can get an answer.
    I want to pose this sort of query to you, building on what 
we have heard. I want to also commend you to a bill that is 
named the REMEDIES Act that I will highlight some sections out 
of it that I think speak to your area.
    Forgive my raspy voice. First of all, I capture the words, 
Mr. Costner, that you said, do we have, does this Nation have 
the capacity to protect the environment from oil spills? As I 
listened to you and listened to your technology, I think you 
understand and seem to accept the fact that we will be engaged 
in deepwater exploration, whether it is in the United States or 
whether it is the newly found oil reserves off the coast of 
Africa now that all those nations are getting excited about; 
and at the same time, that we have a responsibility to protect 
these folk who are vulnerable.
    To the president of the parish, let me say to you, having 
been a member of the Houston City Council, I can understand 
what you said about resistance, exclusion, and power struggles, 
the worst formula for helping your constituents.
    So I would like to raise this question. As I do so, I would 
like to put into the record a letter from the president of 
Plaquemines parish,* I think one of your colleagues who you may 
know, Billy, and we all know him as Billy, but Nungesser, who 
says we respectfully ask that BP consider our request for this 
equipment to aid in the protection of our vulnerable coastal 
wetlands.
---------------------------------------------------------------------------
    * The information was not provided at the time of publication.
---------------------------------------------------------------------------
    They are asking for some equipment that is being moved from 
Grand Isle and being disposed of that deals with some of the 
issues, Mr. Costner, that you have talked about, to be placed 
there. This letter is dated September 17, so this is not 
something in August. The difficulty, of course, is to get a 
response, and that is where I would like to pose my line of 
questions.
    Mr. Costner, I think you have been very generous and kind 
in your remarks.
    I guess, before I say that, let me express my appreciation 
for the Coast Guard. I think we need to do so because they are 
the organization that we saw pick up 22,000 in Hurricane 
Katrina, and they did the best they could when they got the 
call for this oil spill.
    But would you reflect quickly on the fact that I recall you 
being at a Senate hearing and CNN coverage, before specifically 
the Government reached you. Was it before that? Or were you 
before that hearing when you asked the question, why do you 
have to keep doing this over and over again before someone 
listens? Was that where someone finally picked up the phone and 
called you from Government, or where you got hooked into the 
response?
    Mr. Costner. I think that occurred before I got hooked into 
the Government. The Government really never called me, but I 
didn't expect that.
    I realized that I could bring this to the Government, and 
so I started, you know, and trying to navigate these waters is 
not easy. You don't really know. But I came to friends that had 
had experience here, and so I began my journey.
    Ms. Jackson Lee. But that highlighted the dilemma because 
that was right in the middle of the spill and you had still not 
been reached out to; is that correct?
    Mr. Costner. That is correct.
    Ms. Jackson Lee. Do you believe today that we still have 
need for that oil separation equipment? Because the information 
or the letter that Mr. Nungesser is speaking about is still 
requiring or asking for that equipment? He is asking for 
specific companies.
    Mr. Costner. Yes. The Gulf desperately needs the shallow 
water boats that I outlined. Again, I talk in terms of brick 
and mortar, I really do.
    Ms. Jackson Lee. But do you believe there is still a need 
for clean up even now?
    Mr. Costner. Well, I would imagine that oil is going to 
continue to roll up on the beach in some way, but I can't 
actually speak to that to know that we do. I know that a spill 
could occur tomorrow, so we should have this equipment.
    Ms. Jackson Lee. On call.
    Mr. Costner. I think they would appreciate having 20 of 
these shallow water boats sitting in front of their parish.
    Ms. Jackson Lee. Or other equipment that may clean up 
Plaquemines parish, as this particular individual needs.
    Mr. Costner. That is correct.
    I think something that we have never mentioned is that this 
same opportunity exists for us on our freshwater bodies, our 
great lakes, our great rivers. We have the potential. That 
happens every day. So while we are talking about the Gulf, it 
is important to understand that this happens on a daily basis 
and that we have to protect our fresh water in exactly the same 
way.
    Ms. Jackson Lee. Do you believe that the Homeland Security 
Department should be able to define a scheme, if you will, for 
immediately grappling with natural disasters and man-made 
disasters, the appropriate framework?
    Mr. Costner. I think so. But I think what the committee 
needs is, you do your job; I do mine. You do need to be able to 
do that. But you also need to be armed with someone who is 
given you the tools to do that.
    Ms. Jackson Lee. But if I might, in giving you the tools, 
having at least one place you can go to, would that be helpful?
    Mr. Costner. It absolutely would be.
    I mean, something happens on the West Coast, you know, who 
starts that ball? I would say the Coast Guard. I think the 
Coast Guard has to have a designated fleet that they know how 
to operate. If something happens in Lake Tahoe, you have some 
system you call, and quickly somebody is going there.
    Now, do these assets exist at our fire stations? Can we use 
existing infrastructure? I think it is important to streamline 
everything and to understand that everything that we have 
requires training, so that when it goes out there, it actually 
works; it does what it is supposed to do.
    Ms. Jackson Lee. Thank you.
    Mr. Taffaro, from the local government perspective and your 
issue of command and connection, I think those are two themes, 
if you had one house that was responsible for the natural 
disaster, homeland security, you know the levels where you are 
supposed to go to, the Coast Guard was commanded under that 
structure, there was a structure where they had to work with 
local governments, how much better would that be for you?
    Mr. Taffaro. It would be better for everyone involved, not 
only for the local communities impacted by the disaster, but it 
would enhance the response by the command structure itself. I 
am a believer, having lived now through five type 1 disasters 
in the last 5 years, that the National agency or Federal agency 
that is responsible ultimately for commanding or managing a 
disaster is much more effective when the local knowledge and 
the local resources are brought to bear. That is just, over and 
over, an experience that continues to bear truth in every 
response that has been involved, at least in St. Bernard.
    Ms. Jackson Lee. So, in conclusion, the payor, in this 
instance, the oil industry, should be responsive to the local 
government and the Federal Government impacted. Maybe if we had 
one Achilles heel, I saw too much dominance by the private 
sector.
    I would like to see us developing in-house expertise on oil 
spills, floods, hurricanes, volcanos. Do you see that to be the 
right way so that the payor pays, because they are responsible, 
but the people who are responsible for the lives of those we 
represent need to be in charge?
    Mr. Taffaro. I can't agree with you more.
    To use a cliche, the fox should not watch the henhouse in 
the midst of a disaster response.
    Ms. Jackson Lee. I thank you and I look forward to 
legislation that I would like to share with both of you on how 
we can move forward in the research and making that come to 
bear. Thank you so very much.
    I yield back, Mr. Chairman.
    Chairman Thompson. Thank you very much.
    The Chairman now recognizes the gentleman from Texas, Mr. 
Green.
    Mr. Green. Thank you, Mr. Chairman.
    I thank the witnesses for appearing.
    For fear that I will forget, I would like to also thank all 
of the persons who were involved in the response, from the very 
top to the very bottom; every person played a role and every 
role was important.
    I would also like to recognize the fact that 11 persons 
lost their lives. I know that it has to be exceedingly 
difficult for the family members to witness hearings such as 
this, and I want to make it clear to them that we are still 
sensitive to the fact that they lost their lives, the 11 
persons that are no longer with us.
    I am concerned about a number of things, but today I shall 
talk about the perception of leadership and the perfection of 
leadership, two important concepts. It is exceedingly 
important, I believe, that on Day 1, or as near to Day 1 as 
possible, some one person walks up to a microphone and says, I 
am in charge, or words that are the equivalent.
    The perception of leadership made a difference in Louisiana 
after Katrina. When that general came to town and he said: I am 
in charge, and he started barking orders, it made a real 
difference in terms of what the public thought would happen in 
terms of a response.
    But the perception is not enough. There has to actually be 
a perfection of leadership. Somebody has to have the authority 
to say do this and understand that it will be done.
    The question is this: First, do you perceive that the 
public will benefit from some person stepping up and saying I 
am in charge on day one or as near to day one as possible?
    Mr. Costner, thank you for your time and your energy and 
your service to your country as a citizen who cares about 
people. So I will start with you in terms of someone stepping 
up as near to Day 1 as possible.
    Mr. Costner. Well, I think the American public, I think you 
all were underwhelmed by the response. I think--and you are 
underwhelmed because, in 1990, the Federal Government took 
quick action, tried to muster a lot of resources to close the 
gap here and to take these resources and put them towards oil-
response technology. So the question that gets asked is, 20 
years later, what happened? Were those 20 years wasted?
    Mr. Green. Is it important, Mr. Costner, that someone step 
forward immediately who is in charge?
    Mr. Costner. Yes. But they have to have--yes, it is, and 
they have to have the resources to be able to--because one 
general standing up and have no army----
    Mr. Green. Exactly, which is why, Mr. Costner, I pointed 
out that you have the perception as well as the perfection of 
leadership. It is one thing to have a perception, but you have 
got to have somebody who actually has not only the apparent 
power but the actual power to get things done. Do you follow 
the distinction?
    Mr. Costner. I do, absolutely.
    Mr. Green. Okay. I will go to the honorable parish council 
person.
    Mr. Taffaro. I couldn't have said that better myself. The 
perception and perfection of leadership is enormously 
important.
    What I do not have is information that sheds light on what 
information came from the immediate explosion of the well, 
because, if we recall, as an after-action item, we look at the 
delay of, was there a perception of leadership based on 
information that had trickled out?
    If you recall, the National media was reporting there was 
an explosion; there was no real threat. Then it became a little 
bit more of a threat. Then it became a National emergency.
    In that delay, there was a lack of perceived ultimate 
authority because in the beginning, it would run its course as 
an NRC [National Response Center] response. But that is not 
where it ended. If we are going to respond to disasters, in my 
estimation, it is much better to overwhelm the response at the 
front end than play catch up at the back end.
    Mr. Green. I agree with you. I think that we have to move 
to a point of not allowing the perception to a exist that this 
is being managed by a committee. While you have to have input 
from the multitudes to make good decisions, you still have to 
have a person who has the perception of power and the ability 
to get things done. It makes a difference when you have someone 
to step up immediately and say: I am in charge, and here is 
what we are going to do.
    One of the levels of frustration that I had visited upon me 
quite regularly from constituents was the notion that, is it BP 
that is in charge, simply because of the way BP was out front, 
or is the Government in charge? At some point, those issues 
have to be resolved expeditiously so that the public 
understands that we really do intend to mitigate and eliminate 
the problem to whatever extent that we can as quickly as we 
can. That is why I pose this.
    I think that that is what this hearing is about, trying to 
find a way for us to project leadership that is actually there 
to make a difference.
    I thank both of you for your comments. Thank you very much.
    I yield back.
    Chairman Thompson. Thank you.
    The Chairman now recognizes the gentleman from Missouri for 
5 minutes, Mr. Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Let me thank the witnesses.
    My question, one question, centers on the Exxon Valdez oil 
spill. It is generally accepted that there were about 11 
million gallons of oil spilled in the Prince William Sound. I 
am not sure what that environment is like today. Do either of 
you?
    My question is: Will the oil spill device that you have 
brought forth, is that something that needs to be widespread in 
every part of the U.S. waters where we are drilling? Is it 
something that has to be in place when there is an oil spill, 
or is it something that needs to be brought in after the oil 
spill?
    Mr. Costner. Yes, it is important to point out that the 
machine and the technology that we created is only part of the 
puzzle. It sits on other assets.
    So what you are saying is that--it is absolutely important; 
I see that those assets have to be able to be ready to deploy. 
That is what this plan is about. This plan should be replicated 
on the West Coast, in Alaska, on the East Coast if we decide to 
drill. I am not debating that.
    If we do drill, though, we have to have these protections 
in place. The way I look at the machine and the way I truly, 
truly look at it is, this body, not particularly this body, but 
your predecessors, a long time ago decided if you are going to 
operate on the water, you are going to have to have life 
preservers for the people that are on your boat. You are going 
to have to have a fire extinguisher. If you are on a large 
cruise ship, you better have enough life boats to save 
everybody, not just first-class passengers.
    So we have evolved to things that we know are safe. I think 
the oil-water separator is actually almost a mandated idea, 
whether it is mine or somebody else's, which is, if you have a 
spill anywhere, then you have the obligation, if you are not 
fighting for life and limb, to be the first responder on that 
space.
    So whether the oil tankers that are moving around the world 
coming into our ports, into our rivers, into our great lakes, 
into our bodies of water, if they don't have that capacity, 
that is a mistake. I think that is where we have come to.
    Mr. Cleaver. One final question, Mr. Chairman.
    One of the problems we have, we haven't built a new nuclear 
facility in the United States in a quarter of a century or 
more. One of the problems is the waste, you know, what do we do 
with the waste? Do we put it in Yucca Mountains in Nevada? No, 
they are going to fight it.
    The other issue is can we develop another use of that 
waste? The same question would be raised of recaptured oil. I 
mean: Is there anything that we can technologically do today 
with the water that has been recaptured?
    Mr. Costner. Yes, there is. The machine is a highly 
engineered piece. It spews out water and oil at 99.9 percent 
purity. So if it hasn't been interfered with dispersants, its 
saleability--I wouldn't say at this point that it is 100 
percent saleability, but it has a--it becomes--you don't have 
to take it off the books anymore. We don't have to sink it to 
the bottom. It has a value.
    Probably from a technological standpoint, I think that it 
would be wise for us to engineer it even more to bring it back 
to 100 percent of its value. So we don't have to sink it. We 
can collect it.
    The dirty secret is the oil and water that is being pulled 
off the ocean right now, where is it going? Is it going into 
holding tanks? Is it being injected back into dry holes on land 
somewhere to somehow find its way into our water system? Where 
is that oil, all this oil and water that is going? Because 
really what has happened out there was ships were picking up 90 
percent oil--or 90 percent water, 10 percent oil; 80 percent 
water, 20 percent oil.
    The machine that I am talking about would allow those ships 
to come back into shore with 100 percent oil, a bigger payload. 
But the water that was hauled off in oil, where did it go? Was 
someone paid for that?
    Mr. Cleaver. Thank you.
    Thank you very much.
    Chairman Thompson. Thank you very much.
    The Chairman now recognizes the gentlelady from New York 
for 5 minutes, Ms. Clarke.
    Ms. Clarke. Thank you very much, Mr. Chairman. Thank you 
for holding this very extremely important hearing regarding the 
lessons of the Department of Homeland Security and what we have 
learned from the Deepwater Horizon oil disaster.
    I would like to add my voice to those of my colleagues and 
folks around the Nation in extending my continued condolences 
to the families of the Deepwater Horizon oil rig workers who 
lost their lives as a result of the April 29 explosion and 
fire.
    Second, I would like to express to sisters and brothers of 
the Gulf Coast region how saddened I am that such an event of 
epic proportions has occurred in such a short time after the 
tragic events of Hurricanes Katrina, Ike, and Gustav. You are 
truly in my thoughts and prayers.
    Although my district, the 11th Congressional District of 
New York was not directly affected by the spill, the aftermath 
and future implications of the disaster are alarming enough to 
grab and hold our attention. Additionally, as a native New 
Yorker and the Chairperson of the Subcommittee on Emerging 
Threats, Cybersecurity, and Science and Technology, I am deeply 
concerned about DHS's role in the planning and implementation 
of National Response Framework and the technologies required 
and deployed in response to disaster.
    DHS's Science and Technology Directorate must be stood up 
and be required to interact and understand new technology 
solutions that may not necessarily be on their radar. We can 
see from the five Type 1 disasters that have hit the Gulf Coast 
in the past 5 years that our National disaster response must be 
improved.
    If we cannot properly respond to natural disasters in the 
Gulf Coast, how are we going to properly respond to disasters 
that may hit the rest of the country?
    It is clear to me that DHS's leadership role must not only 
be clearly defined within the response and recovery of a 
disaster, its role should be central to the reviewing and 
assessment of disaster plans as well.
    Mr. Costner, my first question is to you and whether you 
were aware or made aware at any point in time about the fact 
that there is a Science and Technology Directorate within DHS?
    Mr. Costner. I wasn't. I probably should have been. I 
probably experienced my own fatigue over the years.
    The thing that has been the most illusive for us is that 
there is a thing called Best-Available Technology. But it seems 
like it is almost a mythical group. No one can tell me who is 
in charge of that group. But yet it is what keeps equipment 
from being on the spot. The Coast Guard can't give an answer; 
MMS can't give a specific answer. So many groups can't give an 
answer, and so, you know, you feel like you are trick or 
treating, going to every door. What does this mean?
    In the mean time, the real loss is the loss of time. In the 
mean time, we don't move ahead, and technology has not been 
placed front and center.
    Ms. Clarke. I think, Mr. Chairman, this is a very important 
point. If DHS's role is to coordinate efforts, and we have a 
Science and Technology Directorate resident in that agency, 
they need to be stood up as soon as an event occurs and be just 
as aggressive as the rest of the agency in seeking solutions 
and reaching out to individuals, such as Mr. Costner, to 
examine exactly what they have in terms of technologies. Then 
that would help to avoid the scramble that, unfortunately, he 
was subjected to.
    Mr. Taffaro, president of St. Bernard Parish, I want to 
thank you for your presentation here today. In your testimony, 
you stated that, within your disaster experiences, you have 
seen the exchange of ``poor factual information'' about the 
event, a downplaying of available resources and the mechanisms 
to obtain such, and a lack of local engagement to the response 
coordination. Can you give me specific examples of what you are 
referencing?
    Mr. Taffaro. Sure. The factual information actually started 
from the start, at the very origin of the event, as stated, 
just having a true picture of what was occurring as a result of 
that explosion.
    Certainly, and appropriately, the Nation focused on and 
mourned the passing of those 11 individuals who lost their 
lives.
    But in addition to that, there was an entire disaster that 
was unfolding in front of us, and we could not get that 
specific information. I think that caused the response to, 
again, be delayed and have to play catch up. Even, to put it in 
perspective, even in if this committee were to move forward and 
to the full Congress or to DHS and adopt a plan, such as Mr. 
Costner's plan, without actual and accurate factual 
information, that response would never be pulled. So the 
trigger would have to be pulled based on actual information 
that is necessary.
    In terms of the resources, it has been well documented, 
because of not having a predetermined and pre-planned 
identification and downstream logistical resource and supply 
program, scattering for resources and having five States all 
vie for the same amount of resources became as much of a 
political activity as a response activity.
    So those two points obviously are extremely important.
    We have covered the local engagement of not being 
recognized as a seat at the table from the start. We are now, 
and the transition plan that was signed forces that issue. But 
even after it was signed, it was disclaimed to us that that was 
a mistake, and it shouldn't have been signed.
    Ms. Clarke. Let me touch upon that point again because I 
wholeheartedly agree with you that consulting with local 
communities and assessing their needs, their wants, are 
critical to adequately addressing a disaster area and its 
recovery.
    In your opinion, what would be the best way to garner the 
buy-in of the local community within a National contingency 
plan?
    Mr. Taffaro. By making sure that it is written in both 
legislatively and procedurally, that there is a seat at the 
table for the local authority, whoever that may be, whether it 
is a mayor, a parish president, or a county administrator, 
whoever that is in a given municipality, so there is no 
question and there is no ambiguity about whether or not there 
is local involvement in a National event.
    Ms. Clarke. Mr. Chairman, these are truly important lessons 
learned.
    I want to thank you, and I yield back the balance of my 
time.
    Chairman Thompson. Thank you very much.
    I would like to thank our first panel of witnesses for 
their very valuable testimony and the Members for their 
questions.
    Before being dismissed, however, I would remind our first 
panel of witnesses that the Members of the committee may have 
additional questions for you. We will ask you to respond 
expeditiously in writing to those questions.
    Again, I would like to thank you for your testimony.
    Mr. Taffaro.
    Mr. Taffaro. Mr. Chairman, if you would indulge me for one 
moment. I would like to go on the record and state that the 
hundreds of people who have come through the St. Bernard 
branch, that I don't want this testimony to taint their 
personal involvement or their personal efforts in any way; that 
the questions and responses that I have offered are indicative 
of a systematic issue. Almost to a person, those members of the 
United States Coast Guard as well as those contractors employed 
by and sent to us through the BP organization, when they 
arrived in St. Bernard Parish, they may not have known what 
they were there to protect; but by and large, they knew by the 
time they left or while they were there how important their 
mission was. They adopted it wholeheartedly.
    Chairman Thompson. Well, I don't think there is any 
question.
    The point is it should not have been on-the-job training. 
They should have been prepared before the incident occurred. 
That is what we are trying to get to.
    But there is no question of the heroic efforts on the part 
of the men and women after the spill.
    So I, again, thank both of you for your testimony.
    I would like to ask the clerk to prepare the witness table 
for our second panel of witnesses. We will recess while that is 
being done.
    [Recess.]
    Chairman Thompson. We would like to reconvene the hearing 
for the second panel.
    I now welcome our second panel of witnesses.
    Our first witness on the panel is Mr. Richard Chavez. Mr. 
Chavez is the acting director of Operations Coordination and 
Planning at the Department of Homeland Security.
    Our second witness is Rear Admiral Peter Neffenger. Rear 
Admiral Neffenger served as the Deputy National Incident 
Commander for the Deepwater Horizon Oil Spill Response. Before 
this, he was Commander of the Ninth Coast Guard District, 
responsible for operations throughout the five Great Lakes and 
the St. Lawrence Seaway.
    Our third witness is Mr. Richard Skinner. Mr. Skinner 
serves as the Inspector General for the Department of Homeland 
Security. Prior to his arrival at the Department, Mr. Skinner 
was Acting Inspector General with the Federal Emergency 
Management Agency.
    Our fourth and final witness on the panel is Mr. William 
Jenkins, Jr. Mr. Jenkins is director of Homeland Security and 
Justice at the U.S. Government Accountability Office. He is 
responsible for leading GAO's work on emergency preparedness 
and response to Federal judiciary and elections.
    Chairman Thompson. Without objection, the witnesses' full 
statements will be inserted in the report.
    I now recognize Mr. Chavez to summarize his statement for 5 
minutes.

  STATEMENT OF RICHARD M. CHAVEZ, ACTING DIRECTOR, OPERATIONS 
   COORDINATION AND PLANNING, DEPARTMENT OF HOMELAND SECURITY

    Mr. Chavez. Mr. Chairman and Members of the committee, good 
afternoon and thank you for the opportunity to testify today on 
the Department of Homeland Security's activities related to the 
BP Deepwater Horizon oil spill response.
    As the acting director of Operations Coordination and 
Planning, or OPS, I am responsible for providing situational 
awareness and developing a common operating picture for all 
domestic incidents that affect our Nation.
    Additionally, I am responsible for coordinating the 
development of internal DHS and other Department and agency or 
interagency strategic plans as directed by the Secretary of 
Homeland Security. These plans enable DHS and our partners to 
effectively conduct homeland security operations across all 
mission areas.
    This morning, I will provide a general overview of the 
roles and responsibilities of OPS and our role in the BP 
Deepwater Horizon response.
    OPS was created to assist the Secretary of Homeland 
Security in coordinating operations and planning during routine 
and crisis situations. Within my office, the National 
Operations Center, also known as the NOC, continuously 
monitors, collects, and reports on actual or potential domestic 
incidences, 24 hours a day, 7 days a week, 365 days a year. The 
NOC is the primary National-level hub providing situational 
awareness and developing a common operating picture for 
domestic incident management. In plain terms, situational 
awareness and common operating picture means collecting 
information from any sources, synthesizing that information 
into one story for senior decisionmakers.
    Additionally, the NOC serves as the primary center for 
collecting and distributing response information to other 
Federal operation centers focused on homeland security.
    Similarly, OPS coordinates with DHS components and 
interagency partners to develop strategic level plans. These 
plans clarify roles and responsibilities, determine 
requirements, and establish long-range goals, priorities, and 
objectives. Based on these strategic plans, DHS components and 
our interagency partners can develop their operational level 
plans.
    Furthermore, OPS supports DHS components by providing 
planning augmentation and expertise during events.
    On the day of the BP Deepwater Horizon explosion, the NOC 
began to collect information on the incident and distribute it 
to senior leadership to facilitate situational awareness and 
decision support. In the hours and days following the 
explosion, OPS, DHS components, and our interagency partners 
supported the Secretary in responding to the dynamic incident 
environment.
    OPS disseminated incident information to all the Homeland 
Security partners. Anticipating the worst-case scenario, 
information was passed through an established process for 
interagency blast calls. The blast call connects the NOC with 
all the other Federal operation centers.
    OPS actions during the BP Deepwater Horizon response, with 
support from our partners, included coordinating responses to 
requests for information on a daily basis; creating three daily 
senior leadership briefs; developing decision support products 
for the Secretary and DHS senior leadership; and coordinating 
calls, teleconferences, and other briefings in support of the 
Secretary.
    OPS provided strategic-level support in accordance with 
existing plans and standard operating procedures for the 
National Incident Commander and the Secretary of Homeland 
Security. We remain committed to providing real- and near real-
time situational awareness and developing the National common 
operating picture for any and all domestic events. 
Additionally, OPS is committed to developing three strategic 
plans as appropriate to maximize our readiness to respond.
    Thanks again for the opportunity to testify. It will be a 
pleasure for me to answer your questions.
    [The statement of Mr. Chavez follows:]

                Prepared Statement of Richard M. Chavez
                           September 22, 2010

    Thank you for the opportunity to testify today on the Department of 
Homeland Security's (DHS) activities related to the BP Deepwater 
Horizon oil spill response. As the Acting Director of Operations 
Coordination and Planning (OPS), I am responsible for integrating 
Departmental and strategic level interagency planning and enabling the 
coordination of DHS operations to effectively conduct joint homeland 
security operations across Components and mission areas. This morning, 
I will provide a general overview of the purpose and structure of OPS 
and discuss our functions and our role in the administration-wide oil 
spill response.

                              OPS OVERVIEW

    As articulated in Section 101 of the Homeland Security Act and 
various Presidential Directives, the Secretary of Homeland Security is 
``the focal point regarding natural and man-made crises and emergency 
planning.''
    To support the Secretary in this role, OPS ensures that the 
Department has collaborative operations coordination and planning 
capabilities at the strategic level. OPS provides support to 
Departmental leadership by facilitating internal DHS operational 
decision-making and the Department's involvement in interagency 
operations.

Operations Coordination Across DHS
    The National Operations Center (NOC)--which is the primary 
National-level hub for situational awareness and operations 
coordination across the Federal Government for domestic incident 
management--is central to our ability to maintain situational awareness 
for the Secretary and Department leadership. The NOC collects and 
synthesizes all-source information across all threats and all hazards, 
covering the full spectrum of homeland security missions and partners, 
sharing event-related and operational information with Federal, State, 
local, territorial, Tribal, and nongovernmental partners. Additionally, 
the NOC serves as the primary coordinating center for other Federal 
operations centers focused on homeland security operations. In 
performing these functions, the NOC ensures that critical information 
related to terrorism, disasters, and other threats reaches Government 
decision-makers in a timely manner.
    The NOC operates 24 hours a day, 7 days a week, 365 days a year, to 
support the Secretary and the Department's mission.

Department Planning Across DHS
    OPS coordinates with DHS Components and interagency partners to 
develop strategic-level plans to support the effective execution of the 
Secretary's incident coordination responsibilities, as defined in the 
Homeland Security Act and Presidential Directives. OPS works with 
representatives from DHS Components and other Federal, State, and local 
partners to develop strategic plans and guidance. OPS also supports the 
Secretary by providing operational planning expertise during crises.
    OPS, along with other interagency partners, is currently conducting 
numerous planning efforts. OPS remains focused on developing DHS plans 
for primary Departmental missions and for DHS support to other 
departments. For instance, OPS provided its substantial planning 
expertise in interagency coordination and support planning for H1N1 
planning and the Haitian earthquake response planning.

Continuity Coordination
    As DHS Continuity Coordinator, I am responsible for ensuring the 
effectiveness and survivability of all DHS Primary Mission Essential 
Functions (PMEFs). OPS works with Component leadership to ensure that 
PMEFs will be sustained even during emergencies that could 
significantly hamper personnel, facilities, or operations for homeland 
security missions.
    operations coordination during the bp deepwater horizon response
    Prior to the BP Deepwater Horizon oil spill, the Department was 
preparing for a Spill of National Significance (SONS). From 22-25 March 
2010, OPS, along with many other Federal, State, and private 
organizations, participated in the U.S. Coast Guard-sponsored SONS 
Exercise 2010. OPS leadership and the NOC participated in a simulated 
response to an oil spill affecting the Northeastern United States to 
refine our plans and procedures related to a SONS response. The 
proximity of this exercise did help inform our efforts in support of 
the BP Deepwater Horizon Oil Spill.
    The Deepwater Horizon oil rig exploded on 20 April 2010. In the 
hours and days following the explosion, OPS, the NOC, DHS Components, 
and our partners supported the Secretary, the Department, and the 
interagency community in responding to what began as a search and 
rescue event. Concurrently, we began to establish an integrated 
interagency framework to address the potential environmental impact of 
the event and to coordinate with all State and local governments, 
anticipating and planning for a worst-case scenario.
    On 21 April 2010, OPS initiated the crisis action process, which 
allows us to dedicate staff that can provide detailed information and 
decision support for a specific incident, while minimizing the impact 
to our on-going missions. On 29 April 2010, a SONS was declared and OPS 
activated the full Crisis Action Team (CAT) to support the Secretary 
and the National Incident Commander, who would be later named, in 
directing response efforts. The CAT stood down on 6 August 2010, after 
99 days of continuous operation.
    OPS actions during the BP Deepwater Horizon response, with support 
from our partners, included the following:
  <bullet> Coordinating responses to Requests for Information (RFIs) on 
        a nearly daily basis;
  <bullet> Creating hundreds of Senior Leadership Briefs (SLBs);
  <bullet> Developing decision support products for the Secretary and 
        other DHS leadership; and
  <bullet> Contributing to a robust interagency response effort through 
        regular coordination calls, teleconferences, and other 
        briefings.
    In response to the BP Deepwater Horizon oil spill, OPS provided 
strategic level support, in accordance with a predefined set of plans 
and standard operating procedures, for the National Incident Commander, 
the Secretary of Homeland Security, and the President of the United 
States. The response to this environmental catastrophe was the largest 
oil spill response in U.S. history, and at its peak encompassed more 
than 7,000 vessels, nearly 50,000 personnel, and dozens of Federal, 
State, and local government and private sector agencies and entities. 
Like other incidents, after-action and lessons learned reviews are on-
going.
    OPS remains committed to providing professional expertise in the 
areas of operations coordination and operational planning in order to 
prepare for, prevent, protect, respond to, and recover from natural and 
man-made disasters affecting the people of the United States.
    Thank you again for this opportunity to testify. I would be pleased 
to answer any questions that you may have.

    Chairman Thompson. Thank you for your testimony.
    I now recognize Rear Admiral Neffenger to summarize your 
statement for 5 minutes.

  STATEMENT OF REAR ADMIRAL PETER NEFFENGER, DEPUTY NATIONAL 
    INCIDENT COMMANDER, DEEPWATER HORIZON OIL SPILL RESPONSE

    Admiral Neffenger. Good afternoon, Chairman Thompson and 
distinguished Members of the committee. Thank you for the 
opportunity to testify before you today.
    As noted, I am the Deputy National Incident Commander for 
the Deepwater Horizon oil spill response.
    On the evening of April 20 of this year, the Mobile 
Offshore Drilling Unit Deepwater Horizon, which carried an 
estimated 700,000 gallons of diesel fuel suffered a 
catastrophic fire and explosion while in the final stage of 
completing the Macondo Well 45 miles southeast of Venice, 
Louisiana, on the Outer Continental Shelf. It was owned by 
Transocean, chartered by BP, and under the Marshall Islands 
flag.
    As nearby boats fought the ensuing fire, others took 
courageous action to recognize 115 of 126 crew members. 
Tragically, and despite extensive search and rescue efforts 
that continued for over 3 days, 11 crew members were never 
found and died in the incident.
    On April 22, after the Deepwater Horizon sank, the Coast 
Guard established an incident command post and began to 
mobilize all available response resources to respond to what we 
expected could be a major oil spill. As part of this, the 
incident commanders also activated preexisting area contingency 
plans, which are plans developed in concert with State 
governments, other Federal agencies, as well as Tribal 
entities, where they exist.
    As the Commandant of the Coast Guard at the time, Admiral 
Allen activated the National Response Team to begin the process 
of bringing the whole of Government efforts to bear. The 
National Response Team is an entity consisting of 16 Federal 
Departments and Agencies, and they are charged with 
responsibility for coordinating emergency preparedness and 
response to oil and hazardous pollution events, especially of 
great magnitude.
    On April 29, Homeland Secretary, Janet Napolitano, 
designated the event a Spill of National Significance and 
appointed Admiral Thad Allen, who at the time, as I said, was 
the Commandant of the Coast Guard, as the National Incident 
Commander for the response. He in turn appointed me his deputy 
on that date.
    The Deepwater Horizon oil spill has been unprecedented in 
both scope and duration. It is the largest and most complex our 
Nation has ever confronted. As Admiral Allen has said, it 
presented challenges at the wellhead more analogous to Apollo 
13 than the Exxon Valdez spill. There was no human access to 
the damaged wellhead located 5,000 feet below the ocean 
surface. Consequently, we were fully dependent on remotely-
operated vehicles for access to the site, for actions necessary 
to control and monitor the discharge of oil, and for installing 
and operating equipment ultimately used to stop the flow of 
oil.
    Further complicating was the continuous discharge from 
April 22 until July 15 that did not result in a single spill 
but rather thousands of smaller disconnected spills that 
repeatedly threatened the coastlines of all five Gulf States.
    At its peak, we deployed more than 47,000 responders, over 
3,000 of which were Coast Guard members; 4 million feet of 
boom; more than 7,000 vessels, including 835 specialized 
skimmers; and over 3,000 vessels of opportunity; 120 aircraft, 
and hundreds of public and private organizations and 
volunteers.
    As the Deputy National Incident Commander, my primary goal 
and duty has been to ensure a coordinated, unified, whole-of-
Government effort to address National-level policy issues and 
to ensure a tight linkage among the various Federal, State, and 
local partners to gain effective command and control. Since the 
early days of this response, I was personally briefed on daily 
conference calls with each of the Governors from each of the 
affected States, and during these calls, I received valuable 
and frank feedback alerting us to areas where we needed to 
adjust operations, expand efforts, and incorporate greater 
State and local participation, and that feedback lays the 
groundwork for many follow-on assessments and some of the 
lessons learned that we will be generating.
    Although there are a number of efforts currently underway 
to determine those lessons learned, I do have a few immediate 
observations. Clearly, we need tighter linkage between the 
Bureau of Ocean Energy Management and Regulatory Enforcement 
and the Coast Guard with respect to Outer Continental Shelf 
response plans. As the agency tasked with responsibility for 
responding to on-water spills, I think it is imperative to be 
part of the planning process associated with that.
    We also learned that there are a number of immediate and 
long-term public health issues that would not normally surface 
in an oil spill but that surfaced in this oil spill because of 
its scope and duration. These included seafood testing, social 
and economic impacts, and overall worker safety, both for the 
spill workers as well as the people of the Gulf.
    Throughout the response, we were also evaluating and 
testing alternative technologies through our Interagency 
Alternative Technologies Assessment Program. I will say that it 
proves challenging to do this during a response, but several 
promising technologies surfaced that we will continue to 
evaluate and consider as we move forward.
    As Mr. Taffaro has noted, all oil spills really are local.
    Although we have a very mature oil spill planning and 
exercise program, which has over the decade since the oil 
spill--the Exxon oil spill--has engendered close coordination 
with the State, with area committees that are put together with 
State and Federal partners, we learned in the early weeks of 
the importance of bringing local mayors, local city councils, 
and local parish presidents into the effort and addressed this 
through such efforts as our parish president liaison program.
    As you know, the Unified Area Command has announced a 
consolidation of incident command posts as the emergency phase 
begins to wind down. This transition will better support day-
to-day operation of on-going response while not affecting 
frontline responders who continue to clean shoreline, sample 
Gulf waters, and respond to additional recoverable oil found.
    We still have over 22,000 workers conducting clean-up 
operations along 600 miles of shoreline, and this consolidation 
allows us to sufficiently support those operations.
    As those efforts shift from immediate emergency response to 
long-term environmental and economic restoration, we will 
continue to work diligently through the Unified Area Command to 
ensure we address on-going impacts and to address and learn the 
valuable lessons that we know will come out of this.
    Mr. Chairman, I thank you for this opportunity, and welcome 
any questions you may have.
    [The statement of Admiral Neffenger follows:]

                 Prepared Statement of Peter Neffenger
                           September 22, 2010

    Good morning Mr. Chairman and distinguished Members of the 
committee. I appreciate the opportunity to appear before you to discuss 
preliminary lessons learned from the Federal Government's response to 
the BP Deepwater Horizon Oil Spill.

                            INITIAL RESPONSE

    On the evening of April 20, 2010, the Mobile Offshore Drilling Unit 
(MODU) DEEPWATER HORIZON, which contained an estimated 700,000 gallons 
of diesel fuel, exploded 45 miles southeast of Venice, Louisiana. It 
was owned by Transocean, chartered by BP, and flagged in Marshall 
Islands.
    As nearby boats fought the ensuing fire, others took courageous 
action to rescue 115 of 126 crew members from the water within a few 
hours. Though searches by public and private sector aircraft and boats 
continued through April 23, the remaining 11 crew members were never 
found.
    The U.S. Coast Guard played a led role in the Federal Government's 
all-hands-on-deck response to the BP Deepwater Horizon disaster from 
the moment the explosion occurred on April 20. The Coast Guard lead a 
massive search and rescue operation, initiated spill response for a 
major environmental disaster and coordinated with State and local 
governments officials. Within the first 24 hours, the Coast Guard 
Federal on Scene Coordinator (FOSC) confirmed that Oil Spill Liability 
Trust Fund (OSLTF) funds were available to speed the Federal response 
to the threat of an oil spill.
    On April 22, the MODU sank to the seafloor, roughly a mile beneath 
the surface. The following day, remotely operated vehicles (ROVs) 
located the MODU on the seafloor, and on April 24, as part of an 
extensive assessment, ROVs spotted two leaks in the riser pipe.
    On April 22, following the sinking of the MODU, the Coast Guard 
activated the National Response Team (NRT). The NRT, led by the 
Secretary of Homeland Security, consists of 16 Federal departments and 
agencies responsible for coordinating emergency preparedness and 
response to oil and hazardous substance pollution events--including the 
Coast Guard, DHS, the departments of Defense, Commerce, Interior, and 
the Environmental Protection Agency, among others.
     On April 23, the Coast Guard established a robust Incident Command 
System (ICS) response in accordance with the National Oil and Hazardous 
Substances Pollution Contingency Plan (NCP). ICS provides a common 
command-and-control framework to develop and implement tactical plans 
to effectively manage a multi-agency response to emergencies. The ICS 
organization for this response included Incident Command Posts and 
Unified Commands at the local level and a Unified Area Command at the 
regional level, and consisted of representatives from the Coast Guard 
(the FOSC), other Federal, State, and local agencies, as well as BP as 
the primary responsible party.
    As part of this historic response, the Unified Area Command--with 
support from the National Incident Command and State Department--also 
leveraged assets, skills, and offers of assistance from foreign 
countries and international organizations. The first of these offers 
was from Mexico in May. Others included: Argentina, Belgium, Canada, 
China, Estonia, France, Germany, Greece, Ireland, Japan, Kenya, Mexico, 
Netherlands, Norway, Qatar, Russia, Spain, Sweden, Taiwan, Tunisia, 
United Arab Emirates, United Kingdom, the United Nations' International 
Maritime Organization, the European Union's Monitoring and Information 
Centre, and the European Maritime Safety Agency. All offers of 
assistance were considered.

           SPILL OF NATIONAL SIGNIFICANCE (SONS) DESIGNATION

    On April 29, Secretary of Homeland Security Janet Napolitano 
designated the event a Spill of National Significance (SONS) and 
appointed Admiral Thad Allen as the National Incident Commander (NIC) 
to coordinate the response on May 1. The SONS and NIC designations 
enabled and enhanced operational and policy coordination at the 
National level. The NIC helped to coordinate strategic communications, 
National policy and resource support, and to facilitate collaboration 
with key parts of Federal, State, and local governments.
    The NIC staff consists of subject matter experts from across the 
Federal Government, allowing for immediate interagency collaboration, 
approval, and coordination. While the FOSC maintains authorities for 
response operations as directed in the National Contingency Plan, the 
NIC provides National-level support to the operational response--from 
resources to policy decisions--to secure the source and mitigate the 
impact of the spill.
    On the day that DHS announced the SONS designation, there were 
already more than 70 vessels in the Gulf of Mexico responding to the 
spill and approximately 1,100 personnel deployed and on scene to 
assist.

                            CHAIN OF COMMAND

    Under Homeland Security Presidential Directive--5 and the Homeland 
Security Act of 2002, the Secretary of Homeland Security is ``the focal 
point regarding natural and man-made crises and emergency planning.'' 
These authorities designate her as the ``principal Federal official'' 
for all domestic incidents with overall responsibility for coordinating 
the Federal Government's resources in response to, and recovery from, a 
SONS. During the BP Deepwater Horizon oil spill response these 
responsibilities included oversight and coordination of the NRT and all 
elements of the National Response System.
    The National Contingency Plan (NCP) set forth the underlying 
framework and organizational structure for the Federal response to this 
oil spill. The National Response Framework (NRF), its Annexes, and 
National Incident Management System (NIMS) are complementary and 
provide flexible and adaptable response frameworks for addressing 
issues not expressly addressed in the NCP that may arise during the 
response.
    Under the NCP, the 16 Federal partners comprising the NRT monitor 
and evaluate reports from the FOSC. They also: (1) Recommend actions to 
respond to the discharge or release of hydrocarbons; (2) Request from 
other Federal, State, and local governments, or private agencies, 
resources under their existing authorities to respond to a discharge or 
release, or to monitor response operations; and (3) Coordinate the 
deployment of equipment, personnel, or technical advice to the affected 
region from other regions or districts.
    Under the NCP, the FOSC is the incident commander within the 
Unified Command, which includes representatives from the responsible 
party as well as Federal, State, and local governments. The Unified 
Command coordinates and directs the operational response in 
coordination with State and local partners in the affected areas. This 
system implements the requirements of Federal law and Executive Orders 
relating to the NRF and NIMS.
    A critical lesson learned from EXXON VALDEZ articulated in the NCP 
is that the FOSC is the incident commander. The incident management 
structure is designed to support the FOSC in carrying out response 
priorities.
    During a SONS incident, the Secretary of Homeland Security or the 
Commandant of the Coast Guard may name a National Incident Commander 
(NIC). As mentioned above, the Secretary named Admiral Thad Allen as 
the NIC. Admiral Allen assumed the FOSC's responsibilities for 
communicating with affected parties and the public at the National 
level, and coordinating Federal, State, local, and international 
resources at the National level. The FOSC at the Unified Area Command 
maintains all other authorities for response operations as directed in 
the NCP.
    BP and the other responsible parties have been and will continue to 
be responsible for the costs associated with the BP Deepwater Horizon 
Oil Spill. Under the Oil Pollution Act of 1990, BP and the other 
responsible parties are required to reimburse the Oil Spill Liability 
Trust Fund for expenses incurred. Regular invoices are a proactive step 
to hold BP accountable for obligations related to response and recovery 
activities to date and ensure American taxpayers are not held 
responsible for the costs associated with the BP/Deepwater Horizon Oil 
Spill. To date, six bills have been sent by the Federal Government to 
BP and the other responsible parties. These bills provide an important 
mechanism by which BP reimburses the Oil Spill Liability Trust Fund.

                        UNIFIED RESPONSE EFFORTS

    Throughout the response, a variety of systems, technologies, 
assets, and personnel were employed as part of the largest response to 
an oil spill catastrophe in U.S. history. This included:
  <bullet> Roughly 4 million feet of deployed hard boom.
  <bullet> More than 40,000 Federal, State, local responders including 
        over 6,600 active and reserve Coast Guard members. The 
        Secretary of Defense authorized 17,500 National Guard troops 
        from Gulf Coast States to join the response.
  <bullet> Four incident command posts across Gulf Coast States.
  <bullet> A standing Interagency Solutions Group at NIC Headquarters 
        consisting of more than 18 Federal agencies determining real-
        time solutions to far-reaching strategic issues.
  <bullet> 411 controlled burns have eradicated more than 11 million 
        gallons of oil from the open water.
  <bullet> 835 oil skimmers operating throughout the Gulf.
  <bullet> More than 7,000 response vessels including 60 Coast Guard 
        Cutters and more than 3,000 vessels of opportunity.
  <bullet> More than 120 aircraft, including 22 Coast Guard aircraft.
  <bullet> Offers of assistance received from nearly two dozen 
        countries. All offers were considered and cataloged for future 
        use.
    As of this week:
  <bullet> After months of extensive operations planning and execution 
        under the direction and authority of the U.S. Government 
        science and engineering teams, BP has successfully completed 
        the relief well by intersecting and cementing the well nearly 
        18,000 feet below the surface.
  <bullet> More than 3,000 vessels are still on-site, including 
        skimmers, tugs, barges, and recovery vessels to assist in 
        clean-up efforts and sub-surface monitoring--in addition to 
        dozens of aircraft, remotely operated vehicles, and multiple 
        mobile off-shore drilling units.
  <bullet> The Unified Command, with partners from NOAA, EPA, and other 
        agencies, are engaged in a comprehensive collaborative effort 
        to monitor the fate of the oil and the disbursement sub 
        surface. The subsea monitoring program, conducted under the 
        direction of the Federal On-Scene Coordinator, has produced 
        more than 30,000 samples in near- and offshore waters to date.
  <bullet> Approximately 25,200 personnel remain engaged in the 
        response to protect the shoreline and wildlife and clean up 
        vital coastlines.
  <bullet> Approximately 87 percent of Gulf of Mexico Federal waters 
        are now open to fishing.
  <bullet> More than 34.7 million gallons of oily-water mix have been 
        recovered through skimming.
  <bullet> 15 staging areas remain to protect sensitive shorelines.
  <bullet> Roughly 500 miles of shoreline had light to trace amounts of 
        oil; including 231 miles in Louisiana, 90 miles in Mississippi, 
        62 miles in Alabama, and 114 miles in Florida. An additional 
        112 miles of shoreline had heavier oil, including 101 miles in 
        Louisiana, 9 miles in Mississippi and 2 miles in Florida.

                  LESSONS LEARNED FROM PAST RESPONSES

    Although the Coast Guard has been combating oil and hazardous 
materials spills long before the passage of the Oil Pollution Act of 
1990 (OPA 90), the most recent experience with a spill approaching the 
magnitude of DEEPWATER HORIZON involved the EXXON VALDEZ. The EXXON 
VALDEZ spill triggered significant legislation regarding National 
pollution preparedness and response.

Prevention, Research & Development
    Annual oil spill totals from tanker spills have dropped 
dramatically since the passage of OPA 90. New prevention technologies 
have been developed and implemented, such as double-hulled tankers. The 
EXXON VALDEZ incident prompted the establishment of major research 
areas--including controlled burning, dispersants, vessel of opportunity 
skimming systems, and spill fate and behavior modeling--for the 1997 
Interagency Oil Pollution Research and Technology Plan. Research 
conducted in these areas over the past decade has advanced oil spill 
clean-up techniques and strategies--advances that have informed and 
continue to inform the Deepwater Horizon response. Consequently, the 
1997 Interagency Oil Pollution Research and Technology Plan has proven 
to be an important strategic guidance document for oil pollution 
research.
    Section 7001 of the Oil Pollution Act of 1990 (OPA 90) established 
the Interagency Coordinating Committee on Oil Pollution Research 
(ICCOPR). The purpose of the Interagency Committee is twofold: (1) To 
prepare a comprehensive, coordinated Federal oil pollution research and 
development (R&D) plan; and (2) to promote cooperation with industry, 
universities, research institutions, State governments, and other 
nations through information sharing, coordinated planning, and joint 
funding of projects. The Interagency Committee reports its activities 
to Congress biennially.
    The first Oil Pollution Research and Technology Plan was completed 
on April 24, 1992 and submitted to Congress and the Marine Board of the 
National Research Council for their review and comment. The second 
edition of the Oil Pollution Research and Technology Plan was submitted 
to Congress on April 1, 1997. The current plan documents the role that 
oil pollution research plays in reducing the environmental and economic 
threats posed by oil production and transport. It emphasizes 
prevention, focuses on the high-risk components of the oil production 
and transportation systems, and advocates continuation of a Federal oil 
spill research and development program. The Interagency Committee has 
been working on the third revision of the Oil Pollution Research and 
Technology Plan. The third revision will include concerns related to 
Arctic oil pollution prevention and response as well as lessons learned 
from the Deepwater Horizon Mobile Offshore Drilling Unit accident in 
the Gulf of Mexico.
    Prior to the BP Deepwater Horizon oil spill, the Interagency 
Coordinating Committee on Oil Pollution Research (ICCOPR) had begun the 
process of revising the 1997 Interagency Oil Pollution Research and 
Technology Plan. The ICCOPR will need to closely examine the lessons 
learned from the current spill to better update the research strategies 
needed for the next decade. Just as the EXXON VALDEZ pointed to needed 
research, the BP oil spill will identify new focus areas and response 
challenges that will guide research and response communities in the 
future.
     The ICCOPR recognizes that progress in oil pollution research 
occurs best through continued collaboration among academia, industry, 
and government. Although funding was initially authorized and 
appropriated in the early 1990's for the ICCOPR to award research 
grants to universities, this is currently not the case. The ICCOPR will 
continue to develop strategies to promote common awareness and 
collaboration among universities, industry, and the Government 
concerning on-going research.

Exercises
    The response protocols used during response to the BP Deepwater 
Horizon oil spill were also informed by the exercise regimen the Coast 
Guard maintains.
    Since 2001, the Coast Guard and the Minerals Management Service 
(MMS), the predecessor to Bureau of Ocean Energy Management Regulations 
and Enforcement (BOEM), have held nine offshore-related exercises and 
responded to one actual event. All featured Coast Guard and MMS 
participation, as well as State and local officials where applicable, 
and involved offshore oil platforms, pipelines, or MODUs.
    In the 20 years since the EXXON VALDEZ spill, the Coast Guard has 
also conducted SONS exercises every 3 years. In 2002, the SONS Exercise 
was held in New Orleans to address the implications of a loss of well 
control event in the Gulf of Mexico. In that exercise, the SONS team 
created a vertically integrated organization to link local response 
requirements to an RRT. The requirements of the RRT were then passed to 
the NRT in Washington, DC in order to test the integration of the spill 
management and decision processes across the Federal Government.
    These functions were tested again during a SONS exercise this past 
March in the Northeast. Nearly 600 people from 37 agencies participated 
in this exercise, the scenario for which was a catastrophic oil spill 
from a collision between an oil tanker and a car carrier off the coast 
of Portland, ME. The exercise involved response preparedness activities 
in Portland, ME, Boston, MA, Portsmouth, NH, Portsmouth, VA, and 
Washington, DC. The response to the scenario involved the 
implementation of oil spill response plans, and response organizational 
elements including two Unified Commands, a Unified Area Command, and 
the NIC in accordance with the National Contingency Plan and NRF. The 
exercise focused on three National-level strategic objectives:
    1. Implement response organizations in applicable oil spill 
        response plans;
    2. Test the organization's ability to address multi-regional 
        coordination issues using planned response organizations;
    3. Communicate with the public and stakeholders outside the 
        response organization using applicable organizational 
        components.
    The SONS 2010 exercise demonstrated a maturing of oil spill 
response capabilities, and the importance of National-level 
interactions to ensure optimal information flow and situational 
awareness. But we also learned that in future exercises we should 
expand participation to account for the wide variety of issues that 
emerged as a result of the BP Deepwater Horizon oil spill. For example, 
to date our exercise plans had not anticipated the seafood safety and 
human health impact concerns that have been so clear in this disaster.
    The BP Deepwater Horizon oil spill was the first real-world spill 
designated as a SONS, and the first to activate a National Incident 
Commander. Within the NIC organization, several elements--including the 
Interagency Solutions Group--were established to ensure the integrity 
of communications among the field, the interagency, and the FOSC. These 
organizational structures were a significant improvement over the 
response used during the EXXON VALDEZ.

Access and Use of the Fund
    Although the EXXON VALDEZ spill and subsequent OPA 90 legislation 
shaped many of the preparedness and response requirements and 
legislation followed to this day, lessons learned from other 
significant events since 1989 have also shaped our response strategies. 
Coast Guard and EPA FOSCs have accessed the Oil Spill Liability Trust 
Fund to respond to over 11,000 oil spills or significant threats of an 
oil spill in the 19 years since the establishment of the Fund. The 
liability and compensation regime contained in Title I to the Oil 
Pollution Act of 1990 is well-rehearsed and integrated into the FOSC's 
daily operations. Title I of OPA established new and higher liability 
limits for oil spills, with commensurate changes to financial 
responsibility requirements. It substantially broadened the scope of 
damages, including natural resource damages (NRDs), for which polluters 
are liable. It also authorized the Oil Spill Liability Trust Fund 
(OSLTF) up to $1 billion to pay for expeditious oil removal and 
uncompensated damages. (The Energy Policy Act of 2005 later raised the 
limit of the Fund to $2.7 billion; and the Delaware River Protection 
Act of 2006, title VI of the Coast Guard and Maritime Transportation 
Act of 2006, increased the limits of liability.) Use of the Fund, 
oversight of responsible parties' obligation to advertise for and 
receive claims from those damaged by oil pollution, and cost recovery 
from the responsible party of all Federal funds expended are all part 
of the pollution response cycle.
    preliminary lessons learned from the deepwater horizon oil spill
    Throughout this unprecedented and evolving event, we have marshaled 
the largest response to an oil spill in our Nation's history and we 
have continued to adapt and evolve this response at every turn as the 
disaster itself has unfolded. We have created redundancy wherever 
appropriate--from directing BP to employ additional methods to contain 
its leaking oil, to finding new ways to keep the oil off our vital 
shores, to using multiple scientific methodologies to gauge the size of 
this catastrophe. Now that the relief well has been cemented, we will 
continue to tailor our ever-expanding response to each new challenge 
that arises until the Gulf is restored.
    As with any incident, we must review the lessons learned from the 
BP Deepwater Horizon oil spill response to inform equipment standards, 
technology, and preparedness to respond in the future.
    These lessons learned will be captured in several on-going 
assessments and reviews, including the President's National Commission 
on the BP Deepwater Horizon Oil Spill and Offshore Drilling and a Coast 
Guard-chartered workgroup to evaluate interagency planning, 
preparedness, and response efforts related to Deepwater Horizon, in 
addition to the Deepwater Horizon Joint Investigation by the Coast 
Guard and BOEM.
    Notwithstanding the fact that on-going recovery efforts and 
assessment of the spill response make it difficult to reach definitive 
conclusions at this stage, we are beginning to identify areas for 
improvement.
    It became clear early in the spill response that there was a need 
for a better process to manage and channel an abundance of ideas, 
creativity, and suggestions of citizens and industry for spill response 
and clean-up technologies. To meet this challenge, the Coast Guard, in 
collaboration with interagency partners, established the Interagency 
Alternative Technology Assessment Program (IATAP) to collect and review 
oil spill response solutions from scientists and vendors on topics such 
as oil sensing improvements to response and detection, oil wellhead 
control and submerged oil response, traditional oil spill response 
technologies, alternative oil spill response technologies, and oil 
spill damage assessment and restoration. The IATAP provides a useful 
model to garner and incorporate innovative solutions in future 
responses. These assets and technologies were evaluated to test their 
effectiveness and ensure that any resources that were deployed could be 
done so quickly and effectively. A number of concepts were sent to the 
Gulf region for consideration in the response effort.
    Whereas funds are made available from the OSLTF into an Emergency 
Fund to carry out removal actions for oil spills under Section 311(c) 
of the Federal Water Pollution Control Act (FWPCA), the magnitude of 
the DEEPWATER HORIZON spill required legislative relief to permit 
additional advances from the Emergency Fund to support removal 
activities for the response. This legislative relief pertains only to 
the DEEPWATER HORIZON response and could be required for future 
response efforts.
    Other initiatives and efforts that proved beneficial during the 
response included establishment of the Interagency Solutions Team 
within the NIC staff, a unit that consisted of more than 18 Federal 
agencies and organizations working together on solutions embodying a 
whole-of-Government response. Typically, this arrangement produced 
near-final solutions within hours for what might have otherwise taken 
days or weeks. The BP Deepwater Horizon spill response reinforced the 
importance of involving local-level government officials early in a 
response to the maximum extent possible.
    State and local emergency management and environmental management 
personnel are members of Coast Guard Area Committees, and States are 
members of RRTs under the NCP. Continuous engagement with States and 
local communities in preparedness planning and exercises is paramount, 
because it accounts for differences in approach among States and 
properly supports integration of State and local entities in incident 
response. We continue to actively encourage participation and 
prioritize inclusion by local leaders as part of this historic response 
so that we can respond as quickly and effectively as possible to 
problems that arise on the ground. Going forward, we must continue to 
engage local government officials in response planning and exercise.
    Other mechanisms by which the State and local emergency management 
systems coordinated with the incident response organization include 
local emergency operation centers (EOCs), which coordinate with the 
Unified Incident Command overseeing local operations through the State 
On-Scene Coordinator (a standing member of the Unified Incident 
Command) and the incident liaison officer. Moreover, for the BP 
Deepwater Horizon oil spill, State EOCs coordinated with the Unified 
Area Command in New Orleans, LA through the State On-Scene Coordinator 
and the Unified Area Command liaison officer. Each State also 
coordinated with the NIC through the inter/intra-governmental affairs 
liaison and during daily Governors' conference calls with the National 
Incident Commander.
    In addition to mechanisms described above, the Coast Guard embedded 
liaison officers with Parish Presidents in Louisiana, assigned Deputy 
Incident Commanders at Incident Command Posts, and held daily calls 
with local officials. These efforts were vital to coordinating efforts 
from the local level to the Governors and Congressional delegations.

                               CONCLUSION

    In closing, through the National Incident Command, the Coast Guard 
has worked to ensure that all capabilities and resources--including 
Government, private, and commercial--are being leveraged to protect the 
environment and facilitate a rapid, robust clean-up effort.
    Moving forward, the Coast Guard will:
  <bullet> Assist in transitioning NIC spill response efforts to 
        recovery by those agencies and entities involved in the Post-
        Spill Restoration and Natural Resources Damage Assessments;
  <bullet> Work with the interagency to review the NCP and NRF to 
        identify National-level issues to enhance our ability to 
        provide a coordinated, whole-of-Government response to major 
        incidents; and
  <bullet> Capture lessons learned; identify potential areas for 
        improvement; and implement recommendations to more effectively 
        respond to future spills.
    Thank you for the opportunity to testify today. I look forward to 
your questions.

    Chairman Thompson. Thank you for your testimony, Admiral.
    I now recognize someone who is no stranger to this 
committee, Inspector General Skinner, to summarize his 
statement for 5 minutes.

STATEMENT OF RICHARD L. SKINNER, INSPECTOR GENERAL, DEPARTMENT 
                      OF HOMELAND SECURITY

    Mr. Skinner. Thank you, Chairman Thompson and Members of 
the committee. Thank you for inviting me to discuss our report 
on the Department of Homeland Security's progress in Federal 
incident management planning. I would also like to discuss what 
my office is doing with regard to oversight of the Department's 
response to the spill.
    The National Response Framework, which is the Federal 
Government's guide for responding to all types of disasters, 
describes planning as the cornerstone of disaster preparedness 
and response. Planning provides three principled benefits: It 
allows jurisdictions to determine in advance the protocols that 
will be followed, and it guides other preparedness activities, 
and it contributes to unity of effort of providing a common 
blueprint for disaster response activities.
    Incident management planning is vital because it identifies 
detailed resources and responsibilities for each agency 
responding to an emergency. Integrating plans among all public 
and private sectors is imperative for a coordinated response. 
This was evident in Hurricane Katrina, and it was underscored 
in the subsequent White House report which recommended that DHS 
lead the effort to develop an integrated Federal planning 
system to meet the requirements of the National Response 
Framework.
    In response to the Homeland Security Presidential 
Directive--8, DHS published the National preparedness 
guideline. The National Preparedness Guidelines defines what it 
means for the Nation to be prepared for all disasters, all 
hazards. One of the four critical elements of the guidelines 
involves National planning scenarios, which depict a diverse 
set of high-consequence terrorist threats and natural 
disasters.
    HSPD-8 also directed DHS to lead the effort to develop, in 
cooperation with other Federal agencies, an integrative 
planning system followed by a series of planning documents for 
each National planning scenario. The Homeland Security Council, 
in partnership with DHS, other Federal agencies, and State and 
local governments, developed 15 National planning scenarios.
    Collectively, the scenarios are designed to focus 
contingency planning on all levels of government and with the 
private sector. The scenarios form the basis for coordinated 
Federal planning, training, exercise, and grant investments. A 
complete set of plans for each scenario includes a strategic 
guidance statement, a strategic plan, a concept of operation 
plan, and individual agency operation plans.
    DHS was working to develop the plans, but in July 2009, the 
White House National Security Staff began a review of HSPD-8 
and put on hold those efforts. To date, a full set of plans has 
not been completed for any single scenario.
    That is not to say, however, that planning is not on-going 
at Federal agencies outside the National planning scenario 
framework. Federal agencies have long been involved in 
contingency planning for their own mission-essential functions.
    The bigger challenge is when an incident involves multiple 
agencies whose efforts must be integrated. The Deepwater 
Horizon incident provides an excellent example of this 
challenge. No less than a dozen Federal agencies, in addition 
to several States, local parishes, and counties and townships 
throughout the Gulf Coast and private entities as well were 
involved in the Gulf Coast oil spill response. It is vital that 
those agencies coordinate their planning efforts and provide a 
unified response if we are going to be successful.
    Bringing all this together under one Federal umbrella, 
however, continues to be a daunting task. DHS has faced 
challenges leading the effort to develop incident management 
plans. There is a diverse group of interagency and 
intergovernmental planners, subject matter experts, and 
contractors involved in the process, and reaching a consensus 
is not always easy.
    Furthermore, there are a limited number of emergency 
management planners in government, at all levels, and this has 
presented a challenge with developing incident management 
planning and guidelines.
    It would be premature for me to comment at this time on the 
Deepwater Horizon response efforts. Our work is on-going, and 
we are not ready yet to draw conclusions on our efforts. We 
have three audits underway, and we plan to start a fourth in 
the next few months.
    Our first audit will determine whether Coast Guard has 
controls in place to recover from BP all Federal taxpayer costs 
associated with the oil spill.
    The second audit is reviewing Coast Guard and Marines 
Safety Performance Plans.
    The third audit is looking at whether it has the resources 
to conduct safety inspections in marine offshore drilling 
units, such as the Deepwater Horizon drilling rig.
    The fourth audit planned for later this year will look at 
the effectiveness of the Coast Guard's Unified Area Command, 
which was formed in response to the oil spill. The Unified 
Command structure provides shared management of the incident 
among Federal, State, local, and private sectors. Our work will 
address the effectiveness of the Coast Guard's internal and 
external communications to stakeholders, its management and 
coordination of resources, and the quality of the National 
Contingency Plan as it was implemented during this disaster.
    The National Contingency Plan, as you know, is the 
Government's blueprint for responding to oil disasters--or oil 
spills, that is. It was under this framework that DHS led the 
Federal response to the Gulf oil spill. I look forward to 
sharing the results of our work with this committee.
    Mr. Chairman, this concludes my prepared remarks. I welcome 
any questions that you or the Members may have. Thank you.
    [The statement of Mr. Skinner follows:]

                Prepared Statement of Richard L. Skinner
                           September 22, 2010

    Chairman Thompson, Ranking Member King, and Members of the 
committee: Thank you for inviting me here today to discuss the 
Department of Homeland Security's (DHS) progress in Federal incident 
management planning and the Deepwater Horizon oil incident.
    The first part of my testimony today will address incident 
management planning at the Federal level, particularly the role of DHS. 
The information provided is primarily contained in our February 2010 
report, ``DHS' Progress in Federal Incident Management Planning'' (OIG-
10-58). I will then address what my office is doing with regard to 
oversight of the response to the Deepwater Horizon oil incident.

                  FEDERAL INCIDENT MANAGEMENT PLANNING

    The National Response Framework (NRF), the guide to how the Nation 
conducts all-hazards response, describes planning as the cornerstone of 
National preparedness and a critical element to respond to a disaster 
or emergency. Planning provides three principal benefits: (1) It allows 
jurisdictions to influence the course of events in an emergency by 
determining in advance the actions, policies, and processes that will 
be followed, (2) it guides other preparedness activities, and (3) it 
contributes to unity of effort by providing a common blueprint for 
activity in the event of an emergency. Planning is a foundational 
element of both preparedness and response and thus is an essential 
homeland security activity.
    Incident management planning is vital because it identifies 
detailed resources, personnel, and assets, and specific roles, 
responsibilities, and actions for each Department and agency responding 
to an incident or emergency. Integrating and synchronizing Federal 
policies, strategies, and plans among all Federal, State, local, 
private sector, and community efforts is imperative for a coordinated 
response. This was realized during the examination of the failed 
Federal response to Hurricane Katrina and was underscored in the 
subsequent White House report. The report concluded, ``Insufficient 
planning, training, and interagency coordination are not problems that 
began and ended with Hurricane Katrina. The storm demonstrated the need 
for greater integration and synchronization of preparedness efforts, 
not only throughout the Federal government, but also with the State and 
local governments and the private and non-profit sectors as well.'' The 
White House report recommended that the Department of Homeland Security 
lead an interagency effort to develop and resource a deliberative, 
integrated Federal planning and execution system to meet the 
requirements of the revised National Response Plan (now referred to as 
the National Response Framework). It also put in motion a number of 
Government actions meant to improve response planning, including the 
advancement of credible planning scenarios depicting a range of 
potential terrorist attacks, natural disasters, and related impacts 
facing our Nation.
    The President had kicked off a new framework for planning with the 
issuance of Homeland Security Presidential Directive--8 (HSPD-8) in 
December 2003. HSPD-8 directed the DHS Secretary to develop a National 
domestic all-hazards preparedness goal. In furtherance of HSPD-8, DHS 
released the National Preparedness Guidelines in September 2007. The 
National Preparedness Guidelines define what it means for the Nation to 
be prepared for all hazards. One of the four critical elements of the 
National Preparedness Guidelines involves National Planning Scenarios, 
which depict a diverse set of high-consequence threat scenarios of both 
potential terrorist attacks and natural disasters. According to the 
Post-Katrina Emergency Management Reform Act of 2006 (PKEMRA), the 
Scenarios are ``to reflect the relative risk requirements presented by 
all hazards . . . in order to provide the foundation for the flexible 
and adaptive development of target capabilities . . . to meet the 
national preparedness goal.''
    The President approved Annex 1 to Homeland Security Presidential 
Directive--8 in December 2007, formally establishing a standard and 
comprehensive approach to National planning. It directed the DHS 
Secretary to lead the effort to develop, in coordination with the heads 
of Federal agencies with a role in homeland security, an Integrated 
Planning System followed by a series of related planning documents for 
each National planning scenario.
    The Homeland Security Council, in partnership with DHS, other 
Federal departments and agencies, and State, local, Tribal, and 
territorial governments, developed 15 National Planning Scenarios. 
Collectively, the scenarios are designed to focus contingency planning 
for homeland security preparedness work at all levels of government and 
with the private sector. The scenarios form the basis for coordinated 
Federal planning, training, exercises, and grant investments needed to 
prepare for all types of emergencies. The Homeland Security Council 
compressed the 15 National Planning Scenarios into 8 key scenario sets 
in October 2007 to integrate planning for like events and to conduct 
cross-cutting capability development.
    A complete set of plans for each planning scenario includes: (1) A 
strategic guidance statement, (2) a strategic plan, (3) a concept of 
operations plan, and (4) individual operations plans from every 
department and agency with responsibilities enumerated in the concept 
of operations plan. DHS' Office of Operations Coordination and Planning 
led the effort to develop strategic guidance statements and strategic 
plans, while FEMA's Operational Planning Branch led the development of 
concept of operation plans. At the time of our fieldwork, the 
development of Federal incident management plans was progressing, but a 
full set of plans had not yet been completed for any single scenario. 
Thus far, five of the eight key scenario sets have approved strategic 
guidance statements, while four have approved strategic plans. One 
concept of operations plan has been approved by the DHS Secretary.
    DHS and FEMA have faced challenges leading the effort to develop 
incident management plans. There is a diverse group of interagency 
planners, subject matter experts, and contractors that assist DHS and 
FEMA with planning. However, according to DHS officials, there are a 
limited number of planners available in Federal agencies, and this has 
presented a challenge with developing incident management plans. 
Additionally, because of aggressive deadlines to complete some of the 
incident management plans, planners were required to work on multiple 
plans at the same time, and they often had to choose between incident 
management planning meetings that were scheduled concurrently. 
According to DHS officials, efforts are on-going to address the 
shortage of Federal planners to assist with developing incident 
management plans.
    As I said before, DHS and FEMA were making progress on the National 
Planning Scenarios; however, in July 2009, the White House National 
Security Staff (NSS) began a review of HSPD-8 and temporarily put on 
hold efforts to complete the remaining plans.
    This is not to say that planning is not on-going at Federal 
agencies outside of this framework. Federal departments and agencies 
have long been involved in contingency planning for their own personnel 
and mission-essential functions. The bigger challenge is when an 
incident involves multiple agencies, whose efforts must be integrated 
for a successful response. The Deepwater Horizon incident provided our 
most recent example of this challenge.
    No less than a dozen Federal departments and agencies were involved 
in the Deepwater Horizon response effort. Primary players included the 
Department of Homeland Security and Coast Guard; the Department of the 
Interior; and the Environmental Protection Agency. The response also 
included the Department of Defense; the Department of Labor; the 
National Oceanic and Atmospheric Administration; the Small Business 
Administration; the Fish and Wildlife Service; the National Park 
Service; and the National Institute for Occupational Safety and Health.
    The Clean Water Act, as amended by the Oil Pollution Act of 1990, 
is the primary Federal statute governing the Federal response to oil 
spills. The act authorized the President to develop the National Oil 
and Hazardous Substances Pollution Contingency Plan, more commonly 
called the National Contingency Plan (NCP). The National Contingency 
Plan is the Federal Government's blueprint for responding to oil spills 
and hazardous substance releases and establishes the National Response 
Team and its roles and responsibilities. It was under this framework 
that DHS and the Coast Guard led the Federal response to the Deepwater 
Horizon oil spill. Although the NCP is the operative framework for oil 
spill response, other frameworks and authorities may play a role in the 
Deepwater Horizon spill response. For example, there are also 
provisions for responding to oil spills in the Emergency Support 
Function--10 (ESF-10) annex to the National Response Framework. I'll 
briefly use this to illustrate the complexity and challenges of 
interagency planning.
    The Emergency Support Functions provide the structure for 
coordinating Federal interagency support for a Federal response to an 
incident. They are mechanisms for grouping functions most frequently 
used to provide Federal support to States and Federal-to-Federal 
support, both for declared disasters and emergencies under the Stafford 
Act and for non-Stafford Act incidents. ESF-10 is the Oil and Hazardous 
Materials Response Annex to the NRF. The ESF-10 Coordinating Agency is 
the Environmental Protection Agency (EPA). Primary agencies are EPA and 
the Department of Homeland Security/U.S. Coast Guard. There are 13 
support agencies, the Departments of Agriculture, Commerce, Defense, 
Energy, Health and Human Services, Homeland Security, Interior, 
Justice, Labor, State, and Transportation, and the General Services 
Administration, and Nuclear Regulatory Commission, as well as numerous 
sub-agencies. It is vital that these agencies coordinate their planning 
efforts and provide a unified response, but authorities, funding and 
personnel reside in the individual agencies. Bringing all of this 
together under one Federal umbrella continues to be a challenge.
    It would be premature for me to comment on the actual response 
effort. My office began planning oversight work immediately, but we did 
not want to deploy staff that might in any way disrupt the response 
effort. Having said that, we have initiated three audits, and we plan 
to initiate a fourth during fiscal year 2011.
    One on-going audit is an evaluation of Coast Guard's Internal 
Controls for Identifying Costs Associated with the Deepwater Horizon 
Oil Incident. The Coast Guard's response to this incident imposed 
extraordinary costs on the service. In oil spill events, the Coast 
Guard must recover costs from the ``responsible party'' (in this case, 
British Petroleum, or BP). Our audit will determine whether the Coast 
Guard has adequate policies, procedures, and internal controls in place 
to capture all direct and indirect Federal costs associated with the 
Deepwater Horizon Oil Incident.
    The two other on-going audits are reviewing various aspects of 
Coast Guard's Marine Safety Program. One audit is reviewing Coast 
Guard's Marine Safety Performance Plan. This plan includes six 
initiatives focused on increasing the competency of its marine safety 
workforce, delivering improved service to the marine industry, 
improving management practices, and increasing the safety of 
recreational boats, towing vessels, and fishing vessels. Our audit will 
determine whether improvements to the Plan are needed for it to be an 
effective tool for managing the Marine Safety Program. The other audit 
is looking at whether Coast Guard has the capabilities and resources to 
conduct safety inspections on domestic and foreign-flagged offshore 
vessels, including Marine Offshore Drilling Units such as the Deepwater 
Horizon. The Coast Guard oversees 20,000 U.S. and foreign-flagged 
vessels by conducting 80,000 inspections annually and 14,000 
investigations. The outcomes of these inspections often serve as a 
basis for improving safety through regulatory and policy changes.
    The audit planned for fiscal year 2011 will look into the 
effectiveness of the Unified Command response in relation to the 
Deepwater Horizon Incident. Under the provisions of Homeland Security 
Presidential Directive--5 (HSPD-5), Management of Domestic Incidents, 
all levels of Government must be capable of working together to 
efficiently and effectively manage a domestic incident. According to 
HSPD-5, the Government treats crisis management and consequence 
management as a single, integrated function. The Unified Command 
structure provides shared management of the incident among Federal, 
State, and private sectors--the Federal On-Scene Commander, the State 
On-Scene Commander, and the Responsible Party, respectively. The work 
we will conduct is designed to determine the efficacy of the Unified 
Command in its internal and external communications to stakeholders, 
management, and coordination of resources, in response to the Deepwater 
Horizon oil spill. We will also look at the quality of the National 
Contingency Plan as it was implemented during this disaster. I look 
forward to sharing the results of this work with the committee.
    Mr. Chairman, this concludes my prepared remarks. I welcome any 
questions that you or the Members may have. Thank you.

    Chairman Thompson. Thank you for your testimony.
    I now recognize Mr. Jenkins for his statement for 5 
minutes.

   STATEMENT OF WILLIAM O. JENKINS, JR., DIRECTOR, HOMELAND 
 SECURITY AND JUSTICE ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Jenkins. Mr. Chairman and Members of the committee, I 
am not going to repeat other things that Mr. Skinner said. 
Instead, I would like to supplement his comments and talk today 
about criteria for developing and testing disaster response 
plans.
    As you know, disasters come in all sizes and can be the 
result of many causes, including deliberate actions. A disaster 
may occur suddenly, such as an earthquake or a bomb blast or 
Deepwater Horizon; or it may occur with some forewarning and 
continue for days or weeks, such as the flooding we saw in 
various parts of the country this year or a flu pandemic. An 
effective response to major disasters requires the resources 
and coordinated action of many players, Government and non-
Government. To do that requires planning and forethought.
    The development of detailed disaster response operations 
plans and the validation of those plans through testing and 
exercising is a key component of effective disaster response 
planning.
    The January 2008 National Response Framework describes 
planning as the cornerstone of National preparedness. Response 
plans define the roles and responsibilities of all those who 
have a role in the response; and the resources and capabilities 
each will contribute to the response; and the plans also 
provide a blueprint for how the response will be directed, 
managed, and coordinated.
    In June 2010, FEMA adopted three private-sector standards 
for use by U.S. companies in emergency planning and response. 
Those standards provide that organizations should test and 
evaluate the appropriateness and efficacy of their emergency 
response plan.
    The National Response Framework identifies seven criteria 
for effective response planning: Acceptability; adequacy; 
completeness; consistency and standardization of products; 
feasibility; flexibility; interoperability and collaboration. 
Although all are important, I would like to focus on a few of 
these and the criteria of whether or not they are met.
    Adequacy. To be adequate, a plan should be based on valid 
and relevant planning assumptions and the concept of operation 
should identify critical tasks specific to the plan's 
objectives.
    The completeness of plan is complete if it incorporates 
major actions, objectives, and tasks to be accomplished. The 
plan should address the personnel and resources required, sound 
concepts for how those resources will be deployed, used, 
sustained, and mobilized. Including all those who would have 
responsibilities under the plan and developing the plan helps 
ensure the plan is complete.
    Feasibility. Can critical tasks identified in the plan be 
accomplished within available resources, including those from 
mutual aid or other resources? Procedures for drawing on 
available resources, such as EMAC, and integrating and 
employing all resources effectively need to be in place before 
the disaster.
    Interoperability and collaboration is particularly 
important in planning because of the number of people that 
would be involved in responding to a major disaster. The plan's 
other stakeholders and participants should be complementary in 
their objectives in collaboration and focused on integrating 
the efforts of all stakeholders.
    It is critically important that the assumptions embedded in 
emergency plans are validated. These include assumptions about 
the type and probability of events, such as a blow-out, and any 
assumptions about the capability to effectively to respond to 
the consequences of that event.
    As we and the DHS Inspector General have noted, robust 
operational planning and validation of those operational plans 
are key components of disaster preparedness. As Hurricane 
Katrina and Deepwater Horizon have so vividly demonstrated, 
shortcomings in such planning can complicate the ability to 
marshal needed resources and effectively coordinate their use.
    DHS also faces the challenge, continuing challenge, in 
measuring, developing measures for assessing preparedness and 
capabilities, and has created a task force on preparedness to 
this response. The report is due at the end of this month to 
make recommendations with regard to how we can improve 
preparedness and particularly measure our success in being 
prepared.
    That concludes my statement, Mr. Chairman. I would be 
pleased to respond to any questions you or other Members of the 
committee may have.
    [The statement of Mr. Jenkins follows:]

             Prepared Statement of William O. Jenkins, Jr.
                           September 22, 2010

                              GAO-10-969T

    Mr. Chairman and Members of the committee: I am pleased to be here 
this morning to discuss the importance of preparing, validating, and 
testing emergency operations plans for disaster response. Among the 
lessons learned from the aftermath of Hurricane Katrina was that 
effective disaster response requires planning followed by the execution 
of training and exercises to validate those plans. The development of 
detailed emergency operations plans and the validation of those plans 
through testing and exercising is a key component of effective disaster 
response planning. These plans are part of a broader cycle of emergency 
preparedness that includes policy development, planning, and resource 
allocation, exercising and testing operational plans, and assessment 
and reporting.\1\
---------------------------------------------------------------------------
    \1\ The elements of the emergency management framework are 
discussed in detail in our April 2009 report on the Federal Emergency 
Management Agency's efforts to lead the development of a National 
preparedness system. See GAO, National Preparedness: FEMA Has Made 
Progress, but Needs to Complete and Integrate Planning, Exercise, and 
Assessment Efforts, GAO-09-369 (Washington, DC: Apr. 30, 2009).
---------------------------------------------------------------------------
    To help guide Federal emergency response planning, the Federal 
Emergency Management Agency (FEMA) developed the National Response 
Framework, in conjunction with a variety of stakeholders, as a 
blueprint for how the Nation conducts response to hazards of any type, 
regardless of cause. The National Response Framework, which was issued 
in January 2008, describes planning as the cornerstone of National 
preparedness and a critical element for response to a disaster or 
emergency. Response plans define the roles and responsibilities of all 
those who will have a role in the response and the capabilities they 
will contribute to the effort and provide a blueprint for how the 
response will be directed, managed, and coordinated. In addition, in 
June 2010, as part of its Voluntary Private Sector Preparedness 
Accreditation and Certification Program, FEMA adopted three private 
sector standards for use by U.S. companies in emergency planning and 
response. These standards provide that organizations should test and 
evaluate the appropriateness and efficacy of their emergency response 
plans.\2\
---------------------------------------------------------------------------
    \2\ American National Standards Institute, Organizational 
Resilience: Security, Preparedness, and Continuity Management Systems-
Requirements with Guidance for Use ASIS SPC.12009 (Mar. 12, 2009).
---------------------------------------------------------------------------
    My comments are based on our previously issued work on emergency 
planning and response over the last several years, including our April 
2009 report on FEMA's efforts to lead the development of a National 
preparedness system.\3\ Specifically, my testimony today focuses on: 
(1) The criteria for effective disaster response planning established 
in FEMA's National Response Framework, (2) additional guidance for 
disaster response planning, (3) the status of National disaster 
response planning efforts, and (4) the special circumstances related to 
operational response planning for oil spills.
---------------------------------------------------------------------------
    \3\ See for example, GAO-09-369, GAO, Actions Taken to Implement 
the Post-Katrina Emergency Management Reform Act of 2006, GAO-09-95R 
(Washington, DC: Nov. 21, 2008), National Response Framework: FEMA 
Needs Policies and Procedures to Better Integrate Non-Federal 
Stakeholders in the Revision Process, GAO-08-768 (Washington, DC: June 
11, 2008), and Catastrophic Disasters: Enhanced Leadership, 
Capabilities, and Accountability Controls Will Improve the 
Effectiveness of the Nation's Preparedness, Response, and Recovery 
System, GAO-06-618 (Washington, DC: Sept. 6, 2006).
---------------------------------------------------------------------------
    To address these objectives, we reviewed the policies and plans 
that form the basis of the preparedness system. These policies and 
plans include, among others, the National Response Framework and 
National Preparedness Guidelines, as well as the National integrated 
planning system and preliminary versions of related guidance to develop 
and integrate plans across Federal, State, Tribal, and local 
governments. We also reviewed the Department of Homeland Security's 
(DHS) Office of Inspector General report on the status of FEMA's 
disaster response planning efforts. For the purposes of this testimony, 
we did not assess any criteria used or the operational planning for the 
Deepwater Horizon response. More detailed information about our scope 
and methodology is included in our April 2009 report. We conducted this 
work in accordance with generally accepted Government auditing 
standards.

      NATIONAL RESPONSE FRAMEWORK'S CRITERIA FOR RESPONSE PLANNING

    The National Response Framework discusses several elements of 
effective response and response planning. The term response, as used in 
the National Response Framework, includes the immediate actions to save 
lives, protect property and the environment, and meet basic human 
needs. Response also includes the execution of emergency plans and 
actions to support short-term recovery. An effective, unified National 
response--including the response to any large-scale incident--requires 
layered, mutually supporting capabilities--governmental and 
nongovernmental. Indispensable to effective response is an effective 
unified command, which requires a clear understanding of the roles and 
responsibilities of each participating organization.
    The National Response Framework employs the following criteria to 
measure key aspects of response planning:
  <bullet> Acceptability.--A plan is acceptable if it can meet the 
        requirements of anticipated scenarios, can be implemented 
        within the costs and time frames that senior officials and the 
        public can support, and is consistent with applicable laws.
  <bullet> Adequacy.--A plan is adequate if it complies with applicable 
        planning guidance, planning assumptions are valid and relevant, 
        and the concept of operations identifies and addresses critical 
        tasks specific to the plan's objectives.\4\
---------------------------------------------------------------------------
    \4\ A concept plan describes how capabilities are integrated and 
synchronized to accomplish critical tasks to meet objectives.
---------------------------------------------------------------------------
  <bullet> Completeness.--A plan is complete if it incorporates major 
        actions, objectives, and tasks to be accomplished. The complete 
        plan addresses the personnel and resources required and sound 
        concepts for how those will be deployed, employed, sustained, 
        and demobilized. It also addresses time lines and criteria for 
        measuring success in achieving objectives and the desired end 
        state. Including all those who could be affected in the 
        planning process can help ensure that a plan is complete.
  <bullet> Consistency and standardization of products.--Standardized 
        planning processes and products foster consistency, 
        interoperability, and collaboration; therefore, emergency 
        operations plans for disaster response should be consistent 
        with all other related planning documents.
  <bullet> Feasibility.--A plan is considered feasible if the critical 
        tasks can be accomplished with the resources available 
        internally or through mutual aid, immediate need for additional 
        resources from other sources (in the case of a local plan, from 
        State or Federal partners) are identified in detail and 
        coordinated in advance, and procedures are in place to 
        integrate and employ resources effectively from all potential 
        providers.
  <bullet> Flexibility.--Flexibility and adaptability are promoted by 
        decentralized decisionmaking and by accommodating all hazards 
        ranging from smaller-scale incidents to wider National 
        contingencies.
  <bullet> Interoperability and collaboration.--A plan is interoperable 
        and collaborative if it identifies other stakeholders in the 
        planning process with similar and complementary plans and 
        objectives, and supports regular collaboration focused on 
        integrating with those stakeholders' plans to optimize 
        achievement of individual and collective goals and objectives 
        in an incident.

 ADDITIONAL GUIDANCE AND POLICY REGARDING OPERATIONAL PLANS AND TESTING

    Under the Post-Katrina Emergency Management Reform Act, FEMA has 
responsibility for leading the Nation in developing a National 
preparedness system.\5\ FEMA has developed standards--the Comprehensive 
Preparedness Guide 101--that call for validation, review, and testing 
of emergency operations plans (EOP).\6\ According to the Comprehensive 
Preparedness Guide 101, plans should be reviewed for conformity to 
applicable regulatory requirements and the standards of Federal or 
State agencies (as appropriate) and for their usefulness in practice. 
Exercises offer the best way, short of emergencies, to determine if an 
EOP is understood and ``works.'' Further, conducting a ``tabletop'' 
exercise involving the key representatives of each tasked organization 
can serve as a practical and useful means to help validate the plan. 
FEMA's guidance also suggests that officials use functional and full-
scale emergency management exercises to evaluate EOPs. Plan reviews by 
stakeholders also allow responsible agencies to suggest improvements in 
an EOP based on their accumulated experience.\7\
---------------------------------------------------------------------------
    \5\ Pub. L. No. 109-295,  644, 120 Stat. 1355, 1425 (2006).
    \6\ Department of Homeland Security, Federal Emergency Management 
Agency, Comprehensive Preparedness Guide (CPG) 101: Developing and 
Maintaining State, Territorial, Tribal, and Local Government Emergency 
Plans. Mar. 2009.
    \7\ For example, States may review local plans.
---------------------------------------------------------------------------
    We also identified the need for validated operational planning in 
the aftermath of Hurricane Katrina, noting that to be effective, 
National response policies must be supported by robust operational 
plans. In September 2006, we recommended, among other things, that DHS 
take the lead in monitoring Federal agencies' efforts to meet their 
responsibilities under the National Response Plan (now the National 
Response Framework) and the National Preparedness Goal (now the 
National Preparedness Guidelines), including the development, testing, 
and exercising of agency operational plans to implement their 
responsibilities.\8\ DHS concurred with our recommendation. The Post-
Katrina Emergency Management Reform Act transferred preparedness 
responsibilities to FEMA,\9\ and we recommended in April 2009 that FEMA 
should improve its approach to developing policies and plans that 
define roles and responsibilities and planning processes by developing 
a program management plan, in coordination with DHS and other Federal 
entities, to ensure the completion of the key National preparedness 
policies and plans called for in legislation, Presidential directives, 
and existing policy and doctrine; to define roles and responsibilities 
and planning processes; as well as to fully integrate such policies and 
plans into other elements of the National preparedness system.\10\ FEMA 
concurred with our recommendation and is currently working to address 
this recommendation.
---------------------------------------------------------------------------
    \8\ GAO, Catastrophic Disasters: Enhanced Leadership, Capabilities, 
and Accountability Controls Will Improve the Effectiveness of the 
Nation's Preparedness, Response, and Recovery System, GAO-06-618 
(Washington, DC: Sept. 6, 2006.).
    \9\ 6 U.S.C.  315.
    \10\ GAO-09-369.
---------------------------------------------------------------------------
    Other National standards reflect these practices as well. For 
example, according to Emergency Management Accreditation Program (EMAP) 
standards, the development, coordination, and implementation of 
operational plans and procedures are fundamental to effective disaster 
response and recovery.\11\ EOPs should identify and assign specific 
areas of responsibility for performing essential functions in response 
to an emergency or disaster. Areas of responsibility to be addressed in 
EOPs include such things as evacuation, mass care, sheltering, needs 
and damage assessment, mutual aid, and military support. EMAP standards 
call for a program of regularly scheduled drills, exercises, and 
appropriate follow-through activities--designed for assessment and 
evaluation of emergency plans and capabilities--as a critical component 
of a State, territorial, Tribal, or local emergency management program. 
The documented exercise program should regularly test the skills, 
abilities, and experience of emergency personnel as well as the plans, 
policies, procedures, equipment, and facilities of the jurisdiction. 
The exercise program should be tailored to the range of hazards that 
confronts the jurisdiction.
---------------------------------------------------------------------------
    \11\ The EMAP standards are the voluntary National accreditation 
process for State, territorial, Tribal, and local emergency management 
programs. Using collaboratively developed, recognized standards and 
independent assessment, EMAP provides a means for strategic improvement 
of emergency management programs, culminating in accreditation.
---------------------------------------------------------------------------
              STATUS OF NATIONAL DISASTER PLANNING EFFORTS

    We reported in April 2009 that FEMA lacked a comprehensive approach 
to managing the development of emergency preparedness policies and 
plans.\12\ Specifically, we reported that FEMA had completed many 
policy and planning documents, but a number of others were not yet 
completed. For example, while DHS, FEMA, and other Federal entities 
with a role in National preparedness have taken action to develop and 
complete some plans that detail and operationalize roles and 
responsibilities for Federal and non-Federal entities, these entities 
had not completed 68 percent of the plans required by existing 
legislation, Presidential directives, and policy documents as of April 
2009.
---------------------------------------------------------------------------
    \12\ GAO-09-369.
---------------------------------------------------------------------------
    Specifically, of the 72 plans we identified, 20 had been completed 
(28 percent), 3 had been partially completed (that is, an interim or 
draft plan has been produced--4 percent), and 49 (68 percent) had not 
been completed. Among the plans that have been completed, FEMA 
published the Pre-Scripted Mission Assignment Catalog in 2008, which 
defines roles and responsibilities for 236 mission assignment 
activities to be performed by Federal Government entities, at the 
direction of FEMA, to aid State and local jurisdictions during a 
response to a major disaster or an emergency. Among the 49 plans that 
had not been completed were the National Response Framework incident 
annexes for terrorism and cyber incidents as well as the National 
Response Framework's incident annex supplements for catastrophic 
disasters and mass evacuations. In addition, operational plans for 
responding to the consolidated National planning scenarios, as called 
for in Homeland Security Presidential Directive 8, Annex 1, remained 
outstanding.
    In February 2010, DHS's Office of Inspector General reviewed the 
status of these planning efforts and reported that the full set of 
plans for any single scenario had not yet been completed partly because 
of the time required to develop and implement the Integrated Planning 
System.\13\ The Integrated Planning System, required by Annex 1 to 
Homeland Security Presidential Directive 8 (December 2007), is intended 
to be a standard and comprehensive approach to National planning. The 
Directive calls for the Secretary of Homeland Security to lead the 
effort to develop, in coordination with the heads of Federal agencies 
with a role in homeland security, the Integrated Planning System 
followed by a series of related planning documents for each National 
planning scenario. The Homeland Security Council compressed the 15 
National Planning Scenarios into 8 key scenario sets in October 2007 to 
integrate planning for like events and to conduct crosscutting 
capability development.\14\ The redacted version of the Inspector 
General's report noted that DHS had completed integrated operations 
planning for 1 of the 8 consolidated National planning scenarios \15\--
the terrorist use of explosives scenario.\16\ FEMA officials reported 
earlier this month that the agency's efforts to complete National 
preparedness planning will be significantly impacted by the 
administration's pending revision to Homeland Security Presidential 
Directive--8. Once the new directive is issued, agency officials plan 
to conduct a comprehensive review and update to FEMA's approach to 
National preparedness planning.
---------------------------------------------------------------------------
    \13\ Department of Homeland Security, Office of Inspector General, 
DHS' Progress in Federal Incident Management Planning (Redacted), OIG-
10-58 (Washington, DC, Feb. 22, 2010.)
    \14\ The eight scenarios are: (1) Explosives attack (terrorist use 
of explosives); (2) nuclear attack (improvised nuclear device); (3) 
biological attack (aerosol anthrax, plague, food contamination, foreign 
animal disease); (4) radiological attack (radiological dispersal 
devices); (5) chemical attack (blister agent, toxic industrial 
chemicals, nerve agent, chlorine tank explosion); (6) natural disaster 
(major earthquake, major hurricane); (7) cyberattack; and (8) pandemic 
influenza.
    \15\ The DHS IG's report noted that DHS had completed five of the 
eight strategic guidance statements and four strategic plans. See DHS 
OIG-10-58.
    \16\ To align with Homeland Security Presidential Directive 19, in 
July 2008 the improvised explosive device scenario was renamed the 
Terrorist Use of Explosives scenario.
---------------------------------------------------------------------------
    In addition to FEMA's planning efforts, FEMA has assessed the 
status of catastrophic planning in all 50 States and the 75 largest 
urban areas as part of its Nationwide Plan Review. The 2010 Nationwide 
Plan Review was based on the 2006 Nationwide Plan Review, which 
responded to the need both by Congress and the President to ascertain 
the status of the Nation's emergency preparedness planning in the 
aftermath of Hurricane Katrina. The 2010 Nationwide Plan Review 
compares the results of the 2006 review of States and urban areas' 
plans, functional appendices and hazard-specific annexes, on the basis 
of:
  <bullet> Consistency with Comprehensive Preparedness Guide 101,
  <bullet> Date of last plan update,
  <bullet> Date of last exercise, and
  <bullet> A self-evaluation of the jurisdiction's confidence in each 
        planning document's adequacy, feasibility, and completeness to 
        manage a catastrophic event.
    FEMA reported in July 2010 that more than 75 percent of States and 
more than 80 percent of urban areas report confidence that their 
overall basic emergency operations plans are well-suited to meet the 
challenges presented during a large-scale or catastrophic event.

           OPERATIONAL RESPONSE PLANS FOR OIL SPILL RESPONSES

    Oil spills are a special case with regard to response. For most 
major disasters, such as floods or earthquakes, a major disaster 
declaration activates Federal response activities under the provisions 
of the Robert T. Stafford Disaster Relief and Emergency Assistance 
Act.\17\ However, for oil spills, Federal agencies may have direct 
authority to respond under specific statutes. Response to an oil spill 
is generally carried out in accordance with the National Oil and 
Hazardous Substances Pollution Contingency Plan.\18\ The National 
Response Framework has 15 functional annexes, such as search and 
rescue, which provide the structure for coordinating Federal 
interagency support for a Federal response to an incident. Emergency 
Support Function No. 10, the Oil and Hazardous Materials Response 
Annex, governs oil spills. As described in Emergency Support Function 
No. 10, in general, the Environmental Protection Agency is the lead for 
incidents in the inland zone, and the U.S. Coast Guard, within DHS, is 
the lead for incidents in the coastal zone. The difference in 
responding to oil spills and the shared responsibility across multiple 
Federal agencies underscores the importance of including clear roles, 
responsibilities, and legal authorities in developing operational 
response plans.
---------------------------------------------------------------------------
    \17\ 42 U.S.C.  5121-5206.
    \18\ The National Oil and Hazardous Substances Pollution 
Contingency Plan, more commonly called the National Contingency Plan or 
NCP, is the Federal Government's blueprint for responding to both oil 
spills and hazardous substance releases.
---------------------------------------------------------------------------
    In conclusion, Mr. Chairman, emergency preparedness is a never-
ending effort as threats evolve and the capabilities needed to respond 
to those threats changes as well. Realistic, validated, and tested 
operational response plans are key to the effective response to a major 
disaster of whatever type. Conducting exercises of these plans as 
realistically as possible is a key component of response preparedness 
because exercises help to identify what ``works'' (validates and tests) 
and what does not. This concludes my statement. I will be pleased to 
respond to any questions you or other Members of the committee may 
have.

    Chairman Thompson. Thank you for your testimony.
    I would remind each Member that he or she will have 5 
minutes to question the panel. I will now recognize myself for 
questions.
    Mr. Jenkins, this National planning scenario that has not 
been completed, whose responsibility is it to complete it?
    Mr. Jenkins. There is a responsibility between both FEMA 
and DHS operations to complete those, working with other 
agencies, as Mr. Skinner has pointed out in his report.
    Chairman Thompson. Okay.
    Mr. Skinner, help us out with that.
    Mr. Skinner. Yes, DHS most certainly has the lead to do 
this, and the Secretary is in charge of that program. DHS 
relies very, very heavily on its Federal partners, however. 
FEMA, for example, is responsible for developing the concept of 
operation plans. They rely heavily on the other Federal 
agencies to contribute staff to prepare plans to provide the 
input in those areas where they have the expertise.
    At the Departmental level, the Department has received 
people from other--from the other departments and agencies 
that, again, have expertise in their areas to contribute to the 
strategic plan, strategic guidance.
    Problems that we are having is, No. 1, there is not enough 
of these people to go around. They are being spread very, very 
thinly. We got off to a late start. As a matter of fact, I 
don't think the Department got started until a year after it 
was supposed to get started. Secondly, people were being called 
to do other duties because of the, for example, the election; 
the issues that we are dealing with border security down in the 
Southwest. This caused problems in putting this together.
    Chairman Thompson. But do you see the Department not having 
the benefit of the scenario results and still being able to 
adequately plan going forward?
    Mr. Skinner. Yes, this can hinder our ability to move 
forward. Like I said, the individual departments are preparing 
their individual operational plans. However, those plans have 
never been reviewed. FEMA doesn't have the authority to mandate 
that they be reviewed. So, therefore, we do not know if they in 
fact are adequate plans, whether those plans fit into the 
concept of operations or with the strategic plans. So we have a 
long way to go. There was progress being made. It has been 
slowed. But we do have a very, very long way to go.
    Chairman Thompson. Thank you.
    Admiral, you referenced some comments about the Coast Guard 
being involved in the planning process and that you had hoped 
for tighter linkages in that. Can you expound on that?
    Admiral Neffenger. Yes, Mr. Chairman. What I was referring 
to is the response plans that are generated for--well, I will 
start with this. We require response plans for all vessels 
which pose a potential pollution hazard to the Federal waters 
of the United States. This includes tankers and certain other 
types of vessels. What was the Minerals Management Service, now 
the Bureau of Ocean Energy Management and Regulatory 
Enforcement, also has response plan requirements for Outer 
Continental Shelf activities. There is an existing memorandum 
of agreement between our two agencies that provides for the 
option to review response plans but doesn't mandate the review 
of response plans.
    I think, moving forward, one of the earlier lessons learned 
for us is that as the Federal on-scene coordinator responsible 
for cleaning up and responding to oil spills in the maritime 
environment, we should be reviewing all potential sources of 
pollution in the--response plans for all potential sources of 
pollution in the maritime environment.
    Chairman Thompson. I agree with you. If you had the 
responsibility to review a plan for the Gulf Coast, the Gulf of 
Mexico, and saw where it referenced seals and walruses in the 
plans, would you have noted that that probably didn't have 
anything to do with the Gulf of Mexico?
    Admiral Neffenger. I think the good thing about a review 
process is that they surface those kinds of issues that may 
need to be addressed.
    I think what we would have been interested in most 
importantly is how a worst-case discharge is defined, because 
that is what really we are talking about when you are looking 
at planning, is how do you define worst case and what types of 
efforts then will be brought to bear and what equipment will be 
available to deal when that?
    Chairman Thompson. I understand. But I asked, if you saw 
seals and walruses in a Gulf of Mexico response plan, would 
that not have raised a flag?
    Admiral Neffenger. I probably would have asked a few 
questions, yes, sir.
    Chairman Thompson. Here is the BP part of the plan. Did the 
Coast Guard, to your knowledge, have any opportunity to review 
it?
    Admiral Neffenger. Well, as I said, we have a memorandum 
which would allow for review. But to my knowledge, we did not 
review that plan, no, sir.
    Chairman Thompson. So, basically, you were left to the 
mercy of BP to advise the Coast Guard on what they needed to do 
as overseer to correct it.
    Admiral Neffenger. Well, what I would say is that it is not 
that we were without resources and capability. We did assume 
from the outset that we were going to be dealing with a major 
oil spill, if for no other reason than that there were 700,000 
gallons of diesel fuel on-board the Deepwater Horizon. And we 
also made the assumption that we would have leakage from the 
well, although, as noted, it was beyond the scope and 
unprecedented that we would have had as much leakage as we had 
over the extended period of time that we did.
    But we did immediately put response resources out to bear 
on the site and did turn to BP as a responsible party to 
activate not only their existing oil spill response or removal 
organization contracts, but to bring all possible resources to 
the site.
    Chairman Thompson. Thank you.
    You referenced an MOA that has been agreed to. Has it been 
signed?
    Admiral Neffenger. Yes, sir. I think that is longstanding. 
I will have to get you--I can get you a copy for the record.
    Chairman Thompson. Please.*
---------------------------------------------------------------------------
    * Due to legibility, the information was retained in committee 
files.
---------------------------------------------------------------------------
    Admiral Neffenger. That will include the date. I don't off 
the top of my head know on what date it was signed. But it was 
signed previously with the Minerals Management Service.
    Chairman Thompson. But, even with that, to your knowledge, 
the Coast Guard had nothing to do with the review of BP's 
response plans should a spill occur.
    Admiral Neffenger. For this particular well, I don't 
believe that we did review this particular response plan.
    Chairman Thompson. Thank you. I yield to the gentleman from 
New Orleans, Mr. Cao.
    Mr. Cao. Thank you very much, Mr. Chairman.
    My first question is to Mr. Skinner because I am still a 
little bit confused with respect to your answers to the 
National planning scenarios that the Chairman alluded to 
earlier.
    In your statement, you said that in July 2009, the White 
House National Security Staff began a review of HSPD-8 and 
temporarily put a hold on efforts to complete the remaining 
plans. My question contains three parts: No. 1, why did they 
put a hold in the first place? No. 2, is the NSS still 
preventing the completion of these plans? If they are still 
preventing the completion of these plans, the question is why? 
If not, where is the status of the plans?
    Mr. Skinner. First, in response to your first question, I 
am not sure why they put a hold. It is our understanding, my 
office's understanding, that we wanted to review that directive 
to see if it can be streamlined and improved.
    Second, yes, we have been told that the strategic planning 
concept of operations planning and strategic guidance has been 
put on hold pending the results of the White House review of 
the directive.
    Third, and the last question, Congressman? You had three 
parts.
    Mr. Cao. Right. I asked you if the White House National 
Security Staff still puts a hold on the remaining plans. If the 
answer is yes, they still put a hold, the question is, why? If 
no, they are no longer putting a hold, then where is the status 
of the planning?
    Mr. Skinner. It is my understanding that there is still a 
continuing hold on future planning pending the results of a new 
directive.
    Mr. Cao. Do you know why it is taking so long to review 
these directives?
    Mr. Skinner. No, I don't. It is my understanding it might 
be some differences in how we want to approach our National 
strategic planning.
    Mr. Cao. Now you also said that the National planning 
scenarios were making progress. Can you explain to me what kind 
of progress we were making?
    Mr. Skinner. Originally, it was our understanding that the 
Department wanted to start this process back in 2008--early 
2008--but we were not able to start developing or issuing 
guidance until late 2008. We saw progress in four of the 
scenarios where we had strategic guidance, we had strategic 
plans, we had operational plans or concept of operations plans. 
But that all came to a halt in July 2009.
    Mr. Cao. As of today, we don't really know where these--
what is the process, where we are in the process.
    Mr. Skinner. That is correct. I understand it is all on 
hold. In January of this year, we speculated that, at the pace 
that we were moving, that we could have a complete set of plans 
by February 2011. But I think--I doubt very seriously if that 
can happen.
    Mr. Cao. Based on your understanding of these planning 
scenarios, how urgent is it that we complete these plans?
    Mr. Skinner. I think it is extremely urgent that we 
complete these plans. If you look at the scenarios that were 
developed and identified, everyone was in agreement that these 
are issues that need to be addressed. We need to have a Nation-
wide plan at all levels--at the Federal level all the way, 
vertically and horizontally, down to the State and locals, the 
private sector.
    We saw what happened in Katrina. We saw what happened in 
Deepwater Horizon. I think it is very important that we have 
plans in place that people understand what their organizational 
responsibilities are, what the resources are available to 
address certain scenarios--a chemical attack, a nuclear attack. 
I think it is extremely important. I think the administration 
recognizes it is important. I am confident they will get back 
on track.
    Mr. Cao. So, based on the answers I have received, can I 
assume that what you are trying to say is the White House 
National Security Staff, they are not acting with a sense of 
urgency?
    Mr. Skinner. I don't want to draw that conclusion. I 
believe they are actively engaged. It is just you would have to 
ask--I have not been--our office has not been privy to what the 
issues that are being raised between the White House and the 
Department.
    Mr. Cao. Thank you, and I yield back.
    Chairman Thompson. Thank you very much.
    The Chairman recognizes the gentleman from New Jersey, Mr. 
Pascrell, for 5 minutes.
    Mr. Pascrell. I want to continue, if I may, Mr. Chairman, 
on the path that Mr. Cao has laid out very astutely.
    I would like to ask Mr. Skinner, who I have a great, great 
affection for, and Mr. Jenkins, from the Government 
Accountability Office, this question. Upon your examination 
from your each different specific points of perception, how 
would you explain--how would you describe the relationship 
between BP and the Minerals Management Service?
    Mr. Skinner. Congressman, we are in a process currently of 
looking at the Department of Homeland Security's response and 
the Coast Guard's response to the Deepwater Horizon incident.
    Mr. Pascrell. But the Minerals Management Service is under 
the Interior Department.
    Mr. Skinner. That is correct.
    Mr. Pascrell. Have you had any review?
    Mr. Skinner. No.
    Mr. Pascrell. Let me ask it this way. Have you looked with 
the Interior Department at the relationship BP had with the 
Government?
    Mr. Skinner. Yes. We are coordinating our reviews.
    Mr. Pascrell. What did you conclude?
    Mr. Skinner. We have not drawn any conclusions.
    Mr. Pascrell. When will we get those conclusions?
    Mr. Skinner. Our first three reviews we hope to have 
something by the end of this calendar year. Our review of 
National Contingency Plan and its relationship to the former 
MMS we are looking at early next spring.
    Mr. Pascrell. So if I would have asked you this before this 
disaster, you would have said we are going to put a committee 
together or we are going to refer this to a panel of some sort 
that will examine whatever the relationship was with BP and any 
Federal agency that has oversight. You would be answering me 
the same thing.
    Mr. Skinner. No. Let me say this, that, based on my 
conversations with the Acting IG or the IG at the Department of 
Interior, they are actively engaged in studying this subject as 
we speak. They may draw conclusions and issue reports a lot 
sooner than our ability to draw conclusions on the adequacy of 
the Coast Guard's and the Department of Homeland Security's 
response.
    Mr. Pascrell. So the Department of Interior is looking into 
this relationship as well. Is that what you are telling me?
    Mr. Skinner. Yes, sir.
    Mr. Pascrell. That doesn't seem to me to be a healthy 
situation at first blush, but maybe I am wrong----
    Mr. Skinner. It is the Department of Interior Inspector 
General, who is independent of the Management in that 
relationship.
    Mr. Pascrell. Let me ask you, Mr. Jenkins, the same 
questions. How would you answer them?
    Mr. Jenkins. I can't answer them only because we have done 
absolutely no work on that topic at all. So we don't have any 
information on that.
    Mr. Pascrell. Well, here's my dilemma then with that, Mr. 
Skinner--Mr. Jenkins, I am not blaming you personally. We have 
a situation--I will repeat what I said earlier. You have 
oversight. We don't need a disaster to look into if that 
oversight is paying us dividends or there is no oversight; 
simply by name we have oversight.
    I don't accept this. I want to tell you this right now. I 
do not accept what you are just telling me, that you can't tell 
me right now what was the relationship between what really was 
a flunky organization by everyone's measure, this Minerals 
Management Service. Again, slowly, I turned. You can't tell me 
what the relationship was with that agency or any oil company, 
could you?
    Mr. Jenkins. No, sir.
    Mr. Pascrell. Who would know that?
    Mr. Jenkins. I think it would be--we have----
    Mr. Pascrell. Who would know that, Mr. Jenkins?
    Mr. Jenkins. Well, as Mr. Skinner said, the Interior 
Inspector General would be the best source.
    Mr. Pascrell. He is going to be inspecting an agency which 
is in the Interior Department. Thank you.
    Let me ask you this. The Homeland Security Act of 2002 
vested the Secretary of the Department of Homeland Security 
with responsibility for emergency planning for natural and man-
made crises on behalf of the United States. Under the Act, the 
Department acts as a focal point regarding natural and man-made 
crises and emergency planning.
    So the law is clear in saying that the DHS is primarily 
responsible for emergency planning in a man-made crisis, which 
this certainly was. Yet, as I said before, it is abundantly 
clear that no such emergency plan existed.
    Furthermore, it seems clear to me that the DHS had 
absolutely no role in emergency planning before this disaster 
occurred. I don't care what I have read; I have come to that 
conclusion. Maybe you could give me other information and 
change my mind. I have changed my mind on some things, that the 
weather is too cold; it is too hot. I have changed my mind on a 
lot of things in my life, whether my kids were listening to me 
or they weren't listening to me.
    So let me ask all the witnesses this question. Do you agree 
that the Department of Homeland Security and its various 
components, including the Coast Guard, had no role in emergency 
planning before this disaster occurred? A simple yes or no to 
that particular question.
    Then I have one more final question, if I may, Mr. 
Chairman.
    Mr. Chavez.
    Mr. Chavez. Yes.
    Mr. Pascrell. Rear Admiral.
    Admiral Neffenger. Let me just clarify. You are asking if I 
agree with you that DHS had no role in emergency planning?
    Mr. Pascrell. That is correct.
    Admiral Neffenger. From my perspective, no, sir. In fact, 
we have been involved in, particularly with respect to oil 
spills, planning for 20 some years since the passage of the Oil 
Pollution Act.
    Mr. Pascrell. You have been. That is interesting.
    Mr. Skinner.
    Mr. Skinner. I do agree with Rear Admiral Neffenger that 
the Department and FEMA have been actively engaged in many 
areas.
    The question is how well those plans have been implemented 
and how well they have been exercised; how well have people 
been trained to understand what is in those plans? I think 
therein lies one of our biggest problems.
    Mr. Pascrell. Thank you.
    Mr. Jenkins.
    Mr. Jenkins. I agree with Mr. Skinner.
    Mr. Pascrell. Well, you all agree with one another.
    Let me tell you my take. This is another case of turf 
battles when it comes to Homeland Security, Mr. Chairman.
    Is it the reason why DHS had no role, really, in emergency 
planning because the existing Federal regulator with the Bureau 
of Ocean Energy Management, Regulation and Enforcement, better 
known as BOEMRE--you learned something today, I did, too--
formally known as the Minerals Management Service, did not want 
them involved. Can anybody on the panel answer that question?
    Mr. Chairman, I conclude, and thank you for allowing me to 
go over.
    Chairman Thompson. Thank you very much.
    The Chairman now recognizes the gentlelady from Texas, Ms. 
Jackson Lee.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. As 
witnesses know, as you build on the genius of each of you and 
your staff, we build on the genius of our colleagues.
    Allow me to build on the genius of our Chairman. I think 
this is a very important hearing.
    Let me publicly state, Mr. Chairman, that, interestingly 
enough, you have several committees that, frankly, overlap what 
happened in this great episode of our history, this great 
tragedy, from Emergency Preparedness to Cybersecurity. I chair 
the Subcommittee on Infrastructure Protection. There is no 
doubt that our energy system of pipelines and oil rigs are part 
of the infrastructure of America.
    Then my dear friend from New Jersey has just opened an 
expanded can of worms that talks about how we host disaster 
recovery in one entity. I know that each of the gentlemen 
sitting here are enormously polite. I may give a yield to the 
Inspector General and the GAO. They are often coming and being 
impolite because they have to bring truth to the table.
    But we have a problem in the system of Government.
    Before I pose these questions, let me also join the genius 
of my colleague from Texas, as I have joined the genius of the 
gentlelady from New York, and indicate that it is important to 
note that lives were lost.
    We sat here after 9/11 expressing the dismay in that 
horrific tragedy that lives were lost, lives were lost, and 
when reviewed, we looked at information that had not been 
translated, phones that didn't work, and we felt sad.
    Let me also note, as we did in 9/11, of the heroic acts of 
so many people. Again, the energy industry, the folks that just 
work, we have to thank them. As I visited the command center in 
Houma, and just over and over again, let me thank the command 
center leadership and thank the Coast Guard.
    I want to express my appreciation to Admiral Allen and all 
of you who moved expeditiously when the call came. Let no one 
diminish the time spent away from family and the heroic efforts 
that were there.
    Going on that, I am going to be the unpleasant person at 
the party and say it is atrocious. I have to tell my colleagues 
it is atrocious. They are not going to listen. But there is no 
reason to scatter jurisdiction on disaster. If you need 
someone, you can call them up. But the anchor of disaster 
should be Homeland Security. Natural disaster, man-made 
disaster: Homeland security.
    There is a phrase in the Bible when someone asks about who 
is going to do a certain act, and you stand and say: Send me. I 
don't mind taking the responsibility.
    So my concern is, we need some people, whether it is a 
Republican administration, a Democratic administration, we need 
somebody to stand up and say, this is not working; I have got 
too many bosses.
    Now I would like the Department of Interior, and they might 
be good when things are going well, to make sure that they are 
reviewing what is going on, on the rig. They admit that they 
failed by not going to that rig as often as they should because 
it is well known that some on the rig absconded--I use that 
terminology--left the rig days out because they felt something 
was not right. So the question has to be: When are we all going 
to own up to this?
    Let me just ask this question, Mr. Chavez. When the oil 
spill was designated a National Significance, a SONS--look at 
that acronym--and Admiral Thad Allen was appointed National 
incident commander, what role does Secretary Napolitano have?
    Mr. Chavez. She was the incident manager.
    Ms. Jackson Lee. Was she flown out to the site 24 hours a 
day, standing, giving orders or working in conjunction? How did 
that work, sir?
    Mr. Chavez. She was working through Admiral Allen, again, 
as the incident commander as per the plan.
    Ms. Jackson Lee. Right. So she was getting measured 
information or delayed information. When I say she, let me just 
say the Secretary of Homeland Security, because this goes on 
from how many years back. We are not pointing out to the 
Secretary. We know she is at another hearing today. We are just 
trying to get the structure.
    So what you are saying is she was getting information 4 
hours, 24 hours, et cetera, later.
    Mr. Chavez. As it came in.
    Ms. Jackson Lee. As it came in, you believe.
    Mr. Chavez. I know. That is what the responsibility as the 
National Operations Center.
    Ms. Jackson Lee. But we don't have any documentation, 
having that position not necessarily being on site, that it was 
first knowledge. You are saying, under the procedures, you 
think that is what happened.
    Mr. Chavez. Agree.
    Ms. Jackson Lee. Let me move to Admiral Neffenger.
    When you had this responsibility and you worked with the 
Secretary, who is considered ultimately in charge, the Admiral 
or the Secretary of Homeland Security, whoever that might be?
    Admiral Neffenger. Well, for this incident the Secretary 
named Admiral Allen the National incident commander and vested 
ultimate decision-making authority in him; however, maintained 
her role as the principal Federal official under HSPD-5 through 
daily interaction with him. I personally witnessed their daily 
interaction.
    Ms. Jackson Lee. I think that is positive.
    But let me probe this. The Chairman said we will have 
additional questions. I am going to put this question on the 
record and ask you to give this to me in writing, how we can 
enhance that relationship.
    Since you were involved in Katrina, don't let your mind 
focus only on the oil spill. I, frankly, believe that it should 
be in tandem, so that we can concretely reinforce that Homeland 
Security and the Secretary of Homeland Security, reporting to 
the President, reporting to this Congress, is right there on 
the action.
    So let me just ask you in this question, and I have got two 
more quickly, Mr. Chairman: Did you develop your expertise on 
the job, on this oil spill? Did you gather some industry people 
right to you real quick? How did you move quickly on this 
issue?
    Admiral Neffenger. Actually, there is a number of pieces to 
that.
    Ms. Jackson Lee. Excuse my voice.
    Admiral Neffenger. Let me quickly outline the process. As I 
mentioned earlier, there is a robust planning process that was 
put in place by the Oil Pollution Act of 1990. That, among 
other things, included development of area contingency plans, 
which are coordinated through the State government and State 
agencies, as well as the Federal Government, and responsible 
parties--potential responsibility parties. That generates 
something called an Area Contingency Plan, which is the first 
step in knowing what you might need in the event of a major oil 
spill or even a minor oil spill response. That is the first 
piece that is in place, is the pre-need relationships amongst 
those folks.
    When an event actually happens, the plan is a guideline 
only, and then you have to adjust it on the fly, as you know, 
because in the case of this event, things happened that we 
hadn't ever seen before. So, in this case, we knew that we 
needed--the Oil Pollution Act of 1990's fundamental principle 
was that the American taxpayer shouldn't bear the burden of 
cleaning up.
    Ms. Jackson Lee. Can you get with how you got the 
expertise, quickly? I need to ask----
    Admiral Neffenger. We drew on the industry for the 
expertise, not just the responsible party, but other members, 
and we took experts within the Coast Guard and within the 
Federal Government.
    Ms. Jackson Lee. Let me quickly ask the two gentlemen this 
last question, the Inspector General and GAO. You are doing a 
study, Inspector General, after the fact. You did a study after 
Katrina. Can you imagine lives lost are just kind of having 
their cup overwhelmed about inspector reviews after the fact? 
My question to you, can we do better by lodging--and don't tell 
me that you are going to give us a report in 2011--disaster 
responsibilities in one Government entity? Do we need to have 
the true expertise, spend money on the expertise that helps us 
in conspicuous potential obvious nuclear situation, oil spill, 
flood, et cetera? I would ask the GAO on that. You are going to 
be studying after the fact. There is a frustration for us 
studying everything after the fact.
    Mr. Skinner. Let me say, I don't believe that all expertise 
can rest within the Department of Homeland Security.
    Ms. Jackson Lee. I don't either, but I am saying----
    Mr. Skinner. I am sorry.
    Ms. Jackson Lee. Sufficient. Should the Homeland Security 
Department be a major responsible key focus for disasters in 
the United States with a certain amount of expertise?
    Mr. Skinner. Absolutely. We should be the lead.
    Ms. Jackson Lee. That is what I am trying to understand.
    Mr. Jenkins.
    Mr. Jenkins. Yes, absolutely they should be the lead and 
not only have at least some basic level of expertise, but they 
need to be able to know where they can draw on that expertise 
expeditiously when needed.
    Ms. Jackson Lee. I thank you, Mr. Chairman.
    I yield.
    Chairman Thompson. Thank you very much.
    The Chairman now recognizes the gentleman from Texas, Mr. 
Green.
    Mr. Green. Thank you, Mr. Chairman.
    Thank you, witnesses, for appearing.
    It is important that we have leadership, and it is 
important that that leadership be perceived as taking the lead.
    Somehow in this scenario with Deepwater Horizon, the 
perception existed that BP was in charge. That perception 
became a reality for a lot of people. They literally thought 
that this was something that BP was not only responsible for 
but was taking the lead on and was going to dictate how and 
when and to what extent actions would be taken. The question 
becomes: How do we resolve that kind of perception that can 
cloud the minds of the public?
    Admiral, your thoughts, please.
    Admiral Neffenger. Well, I understand the angst that 
develops when people see the entity that they think is 
responsible for causing something playing a role in somehow 
cleaning it up.
    But I would suggest that that is exactly what we need to 
have happen. We want the polluter to pay, and we want the 
spiller to be responsible.
    In order to ensure that they do clean it up, you have to 
have them close by. If you are going to be ordering them to 
write the checks and to pay for the equipment and the 
requirements and to bring the resources to bear, which is what 
we expect, not at the taxpayer's expense but at their expense, 
then you need them close by to make that happen.
    I think that where we have to deal with the perception, we 
need to explain that. We need to explain, why did BP have a 
role in the Incident Command? It is because the incident 
commander, who at all times was in charge of this, the Federal 
on-scene coordinator, currently Rear Admiral Paul Zukunft, 
needs them there so that when he issues a directive or an order 
to them, he can see that it is carried out and he can ensure 
that it is carried out.
    Chairman Thompson. Will the gentleman yield?
    Mr. Green. Yes, I will.
    Chairman Thompson. Admiral, one of the earlier witnesses 
said that BP had the authority to veto certain decisions in 
this process. Did we give BP the veto authority?
    Admiral Neffenger. No, sir.
    At no time did they have veto authority.
    They did, however, sometimes suggest different ways of 
doing things that we then reviewed, in particular with respect 
to securing the source at the wellhead.
    They had expertise. So it is not unusual to have them 
suggest an alternative means of doing it, to then review that 
within the Federal Government, and we had technical teams and 
scientific teams that would do that, engineering teams that 
would do that.
    There were many times discussions that took place and 
meetings that took place, but ultimately, the authority always 
and still rests with the Federal Government in the Federal on-
scene coordinator.
    Chairman Thompson. Well, we will provide you with some 
information to the contrary relative to the testimony from a 
previous witness and ask you to respond on it.
    [The information follows:]

    Question. Did BP have the power to veto any decisions made by the 
National Incident Command (NIC), and if so, under what circumstances 
and authority; Did BP, in fact, veto any of the NIC's decisions stating 
the particular circumstances of any veto; and If BP did not have the 
power to veto decisions made by the NIC, then what authority or input 
did BP have regarding response measures to be carried out through the 
NIC?
    Answer. BP did not have the power to veto decisions of the National 
Incident Command and therefore did not. BP does have membership on the 
Unified Area Command (UAC). This allows BP to provide expertise and 
useful information in determining response priorities and actions. It 
also allows BP to best support the response efforts. Final decision 
authority within the UAC resides with the Federal On-Scene Coordinator. 
BP also had access to directly discuss response measures and decisions 
with the National Incident Command.

    Chairman Thompson. The other issue--and I will give you 
plenty of time, Mr. Green. You are the last questioner.
    With respect to dispersants, did the Coast Guard approve BP 
using the amount of dispersants that was used, or was that a BP 
decision?
    Admiral Neffenger. No. It starts with the pre-approval of 
the Regional Response Team, that is the collection of agencies 
at the Federal level and that handle all those pre-approval 
processes. So the dispersant that was used was already on a 
pre-approved dispersant use list.
    On a daily basis BP had to request permission from the 
Federal on-scene coordinator, from the Coast Guard, in order to 
use dispersants. Any use of dispersants was approved by the 
Federal on-scene coordinator.
    Chairman Thompson. So the volume, i.e. the amount, of 
dispersant, was approved by the Coast Guard.
    Admiral Neffenger. On a daily basis, yes, sir.
    But if I could add to that. The use of dispersants is 
always a tradeoff. The tradeoff is this: You know that when you 
have a spill of this magnitude--and, as I said, every day it 
was a major new oil spill--you want to avoid as much shoreline 
impact as possible because we know how sensitive those marsh 
areas are and how many natural resources are at risk in the 
event oil comes ashore. So dispersants are one way you can 
mitigate that amount coming to shore and hopefully break it up 
enough so that natural processes can act on it.
    Second, those individuals working at the site, there is a 
tremendous amount of oil, as you know, coming right up at the 
well site, and that generated a lot of what are called volatile 
organic compounds. These are just the aromatics that come off 
the top. They are very hazardous and dangerous to your health. 
So the dispersants were used on the surface to knock those down 
for the safety of workers at the site.
    So those were the two primary reason dispersants were used. 
The amount that was used in any given day, while we attempted 
to minimize as much as possible, was used based upon those two 
considerations.
    Chairman Thompson. I yield back to the gentleman from 
Texas. Thank you for being so kind.
    Mr. Green. I thank you for your questions. I welcome that 
type of inquiry. Thank you very much.
    With reference to the perception of leadership and 
perception of who is in charge, somehow, at the genesis of 
this, BP stepped up to the microphone, stepped up to the world 
stage, and presented an image of being not only in charge to 
the extent that they were rendering technical expertise, but 
that this was their, for better want of terminology, it was 
their operation to manage in total.
    Now am I to understand that while BP provided expertise, it 
was actually the Federal Government that was literally in 
charge of the incident?
    Admiral Neffenger. Yes, sir. That is in accordance with the 
law.
    Mr. Green. If that is the case, and that is the way I 
understand it, a litigator in a courtroom brings in experts, 
but at no time does a litigator allow the appearance, the 
perception to exist that the expert is in charge of the 
litigation. Somehow we have to come--we have to look at this 
carefully now, because it can happen again.
    Somehow we allowed BP to seize this perception of being in 
charge and, in so doing, gave the public some degree of 
discomfort because of what you said about being responsible for 
what happened and then for the clean-up and the mitigation 
effort.
    So I am bringing this up because when this happens again--
and I pray that it never does; 11 lives were too many. One life 
is too many. It hurts my heart to talk about this because I can 
never talk about it without talking about those lives that were 
lost. But somehow BP or the next BP must not seize the moment 
such that the ultimate authority appears to be secondary or 
perhaps even tertiary to the primary authority--actually, the 
assumed primary authority, which was BP.
    Am I making this clear to you, Admiral? If not, I can say 
it in different words. I do have the ability to speak such that 
people can understand me. So if that is not clear, I would like 
to say it in different words. But do you follow what I am 
saying?
    Admiral Neffenger. Yes, sir. I do.
    Let me add, I think what we really noticed in an incidence 
of this magnitude is, and it goes back to the early comment 
about the local nature of oil spills of this magnitude, if you 
look back over the 11,000-plus oil spills that the Federal 
Government has responded to in the water--the Coast Guard is 
the Federal entity and coordinator since the Exxon spill, and 
they are of all sizes. I mean, some of are very, very small, 
anything from a quart of an oil to a few hundred gallons into 
something as large as this--what you normally find, the average 
citizen normally doesn't see any of that response.
    So you work closely with the person responsible. You act 
out to enforce the requirement to have them clean it up, to 
bring the resources to the scene and to move forward, and then 
you go from there.
    This response, however, looked a lot more like a natural, a 
major natural disaster than it did--it looked a lot like, and 
particularly considering where it happened, along the Gulf 
Coast, you know, a population that has suffered considerably 
over the past 5 years or so from natural disasters. This felt 
very local. It threatened the livelihoods of the people down 
there. It threatened their fishing grounds, and it became this 
on-going threat without a perceived end for some period of 
time. That dramatically changes the nature of it.
    I think you have to account for that, going forward, being 
the case. This is a world in which the availability of 
information, the interest on the part of the public is 
significant. I think that is good because it brings a lot of 
people to bear; it brings a lot of people forward that say, I 
want to help, I want to do something. But it also gets to that 
question, I think, you have with regard to perception.
    So moving forward, one of the things that you want to look 
at in judging the lessons of this is: How do we better involve 
the populace from the beginning? How do we address their 
concerns and their needs in a way that helps to explain why 
they might see something like a BP representative talking about 
what they are doing to stop the oil flow, but that doesn't mean 
that the BP representative is running the show. I don't know if 
that's responsive to your question, sir.
    Mr. Green. It is, and I will leave with this, and I thank 
you for your response.
    Here is the circumstance that we now have to negotiate: We 
had one strike with Katrina, because we didn't have someone to 
immediately step forward and say: I am in charge. The Governor 
equivocated. The mayor was involved. But we didn't have someone 
to immediately step up and say: I am in charge.
    With this incident, there was some question as to who was 
in charge. At some point, when these things happen, at or near 
Day 1, someone has to step up and say: I am in charge. It 
really, it is a simple concept, but it is something that has to 
happen, so that the public can acquire that degree of comfort 
necessary to allow us to move forward and do the things that we 
have to do, because we are continually being questioned about 
who really was in charge, even though we know the hierarchy 
associated with this concern.
    So I thank you, and I just wanted to have that moment to 
let you know that we have a concern that has to be addressed. 
Thank you.
    I thank you, Mr. Chairman for the additional time.
    Chairman Thompson. Thank you.
    But I also appreciate you raising the issue.
    President Taffaro was clear in his testimony that when his 
parish made a request to the Coast Guard, BP disagreed with the 
request. I am trying to figure out, how does BP get into a 
response scenario to do anything other than--can you kind of 
explain?
    I understand that they were there for advice or whatever. 
But when they get to the point where they become part of the 
decision-making process, to that local official, it is almost 
like the person who caused the problem is now determining what 
solution is applied to the problem they created.
    Admiral Neffenger. Well, I don't know the specific incident 
of which you are speaking, but I can say, in general terms, as 
I noted before, BP would often, throughout the course of this 
response, make recommendations as to how to go about 
implementing something that we ordered them to do from the 
Federal on-scene coordinator, anything from, with respect to 
how you might deploy resources to the types of resources that 
might be available.
    That doesn't necessarily mean that they got to choose which 
one it was, but because they are paying for it and we are 
asking them to order it and they might come back and say, look, 
I can't get this type of equipment, but I can get this; do you 
think that might work?
    With respect to their participation in direct requests from 
parish presidents back to the Coast Guard, I just don't have 
any direct knowledge of that, sir. But I would be happy to take 
any of those incidents for the record and respond to them.
    Chairman Thompson. Mr. Skinner, did your review indicate 
any problems along this line? Or you haven't looked at it?
    Mr. Skinner. We are currently in the middle of our review 
right now, Mr. Chairman.
    Chairman Thompson. Well, I think part of this after-action 
or lessons-learned effort on behalf of the committee is to, as 
the gentleman from Texas indicated, you want to be very clear 
who is in charge.
    But for that local elected official, who, for the most 
part, is the individual being contacted by local citizens, they 
need to have a very clear line.
    But the process also should be one that involves training 
of local personnel and others, and I think we can do plans. We 
can do all those other things that Katrina taught us. Plans are 
on the shelf, and they are no better than the people who are 
tasked with the responsibility of carrying them out.
    I guess the question, last question for me, Admiral, if a 
comparable spill occurred tomorrow, what have we learned from 
the Horizon spill that would be beneficial for that spill?
    Admiral Neffenger. Well, I think, as you have noted, sir, 
what we learned immediately is you have to involve local 
mayors, local councils, local parish presidents immediately in 
the response and provide an active space for them in the 
response structure.
    We have always worked with the States, but you can't make 
the assumption that the State can speak for the needs of local 
populace. That is, to me, one of the early and most positive 
lessons that we learned out of this and we addressed during the 
course of the response.
    The parish president liaisons, for example, were put in 
place in the third week of May, so just a month into the 
response, to address specifically some of those very real and 
vocal concerns that came up. So that is one immediate thing you 
would do differently is immediately involve them.
    Some other things that we learned were how to do just-in-
time training for people who hadn't otherwise been trained. By 
the end of this response, we were moving people through on-
site, just-in-time training for hazardous materials handling, 
for basic understanding of oil spill hazards and so forth.
    Chairman Thompson. Do we have personnel available to us to 
handle a comparable response like the Horizon from the Coast 
Guard standpoint?
    Admiral Neffenger. Well, a response of this magnitude 
stresses any organization, particularly as it goes over time. I 
am not sure that you ever want to just have on the shelf enough 
to respond to something of this magnitude.
    What you really need to do is ensure that you have 
expertise, that you take the expertise we learned from this, 
you distribute it throughout the organization so that you have 
a base of trained people within your organization, and then you 
know how to reach out to all those resources that are available 
to you across the Government.
    Chairman Thompson. So do we have the expertise?
    Admiral Neffenger. I believe we do, yes, sir. I believe 
that this spill has given us even more of that expertise.
    Chairman Thompson. So, how do we resolve the perception 
question if we have the expertise now?
    Admiral Neffenger. Well, I think it goes back to a better 
connection early on in a response with the local population, 
with the local mayors, the local parish presidents and helping 
them to understand, you know, that the process that is here--
you know, some of this is the tension between expectations of 
Federal response in a disaster. You know the Stafford Act is a 
Federal support to local authorities, and local authorities 
implement the response.
    The Oil Pollution Act of 1990 establishes a very different 
structure. It is a Federally-directed structure that puts the 
Federal Government in charge with assistance from the State and 
local entities, but the money doesn't go to the State and local 
entities from the Federal Government.
    So that is a natural tension that develops, particularly 
among a geographic region that is probably more familiar with a 
FEMA-like Stafford Act response.
    So, I think some of it is just understanding the 
difference, and then allowing for a Federally-directed 
response, because you want that unity of effort, particularly 
when you have something of this geographic scope. I mean, it 
crossed five States and multiple geographic and jurisdictional 
boundaries. So I think that it is a good thing to have a 
Federal entity ensuring that unity of effort.
    But then you have to have a way to tie in the very real 
needs and demands of the local populations, because the effect 
of that oil spill is very different depending upon where you 
stand on the Gulf Coast.
    Chairman Thompson. It is clear that the purpose of this 
hearing was to kind of come up with going forward and the 
review. Obviously, there are a lot of questions yet to be 
answered. But let me thank you for your patience and indulgence 
as witnesses and your valuable testimony.
    I would again like to remind you that Members of the 
committee may have additional questions for you, and we will 
ask that you respond expeditiously in writing to those 
questions. There being no further business, the committee 
stands adjourned.
    [Whereupon, at 1:23 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              

 Questions From Chairman Bennie G. Thompson of Mississippi for Richard 
                               M. Chavez

    Question 1. According to the National Contingency Plan, the 
Commandant of the Coast Guard appoints the National Incident Commander 
(NIC) and determines whether a spill is a Spill of National 
Significance (SONS). However, the Secretary of Homeland Security 
declared the SONS and appointed the NIC. Why was this the case? Will 
the administration revise the National Contingency Plan to formally 
grant the Secretary these authorities?
    Answer. Under the Homeland Security Act of 2002, the Secretary of 
the Department of Homeland Security is ``the [Federal] focal point 
regarding natural and manmade crises and emergency planning.'' Under 
that Act and Homeland Security Presidential Directive 5 (HSPD-5), the 
Secretary serves as the principal Federal official for all domestic 
incidents, and therefore has overall responsibility for coordinating 
the Federal Government's resources in response to and recovery from 
incidents like a Spill of National Significance (SONS). The National 
Contingency Plan sets forth the framework and organizational structure 
for the Federal response to oil spills, including the designation of a 
National Incident Commander, if one is necessary. Thus, for a SONS 
incident in the coastal zones, the Secretary of Homeland Security or 
the Commandant of the Coast Guard may name the National Incident 
Commander. In the Deepwater Horizon oil spill, the Secretary named the 
Commandant of the Coast Guard as the National Incident Commander.
    Question 2. According to HSPD-8, the head of each Federal 
department or agency is required to undertake actions to support the 
National preparedness goal, including adoption of quantifiable 
performance measurements in the areas of training, planning, equipment, 
and exercises for Federal incident management and asset preparedness. 
Does DHS review these performance measurements? If not, who has 
oversight over these Federal departments or agencies to ensure that 
they are meeting the Secretary's National preparedness goal?
    Answer. As an operational component of DHS, the Federal Emergency 
Management Agency (FEMA) is the Department's lead agency for 
preparedness. Specifically, FEMA's National Preparedness Directorate 
(NPD) within Protection and National Preparedness is responsible for 
leading the Nation's efforts to enhance preparedness to prevent, 
protect from, respond to, and recover from disasters, natural and 
manmade. NPD strives to achieve a Nation prepared through a 
comprehensive cycle of planning, organizing and equipping, training, 
exercising, evaluating, and improvement planning.
    In 2007, FEMA published the National Preparedness Guidelines which 
finalized the development of the National Preparedness Goal and its 
related preparedness tools. The Guidelines, including the supporting 
Target Capabilities List, defines what it means for the Nation to be 
prepared for all hazards. There are four critical elements of the 
Guidelines:
    (1) The National Preparedness Vision, which provides a concise 
        statement of the core preparedness goal for the Nation.
    (2) The National Planning Scenarios, which depict a diverse set of 
        high-consequence threat scenarios of both potential terrorist 
        attacks and natural disasters.
    (3) The Universal Task List (UTL), which is a menu of some 1,600 
        unique tasks that can facilitate efforts to prevent, protect 
        against, respond to, and recover from the major events that are 
        represented by the National Planning Scenarios.
    (4) The Target Capabilities List (TCL), which defines 37 specific 
        capabilities that communities, the private sector, and all 
        levels of government should collectively possess in order to 
        respond effectively to disasters.
    To support the Federal role in implementing the preparedness 
framework outlined in the Guidelines, Federal departments and agencies 
were directed to do the following:
    (1) Support and participate in the management and maintenance 
        structure and process developed for the Guidelines, associated 
        tools, and Capabilities-Based Preparedness process; and
    (2) Initiate or re-orient programs and initiatives to implement the 
        Guidelines.
    Additionally, in the Post Katrina Emergency Management Reform Act, 
Congress tasked FEMA with producing a series of reports, including a 
Federal Preparedness Report, to address preparedness questions. FEMA 
subsequently worked with Congress to consolidate this series of reports 
into one National Preparedness Report. This report is still underway, 
but should be entered into the interagency process soon.
    Question 3a. What are the roles and responsibilities of the Office 
of Operations Coordination and Planning?
    How was your office contributing to the incident management for the 
Deepwater Horizon Oil Spill?
    Question 3b. Does your office have any responsibilities under the 
National Response Framework? If so, please describe these duties.
    Answer. The Office of Operations Coordination and Planning (OPS) 
supports the Secretary by ensuring that the Department has 
collaborative operations coordination and planning capabilities at the 
strategic level. OPS provides support to Departmental leadership by 
facilitating internal DHS operational decision-making and the 
Department's involvement in interagency operations.
    The National Operations Center (NOC), one of the divisions of OPS, 
serves as the primary National-level hub for domestic situational 
awareness and operations coordination across the Federal Government 
pertaining to the prevention of terrorist attacks and for domestic 
incident management. The NOC is central to our ability to maintain 
situational awareness for the Secretary and Department leadership. It 
collects and synthesizes all-source information across all threats and 
all hazards, covering the full spectrum of homeland security missions 
and partners, sharing event-related and operational information with 
Federal, State, local, territorial, Tribal, and non-governmental 
partners. Additionally, the NOC serves as the primary coordinating 
center for other Federal operations centers focused on homeland 
security operations. In performing these functions, the NOC ensures 
that critical information related to terrorism, disasters, and other 
threats reaches Government decision-makers in a timely manner.
    The NOC operates 24 hours a day, 7 days a week, 365 days a year, to 
support the Secretary and the Department's mission.
    OPS coordinates with DHS Components and interagency partners to 
develop strategic-level plans to support the effective execution of the 
Secretary's incident coordination responsibilities, as defined in the 
Homeland Security Act and Presidential Directives. OPS works with 
representatives from DHS Components and other Federal, State, and local 
partners to develop strategic plans and guidance. OPS also supports the 
Secretary by providing operational planning expertise during crises.
    As DHS Continuity Coordinator, OPS is responsible for ensuring the 
effectiveness and survivability of all DHS Primary Mission Essential 
Functions (PMEFs). OPS works with Component leadership to ensure that 
PMEFs will be sustained even during emergencies that could 
significantly hamper personnel, facilities, or operations for homeland 
security missions.
    The Deepwater Horizon oil rig exploded on 20 April 2010. In the 
hours and days following the explosion, OPS, the NOC, DHS Components, 
and our partners supported the Secretary, the Department, and the 
interagency community in responding to what began as a search and 
rescue event.
    On 21 April 2010, OPS initiated the crisis action process, which 
uses a dedicated staff that can provide detailed information and 
decision support for a specific incident, while minimizing the impact 
to our on-going missions. On 29 April 2010, a Spill of National 
Significance (SONS) was declared and OPS activated the full Crisis 
Action Team (CAT) to support the Secretary and the National Incident 
Commander, who would be later named, in directing response efforts. The 
CAT stood down on 6 August 2010, after 99 days of continuous operation.
    OPS actions during the BP Deepwater Horizon response, with support 
from our partners, included the following:
  <bullet> Coordinating responses to Requests for Information (RFIs) on 
        a nearly daily basis;
  <bullet> Preparing Senior Leadership Briefs (SLBs);
  <bullet> Developing decision support products for the Secretary and 
        other DHS leadership; and
  <bullet> Contributing to a robust interagency response effort through 
        regular coordination calls, teleconferences, and other 
        briefings.
    In response to the BP Deepwater Horizon oil spill, OPS provided 
strategic level support, in accordance with a predefined set of plans 
and standard operating procedures, for the National Incident Commander, 
the Secretary of Homeland Security, and the President of the United 
States.
    The NRF highlights the NOC responsibilities/actions. It states that 
the NOC serves as the National fusion center, collecting and 
synthesizing all-source information, including information from State 
fusion centers, across all-threats and all-hazards information covering 
the spectrum of homeland security partners. Federal departments and 
agencies should report information regarding actual or potential 
incidents requiring a coordinated Federal response to the NOC.
    Question 4. The Macondo well was 5,067 feet deep, and it leaked 
over 200 million gallons of crude oil into the Gulf of Mexico when the 
blowout preventer failed. There are at least three other wells that 
have been drilled in the Gulf at depths of up to 9,627 feet, and could 
do even more damage in a major spill.
    What steps is the Department taking to ensure that the Government 
has access to the necessary equipment, technology, and expertise to 
respond to a spill at these depths?
    Answer. The Coast Guard is working with other Government agencies, 
National Response Team members, States and local governments, the oil 
industry and the oil spill removal organizations (OSROs) at the local, 
regional, and National levels to review existing industry and 
Government plans. These reviews are intended to validate and revise 
when appropriate the stakeholder communities involved in planning worst 
case discharge planning assumptions, the completeness of strategies and 
assumptions in place to address the worst case discharge, and the 
equipment and personnel availability to carry out those strategies. 
These reviews will include review of pre-authorization agreements for 
dispersant, in-situ burning and any other innovative response 
techniques that may be considered for use in spill response.
    At the National level, both industry and Government are in the 
process of re-examining the efficacy of planning standards contained in 
the regulations relative to ``estimated daily recovery capacity'' for 
mechanical recovery equipment as well as efficiency estimates for both 
in-situ burning and dispersion. To improve awareness and mobilization 
of resources from around the country, we are working with the OSROs to 
enhance the National Response Resource Inventory. We have also 
initiated efforts through the Department of State to engage 
internationally in sharing information about and access to response 
resources world-wide.
    Question 5a. The Coast Guard does not have direct authority to 
review disaster plans for underwater sub-platform drilling systems. 
That authority rests with the Department of Interior. In the case of 
the Deepwater Horizon, BP's plan was a cookie-cutter plan that listed 
seals and walruses as animals dwelling in the Gulf.
    Did anyone in the Department review this plan?
    Question 5b. Has anyone at the Department reviewed the sub-platform 
disaster plans for any deepwater wells? If not, why not?
    Question 5c. Has the Department performed a review to identify gaps 
in DHS disaster planning authority?
    Question 5d. What is the Department's strategy for ensuring 
effective disaster planning where other Federal agencies control 
disaster planning, or for unregulated industries?
    Question 5e. Does the Department need new authorities so that it 
can review these plans in the future?
    Answer. The Department of Homeland Security (DHS) did not review 
BP's plan before the oil spill and has not reviewed sub-platform 
disaster plans for any deepwater wells. There is no statutory authority 
for DHS to review or approve the disaster plan for the underwater sub-
platform drilling system for the Deepwater Horizon rig or for any other 
rigs operating on the Outer Continental Shelf. That is the 
responsibility of the Bureau of Ocean Energy Management, Regulation and 
Enforcement (BOEMRE), formerly the Minerals Management Service (MMS).
    DHS is constantly capturing after-action items from exercises and 
real-world events such as the Deepwater Horizon Oil Spill. These after-
action items are taken for future corrective actions, as necessary.
    DHS/FEMA is leading the development of multiple interagency 
disaster planning activities, including catastrophic planning for 
responding to hurricanes, earthquakes, tsunamis, Improvised Nuclear 
Devices, and other natural and man-made disasters, including terrorism.
    DHS is still in the after-action review process for the Deepwater 
Horizon disaster and is working with other Federal, State, and local 
partners as well as private industry to identify needed corrective 
actions. This process will yield any recommendations for expanded 
authorities for the Department, and will be presented to Congress at 
that time.
    Question 6a. DHS is not mentioned in the National Contingency Plan 
addressing Federal Government oil spill response.
    Has this caused confusion or posed any challenges for DHS in 
leading Deepwater Horizon response efforts?
    Question 6b. How should these issues be addressed going forward?
    Answer. Under the Homeland Security Act of 2002 and the Homeland 
Security Presidential Directive (HSPD-5), the Secretary of the 
Department of Homeland Security is the Federal focal point regarding 
natural and man-made crises and serves as the principal Federal 
official for all domestic incidents. The National Contingency Plan 
(NCP) sets forth the framework and organizational structure for the 
Federal response to oil spills--a type of domestic incident. The NCP 
names the Coast Guard as the response lead for oil spills in coastal 
zones. Once the Secretary designated the Deepwater Horizon oil spill a 
Spill of National Significance, the Secretary led the multi-agency 
Federal response to the oil spill with the Coast Guard leading the 
operational response on the ground. We are not aware of any confusion 
in DHS' role in the Deepwater Horizon response.
    Question 7a. Who in the Department is responsible for establishing 
policy and overall strategy for fulfilling the obligation to 
collaborate Federal disaster planning efforts? Where is this policy or 
strategy documented?
    Who is responsible for oversight of DHS components' disaster 
planning activities? Describe these internal oversight efforts.
    Question 7b. What accountability measures are in place to ensure 
that appropriate disaster planning is being done within DHS and 
throughout the Federal Government?
    Answer. The Federal Emergency Management Agency (FEMA) and the 
Office of Policy establish policy and strategy for collaborating on 
Federal disaster planning efforts. FEMA's role in establishing policy 
and strategy for Federal disaster planning efforts is described in the 
National Response Framework (NRF) and the 2006 Post-Katrina Emergency 
Management Reform Act. FEMA is currently leading the development of 
multiple inter-agency disaster planning activities, including 
catastrophic planning for responding to hurricanes, earthquakes, 
tsunamis, Improvised Nuclear Devices (IND), and other natural and 
manmade disasters including terrorism. FEMA also coordinates Emergency 
Support Function (ESF) emergency management resources and has invested 
substantial time in meeting with the ESFs through the auspices of the 
Emergency Support Functions Leadership Group (ESFLG). Under the NRF, 
Federal departments and agencies and the American Red Cross are grouped 
by capabilities and types of expertise, into ESFs to provide the 
planning, support, resources, program implementation, and emergency 
services that are most likely to be needed during a disaster response.
    As established in Homeland Security Presidential Directive--5, the 
Secretary of Homeland Security is the principal Federal official for 
domestic incident management. The Secretary employs the DHS Office of 
Policy to strengthen homeland security by developing and integrating 
Department-wide policies, planning, and programs in order to better 
coordinate the Department's response and recovery missions. The DHS 
strategy for policy and planning is documented in the DHS Strategic 
Plan Fiscal Years 2008-2013. DHS Office of Policy represents the 
Department at interagency policy committee meetings of the National 
Security Staff's Domestic Resilience Group (DRG). FEMA also 
participates in and is represented on the DRG, which coordinates policy 
development and implementation by multiple agencies of the United 
States Government for National security policies related to domestic 
emergency management preparedness policy, response, and incident 
management for all hazards. The DHS Office of Policy also leads 
development of the Quadrennial Homeland Security Review, which includes 
a strategic framework for ensuring resilience to disasters.
    Pursuant to statute and Secretarial direction, the responsibility 
to lead the collaboration of overall Federal disaster planning efforts 
rests with FEMA. Within that responsibility, FEMA coordinates specific 
disaster response planning with those agencies responsible for certain 
types of disasters.
    Each DHS component is responsible for developing appropriate 
disaster planning and associated activities for its organization based 
on requirements set out in statute or at the direction of the component 
head, the Secretary, or the White House. The Office of Operations 
Coordination and Planning (OPS) is responsible for coordinating the 
development of plans specific to Department operations. OPS does this 
by establishing intra-departmental planning teams for developing 
threat-specific plans; facilitating and coordinating the planning, 
review, and approval process; and distribution of approved plans. In 
addition, if requested, OPS supports components in development of their 
component-specific plans and reviews component-specific plans, as 
appropriate. However, OPS does not have actual oversight of individual 
components' disaster-planning activities.
    DHS is not aware of any formal accountability measures in place to 
ensure appropriate disaster planning is being done within DHS or 
throughout the Federal Government. However, when the Secretary, the 
President, or the National Security Staff order the development of a 
threat-specific plan or set of plans, such as in response to the 
anthrax threat, DHS tracks the development of each required plan. OPS 
is responsible for tracking DHS-specific planning efforts. FEMA is 
responsible for tracking Federal interagency planning efforts.
    Question 8a. What authority does the Department have to corral the 
resources of other Federal agencies in response to a major disaster?
    What mechanism or authority was used to access Federal resources 
outside of DHS during the Deepwater Horizon response?
    Question 8b. What lessons were learned from these efforts that 
would improve future response efforts where multiple Federal agencies 
are involved in the response?
    Answer. The Federal Emergency Management Agency (FEMA) and the 
Office of Policy establish policy and strategy for collaborating on 
Federal disaster planning efforts. FEMA's role in establishing policy 
and strategy for Federal disaster planning efforts is described in the 
National Response Framework (NRF) and the 2006 Post-Katrina Emergency 
Management Reform Act. In addition, the Robert T. Stafford Disaster 
Relief and Emergency Assistance Act describes the programs and 
processes by which the Federal Government provides disaster and 
emergency assistance to State and local governments, Tribal nations, 
eligible private nonprofit organizations, and individuals affected by a 
declared major disaster or emergency. FEMA is currently leading the 
development of multiple inter-agency disaster planning activities, 
including catastrophic planning for responding to hurricanes, 
earthquakes, tsunamis, Improvised Nuclear Devices (IND), and other 
natural and man-made disasters including terrorism. FEMA also 
coordinates Emergency Support Function (ESF) emergency management 
resources and has invested substantial time in meeting with the ESFs 
through the auspices of the Emergency Support Functions Leadership 
Group (ESFLG). Under the NRF, Federal departments and agencies and the 
American Red Cross are grouped by capabilities and types of expertise, 
into ESFs to provide the planning, support, resources, program 
implementation, and emergency services that are most likely to be 
needed during a disaster response.
    HSPD-5, Management of Domestic Incidents, establishes a single, 
comprehensive National incident management system. Pursuant to HSPD-5, 
the Secretary of Homeland Security is the principal Federal official 
for domestic incident management, and is responsible for coordinating 
Federal operations within the United States to prepare for, respond to, 
and recover from terrorist attacks, major disasters, and other 
emergencies. The Secretary is also responsible for coordinating the 
Federal Government's resources utilized in response to or recovery from 
terrorist attacks, major disasters, or other emergencies under any one 
of the following circumstances: (1) A Federal department or agency 
acting under its own authority has requested the assistance of the 
Secretary; (2) the resources of State and local authorities are 
overwhelmed and Federal assistance has been requested by the 
appropriate State and local authorities; (3) more than one Federal 
department or agency has become substantially involved in responding to 
the incident; or (4) the Secretary has been directed to assume 
responsibility for managing the domestic incident by the President. 
Additionally, the Post-Katrina Emergency Management Reform Act of 2006 
(PKEMRA) establishes the FEMA Administrator as the principal advisor to 
the President, the Homeland Security Council, and the Secretary for all 
matters relating to emergency management in the United States and 
responsible for providing the Federal leadership necessary to prepare 
for, protect against, respond to, recover from, or mitigate against 
natural disasters, acts of terrorism, or other man-made disasters.
    With regard to oil spills, in particular, the Oil Pollution Act 
authorizes the President to direct Federal, State, and private actions 
to remove discharged oil in oil spills. Through the Oil Pollution Act, 
the Homeland Security Act of 2002 and the Homeland Security 
Presidential Directive--5 (HSPD-5), the Department of Homeland Security 
was able to access and direct Federal resources outside of the 
Department of Homeland Security during the Deepwater Horizon oil spill. 
For instance, DHS leveraged the Interagency Remote Sensing Coordination 
Cell (IRSCC), which comprises 18 Federal organizations (NOAA, USGS, 
USDA, NASA, EPA, USCG, and seven DHS component organizations, and five 
Department of Defense organizations).
    Collectively, the IRSCC was established to coordinate, synchronize, 
collaborate, and track remote sensing data acquisition activities and 
capabilities; to ensure information needs of first responders, State 
emergency managers, and Federal managers are established and addressed; 
to establish an environment to facilitate awareness and sharing of 
remote sensing data; and to improve the governance of Federal remote 
sensing operations by minimizing duplication of effort and unnecessary 
tasking, and reducing operational costs.
    The IRSCC provided the NIC a mechanism for obtaining remotely 
sensed data regarding all aspects of the SONS response. The NIC 
provided the IRSCC with six detailed information requirements related 
to the threat posed to the United States by the oil spill. The IRSCC 
used remotely sensed data on a daily basis to determine the extent of 
the oil spill, measure its growth/shrinkage, and direct skimming 
vessels into the appropriate portions of the spill. The IRSCC also used 
this data to track the many miles of boom placed along the coastline to 
protect estuaries and other sensitive areas along the coast.

  Questions From Chairman Bennie G. Thompson of Mississippi for Peter 
                               Neffenger

    Question 1. Did the Coast Guard review BP's spill response plan or 
its lease exploration plan for the Macondo project? If not, why not? 
Does the Coast Guard need new authorities to ensure that it is able to 
review relevant plans in the future?
    Answer. No, the Coast Guard did not review BP's spill response plan 
or its lease exploration plan for the Macondo project. There is no 
statutory requirement for the Coast Guard to review or approve Oil 
Spill Response Plans (OSRP) for facilities operating on the Outer 
Continental Shelf (OCS). That is the responsibility of the Bureau of 
Ocean Energy Management, Regulation, and Enforcement (BOEMRE), formerly 
the Minerals Management Service. If the Coast Guard is to be tasked 
with review of OSRP's, new authorities and resources would be required.
    Question 2. Was any aspect of the Federal response to the Deepwater 
Horizon spill hampered by limitations in the Coast Guard's authority? 
What authority did the Coast Guard have to direct the activities of 
other Federal players involved in the response? Has the Coast Guard 
identified gaps in its authorities that should be addressed going 
forward?
    Answer. No aspects of the Federal response were hampered by 
limitations in the Coast Guard's authority. In accordance with the 
National Oil and Hazardous Substances Pollution Contingency Plan (NCP/
40 CFR 300.120) the Coast Guard Federal On-Scene Coordinator (FOSC) 
directs response efforts and coordinates all other efforts at the scene 
of a discharge or release. As part of the planning and preparedness for 
response, FOSCs are required to be pre-designated by the Regional or 
District head of the lead agency. The Coast Guard is required to 
provide FOSCs for oil discharges, including discharges from facilities 
and vessels under the jurisdiction of another Federal agency, within or 
threatening the coastal zone.
    Currently, there are a series of after-action reports being 
generated that will identify lessons learned and recommendations 
regarding many issues, including National response to oil spills that 
occur as a result of offshore continental shelf activities. We will not 
have a definitive list of issues and recommendations regarding Coast 
Guard authorities until these reports are completed and the lessons 
learned and recommendations are fully evaluated.
    Question 3. The Coast Guard has extensive experience in surface 
spill clean-up and response, but what in-house expertise and equipment 
was available to deal with this deepwater spill? How can this capacity 
be improved?
    Answer. A variety of Coast Guard resources that included equipment 
and experienced personnel were used during the DEEPWATER HORIZON (DWH) 
response. For example, hundreds of fully qualified Pollution 
Investigators and Federal On-Scene Coordinator Representatives were 
used to oversee the surface oil spill clean-up activities for the 
duration of the response. Additionally, personnel that possessed 
specialized oil and HAZMAT skills and experience from the Coast Guard's 
three strike teams (Gulf, Atlantic, and Pacific) played key roles in 
the DWH response.
    The Coast Guard also employed its fleet of buoy tenders, deploying 
their Vessel of Opportunity Skimming Systems and Spilled Oil Recovery 
Systems in the response.
    Currently, there are a series of DWH after-action reports in 
development that will review all aspects of the response and inform 
improvements in Coast Guard capabilities.
    Question 4. What after-action reporting is the Coast Guard 
planning? What is the time frame for completion of this reporting? Will 
you commit to providing the committee with an update on after-action 
reporting efforts in 30 days, and to provide us these documents once 
they are completed?
    Answer. The Coast Guard has multiple after-action reports either 
completed or in progress. The National Incident Command (NIC) report 
was released on October 1, 2010. In December 2010, the Presidential 
Commission's Preparedness and Response Workgroup expects to release its 
findings. A Search and Rescue case study is anticipated to be completed 
in November. The Coast Guard will continue to update the committee on 
our efforts.
    Question 5. Due to the magnitude of this oil spill, what additional 
responsibilities have the National Incident Commander and the On-Scene 
Federal Coordinator taken on that were unforeseen when the National 
Contingency Plan was developed?
    What changes in roles and responsibilities do you foresee will be 
made to these positions under the National Contingency Plan?
    Answer. This was the first oil spill declared a SONS and therefore, 
the first oil spill where a NIC was designated. Section 300.323 of the 
National Contingency Plan (NCP) addresses the roles and 
responsibilities of the NIC. This section states, ``a National Incident 
Commander (NIC) . . . will assume the role of the OSC in communicating 
with affected parties and the public, and coordinating Federal, State, 
local, and international resources at the National level.''
    The magnitude of this spill required the NIC to undertake 
responsibilities to ensure a whole-of-Government approach to the 
response that is not described in this NCP citation. This included 
coordination of claims and coordination with the agencies responsible 
for public health activities, including coordination of closures to and 
reopening of fisheries. Since various investigations and reports 
examining the Deepwater Horizon response are still in progress, it is 
too soon to state specifically what changes may be made to this 
position under the NCP. With respect to the Federal On-Scene 
Coordinator (FOSC), we have yet to identify any responsibilities that 
the FOSC performed in this response that are not identified in the NCP.

    Questions From Honorable Gus M. Bilirakis of Florida for Peter 
                               Neffenger

    Question 1. Admiral, constituents of mine in both local government 
and the private sector have expressed their concerns about the lack of 
information sharing and exchange with Unified Command, especially at 
the outset of the response.
    What lessons have you learned from this response thus far with 
respect to communications and information sharing and how will these 
lessons shape plans for communicating with stakeholders in State and 
local governments and the private sector in future response efforts?
    Answer. From the outset of the Deepwater Horizon spill, the 
Governors of all affected Gulf States were intimately involved in the 
response efforts. To provide the governors of Louisiana, Mississippi, 
Alabama, Florida, and Texas with the most up-to-date information on 
response efforts, the White House instituted and moderated a daily 
conference call where the National Incident Commander (NIC) and the 
Federal on Scene Coordinator (FOSC) along with other Federal agencies 
briefed. The daily conference call was not only to impart information, 
but to provide the Governors a venue to ask questions, communicate 
concerns, and share their priorities and assessments of the response. 
In return, their candid feedback allowed us to align our efforts and 
tailor response strategies with each of the States. The daily 
conference call also allowed the Governors to raise many social and 
economic issues such as seafood testing to promote consumer confidence 
in Gulf seafood and behavioral and mental health concerns for their 
affected constituents. This daily conference call proved an effective 
communication forum for a multi-jurisdiction response.
    Local elected officials also played a significant role in the 
response from the start. There were some challenges in working with 
some officials due to their unfamiliarity with the oil spill response 
strategies outlined in the Area Contingency Plans (ACPs). To better 
promote unity of effort, in late May, we assigned more senior liaison 
officers to many of the local elected officials across all of the 
affected Gulf States. These liaison officers were created to ensure 
their concerns were relayed to the Incident Commanders and that 
response actions were coordinated to maximize effects.
    The communications and information-sharing mechanisms employed 
during the Deepwater Horizon contributed to effective sharing of real-
time information and continuous feedback across all appropriate 
Federal, State, local, and Tribal government authorities, response 
structures, and industry stakeholders. These mechanisms should be 
incorporated into regional planning guidance, included in future Area 
Contingency Plan revisions and oil spill response exercises, as 
appropriate.
    Question 2. Admiral, as we discussed at the Subcommittee on 
Management, Investigations, and Oversight's July field hearing in New 
Orleans, to meet the needs of the response the Coast Guard redeployed 
assets from around the country. You noted that surging for this length 
of time has been a challenge for the Coast Guard and that we have been 
fortunate to not have experienced any other major incidents that would 
have further stretched Coast Guard resources.
    Seeing how this spill impacted Coast Guard operations, what 
additional resources and/or authorities do you believe would be 
necessary should the Coast Guard need to respond to a similar incident 
in the future while also maintaining its other vital missions?
    Answer. During the past year the Coast Guard surged forces to meet 
the Nation's disaster response mission needs, including Haitian 
earthquake relief efforts, flooding on the Western Rivers, and the 
Deepwater Horizon oil spill. Throughout these surge operations, the 
Coast Guard continued to serve the American people by performing its 
everyday missions, including search and rescue, enforcing migrant laws, 
interdicting illegal drugs, protecting living marine resources, and 
ensuring resiliency of the Marine Transportation System. While 2010 was 
an exceptional operational year, these demanding operations highlighted 
the continuing decline of fleet readiness and reinforced that 
recapitalization of aged and obsolete cutters, boats, aircraft, and 
support infrastructure is Coast Guard's key strategic imperative.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
